APPENDIX

1a
APPENDIX A
SUPREME COURT OF ALABAMA
October Term, 2019-2020
December 20, 2019
________________________________
1170864
________________________________
Ex parte Aladdin Manufacturing Corporation et al.
PETITION FOR WRIT OF MANDAMUS
(In re: The Water Works and Sewer Board of the
Town of Centre
v.
3M Company et al.)
(Cherokee Circuit Court, CV-17-900049)
________________________________
1170887
________________________________
Ex parte Milliken & Company
PETITION FOR WRIT OF MANDAMUS
(In re: The Water Works and Sewer Board of the
Town of Centre
v.
3M Company et al.)
(Cherokee Circuit Court, CV-17-900049)

2a
________________________________
1170894
________________________________
Ex parte Textile Rubber and Chemical Company,
Inc.
PETITION FOR WRIT OF MANDAMUS
(In re: The Water Works and Sewer Board of the
Town of Centre
v.
3M Company et al.)
(Cherokee Circuit Court, CV-17-900049)
________________________________
1171182
________________________________
Ex parte Mohawk Industries, Inc., et al.
PETITION FOR WRIT OF MANDAMUS
(In re: The Water Works and Sewer Board of the City
of Gadsden
v.
3M Company et al.)
(Etowah Circuit Court, CV-16-900676)
________________________________
1171196
________________________________
Ex parte Dorsett Industries, Inc.
PETITION FOR WRIT OF MANDAMUS

3a
(In re: The Water Works and Sewer Board of the City
of Gadsden
v.
3M Company et al.)
(Etowah Circuit Court, CV-16-900676)
________________________________
1171197
________________________________
Ex parte Indian Summer Carpet Mills, Inc.
PETITION FOR WRIT OF MANDAMUS
(In re: The Water Works and Sewer Board of the City
of Gadsden
v.
3M Company et al.)
(Etowah Circuit Court, CV-16-900676)
________________________________
1171198
________________________________
PETITION FOR WRIT OF MANDAMUS
(In re: The Water Works and Sewer Board of the City
of Gadsden
v.
3M Company et al.)
(Etowah Circuit Court, CV-16-900676)
Ex parte Oriental Weavers USA, Inc.

4a
________________________________
1171199
________________________________
Ex parte Kaleen Rugs, Inc.
PETITION FOR WRIT OF MANDAMUS
(In re: The Water Works and Sewer Board of the City
of Gadsden
v.
3M Company et al.)
(Etowah Circuit Court, CV-16-900676)
STEWART, Justice.
These mandamus petitions present the question
whether the Cherokee Circuit Court and the Etowah
Circuit Court (hereinafter referred to collectively as
“the trial courts”) can properly exercise personal jurisdiction over the petitioners, out-of-state companies
(hereinafter referred to collectively as “the defendants”), in actions filed against them by the Water
Works and Sewer Board of the Town of Centre (“Centre Water”) and the Water Works and Sewer Board of
the City of Gadsden (“Gadsden Water”). Centre Water
and Gadsden Water allege that the defendants discharged toxic chemicals into industrial wastewater
from their plants in Georgia, which subsequently contaminated Centre Water’s and Gadsden Water’s
downstream water sources in Alabama. After moving
unsuccessfully in the trial courts to have the actions
against them dismissed, the defendants have filed petitions for writs of mandamus seeking orders from this
Court directing the trial courts to dismiss the actions
against them based on a lack of personal jurisdiction.

5a
We have consolidated all the petitions for the purpose
of issuing one opinion.
I.

Facts and Procedural History

A. The Cherokee County Case
On May 15, 2017, Centre Water filed an action in
the Cherokee Circuit Court seeking injunctive relief
and damages and asserting claims of negligence, wantonness, nuisance, and trespass against the following
companies, among others, located in Dalton, Georgia:
Aladdin Manufacturing Corporation, Mohawk Industries, Inc., Mohawk Carpet, LLC, Shaw Industries,
Inc., Arrowstar, LLC, Engineered Floors, LLC, J&J
Industries, Inc., MFG Chemical, Inc., The Dixie
Group, Inc., Milliken & Company, and Textile Rubber
and Chemical Company, Inc. (“the Cherokee County
defendants”). In the complaint, Centre Water alleged
that the Cherokee County defendants, who are carpet
manufacturers or chemical manufacturers, had released “toxic chemicals, including perfluorinated compounds (‘PFCs’), including, but not limited to perfluorooctanoic acid (‘PFOA’), perfluorooctane sulfonate
(‘PFOS’), precursors to PFOA and PFOS, and related
chemicals” (hereinafter referred to collectively as
“PFC-containing chemicals”) from their manufacturing facilities and that those chemicals had contaminated Centre Water’s water-intake site. The Cherokee County defendants moved to dismiss the action
against them, asserting lack of personal jurisdiction,
and Centre Water filed responses in opposition.
On May 15, 2018, the Cherokee Circuit Court entered a detailed order denying the Cherokee County
defendants’ motions to dismiss, stating, in pertinent
part:

6a
“The most illustrative cases cited by the
parties relative to this issue are: (1) Horne v.
Mobile Area Water & Sewer Sys., 897 So. 2d
972 (Miss. 2004), and (2) Pakootas v. Teck
Cominco Metals, Ltd., [905 F.3d 565] (E.D.
Wash. 2004).
“In both of these cases, there was a question of whether the plaintiffs satisfied the issue of whether the out-of-state defendants
had engaged in ‘express aiming’ or ‘purposefully directing’ activities toward the forum
state. In both cases, the court held that the
plaintiffs had satisfied their burdens on this
issue.
“In Horne, property owners in Mississippi
sued various defendants, including the Water
and Sewer System of Mobile, Alabama (‘the
System’), in state court in Mississippi. The
System had, in Alabama, released a significant amount of water in anticipation of an oncoming hurricane. The water that had been
released damaged and/or destroyed real and
personal property downstream in Mississippi.
The Supreme Court of Mississippi held that
‘[t]here is no question that [the defendants]
knew the water would flow into Mississippi
. . . .’ [897 So. 2d] at 979. This act and this
knowledge was sufficient for the court to find
that the System in Alabama had ‘minimum
contacts’ with Mississippi such that the exercise of personal jurisdiction was appropriate.
“In Pakootas, the plaintiffs were citizens
of the State of Washington that filed a suit under the federal Comprehensive Environmental Response, Compensation and Liability Act

7a
(CERCLA) against a Canadian corporation
that operated a shelter ten miles north of the
US-Canada border. The allegation was that
the defendants discharged harmful substances into the waters that flowed downstream to the plaintiffs and caused damage.
The court held the facts as set out above and
as alleged by the plaintiffs did satisfy the legal
tests for personal jurisdiction.
“In drawing a distinction between those
cases and the present case, TRCC [Textile
Rubber and Chemical Company] points out
that it did not dispose of anything directly into
any water source and that the distance from
the defendants in those two cases and the forum jurisdiction was not as great as the distance in this case.
“‘“In considering a Rule 12(b)(2), Ala.
R. Civ. P., motion to dismiss for want
of personal jurisdiction, a court must
consider as true the allegations of the
plaintiff’s complaint not controverted
by the defendant’s affidavits, Robinson v. Giarmarco & Bill, P.C., 74 F.3d
253 (11th Cir. 1996), and Cable/Home
Communication Corp. v. Network Productions, Inc., 902 F.2d 829 (11th Cir.
1990), and ‘where the plaintiff’s complaint and the defendant’s affidavits
conflict, the . . . court must construe
all reasonable inferences in favor of
the plaintiff.’ Robinson, 74 F.3d at
255 (quoting Madara v. Hall, 916 F.2d
1510, 1514 (11th Cir. 1990)). ‘For purposes of this appeal [on the issue of in

8a
personam jurisdiction] the facts as alleged by the . . . plaintiff will be considered in a light most favorable to
him [or her].’ Duke v. Young, 496 So.
2d 37, 38 (Ala. 1986).”’
“Corp. Waste Alternatives, Inc. v. McLane
Cumberland, Inc., 896 So. 2d 410, 413 (Ala.
2004).
“The Plaintiff’s complaint alleges that the
‘chemicals [complained of by the Plaintiff and
allegedly used/manufactured by the Defendants] resist degradation during processing at
Dalton Utilities’ wastewater treatment center
and contaminate the Conasauga River.’ Complaint, ¶ 3, ¶ 50. The Plaintiff’s complaint alleges that studies have been conducted and
that regulations from the Environmental Protection Agency (‘EPA’) have been published
relative to the health risks of the chemicals at
issue. Complaint, ¶¶ 51-59. Those studies
and regulations allegedly gave notice to the
Defendants of the adverse health risks of the
chemicals. The Plaintiff’s complaint alleges
that the Defendants are responsible for these
chemicals being present in the Plaintiff’s raw
water source through the disbursement of the
Defendants’ wastewater into the Conasauga
River and eventually into the Coosa River.
Complaint, ¶¶ 2-5, 49-50, 64.
“In considering the facts in the light most
favorable to the Plaintiff and in construing all
reasonable inferences in favor of the Plaintiff
where the complaint and the Defendants’ evidentiary submissions conflict, the Court finds
that the Plaintiff has demonstrated that the

9a
Defendants have conducted activity directed
at Alabama and that that activity is not ‘random,’ ‘fortuitous,’ or ‘attenuated,’ or the ‘unilateral activity of another party or a third person.’
“As shown in the Horne and Pakootas
cases, the actions of an entity that result in
harmful substances being placed into a water
source can result in harm downstream in a
foreign jurisdiction and it is reasonable for the
entity causing those substances to be placed
into the water to expect that their downstream harm could cause them to be hauled
into court in that foreign jurisdiction. Thus,
an entity causing chemicals to enter the Conasauga River should expect that since [the
Conasauga] River is a tributary of the Coosa
River then the chemicals can enter the Coosa
River. Once those chemicals enter the Coosa
River, the entity should expect that those
chemicals will reach downstream to Alabama
once the Coosa River crosses the state line.
Therefore, the act of causing the chemicals to
enter the Conasauga River is an act directed
at Alabama.
“The Defendant[s] cannot, at this stage in
the litigation, avail themselves of the defense
that Dalton Utilities is the entity responsible
and that its actions constitute the ‘unilateral
activity of another party or a third person.’ As
alleged by the Plaintiff, and, again, considering the facts in the light most favorable to the
Plaintiff and resolving factual disputes in its
favor, the chemicals at issue ‘resist degradation during the treatment process utilized by

10a
Dalton Utilities and increase in concentration
as waste accumulates in the [Land Application System].’ Complaint, ¶ 50. In other
words, the chemicals sent to Dalton Utilities
by the Defendants cannot be treated and removed from the environment by Dalton Utilities. Therefore, the Plaintiff alleges, the Defendants have not properly disposed of the
chemicals by sending them to Dalton Utilities;
thus, the actions complained of are not the
‘unilateral activity of another party or a third
person.’
“Given this finding, the Court also finds
that: (1) there is ‘a “relationship among the defendant, the forum, and the litigation.”’ That
is, as set out by TRCC, ‘[t]he defendant’s activities [are] related to the “operative facts of
the controversy”’ and (2) that the exercise of
personal jurisdiction would ‘comport[] with
fair play and substantial justice.’”
The Cherokee County defendants timely filed
their petitions for a writ of mandamus, which this
Court consolidated ex mero motu.
B. The Etowah County Case
On September 22, 2016, Gadsden Water filed an
action in the Etowah Circuit Court seeking injunctive
relief and damages based on claims of negligence,
wantonness, nuisance, and trespass on the same factual basis as that contained in the complaint in the
Cherokee County case. Gadsden Water named the following companies located in Dalton, Georgia, among
others, as defendants: Mohawk Industries, Inc., Mohawk Carpet, LLC, Shaw Industries, Inc., J&J Industries, Inc., MFG Chemical, Inc., Lexmark Carpet

11a
Mills, Inc., The Dixie Group, Inc., Dorsett Industries,
Inc., Indian Summer Carpet Mills, Inc., Oriental
Weavers USA, Inc., and Kaleen Rugs, Inc. (“the
Etowah County defendants”). The Etowah County defendants each moved to dismiss the action against
them, asserting, among other grounds, a lack of personal jurisdiction. Gadsden Water filed a response in
opposition to each Etowah County defendant’s motion
to dismiss.
On August 13, 2018, the Etowah Circuit Court entered an order substantially similar to the one entered
by the Cherokee Circuit Court, employing the same
reasoning. The Etowah County defendants timely
filed their petitions for a writ of mandamus, which
1
this Court consolidated ex mero motu.
II. Standard of Review
“A writ of mandamus is an extraordinary
remedy which requires a showing of (a) a clear
legal right in the petitioner to the order
sought, (b) an imperative duty on the respondent to perform, accompanied by a refusal to do
so, (c) the lack of another adequate remedy,
and (d) the properly invoked jurisdiction of the
court. Ex parte Bruner, 749 So. 2d 437, 439
(Ala. 1999).”
Ex parte McInnis, 820 So. 2d 795, 798 (Ala. 2001).
“‘[A] petition for a writ of mandamus
is the proper device by which to challenge the denial of a motion to dismiss
for lack of in personam jurisdiction.
See Ex parte McInnis, 820 So. 2d 795
1

With a few exceptions noted herein, the defendants raise the
same arguments and rely upon the same authorities.

12a
(Ala. 2001); Ex parte Paul Maclean
Land Servs., Inc., 613 So. 2d 1284,
1286 (Ala. 1993). “‘An appellate court
considers de novo a trial court’s judgment on a party’s motion to dismiss
for lack of personal jurisdiction.’” Ex
parte Lagrone, 839 So. 2d 620, 623
(Ala. 2002) (quoting Elliott v. Van
Kleef, 830 So. 2d 726, 729 (Ala. 2002)).
Moreover, “[t]he plaintiff bears the
burden of proving the court’s personal
jurisdiction over the defendant.”
Daynard v. Ness, Motley, Loadholt,
Richardson & Poole, P.A., 290 F.3d 42,
50 (1st Cir. 2002).’
“Ex parte Dill, Dill, Carr, Stonbraker &
Hutchings, P.C., 866 So. 2d 519, 525 (Ala.
2003).”
Ex parte Covington Pike Dodge, Inc., 904 So. 2d 226,
229 (Ala. 2004).
III. Discussion
The defendants have sought review of the trial
courts’ denial of their motions to dismiss. Alabama
courts use the following established procedure for
treatment of motions to dismiss based on a lack of personal jurisdiction under Rule 12(b)(2), Ala. R. Civ. P.
“‘“In considering a Rule 12(b)(2), Ala.
R. Civ. P., motion to dismiss for want
of personal jurisdiction, a court must
consider as true the allegations of the
plaintiff’s complaint not controverted
by the defendant’s affidavits, Robinson v. Giarmarco & Bill, P.C., 74 F.3d
253 (11th Cir. 1996), and Cable/Home

13a
Communication Corp. v. Network Productions, Inc., 902 F.2d 829 (11th Cir.
1990), and ‘where the plaintiff’s complaint and the defendant’s affidavits
conflict, the . . . court must construe
all reasonable inferences in favor of
the plaintiff.’ Robinson, 74 F.3d at
255 (quoting Madara v. Hall, 916 F.2d
1510, 1514 (11th Cir. 1990)).”’
“Wenger Tree Serv. v. Royal Truck & Equip.,
Inc., 853 So. 2d 888, 894 (Ala. 2002) (quoting
Ex parte McInnis, 820 So. 2d 795, 798 (Ala.
2001)). However, if the defendant makes a
prima facie evidentiary showing that the
Court has no personal jurisdiction, ‘the plaintiff is then required to substantiate the jurisdictional allegations in the complaint by affidavits or other competent proof, and he may
not merely reiterate the factual allegations in
the complaint.’ Mercantile Capital, LP v. Federal Transtel, Inc., 193 F.Supp.2d 1243, 1247
(N.D. Ala. 2002) (citing Future Tech. Today,
Inc. v. OSF Healthcare Sys., 218 F.3d 1247,
1249 (11th Cir. 2000)). See also Hansen v.
Neumueller GmbH, 163 F.R.D. 471, 474–75
(D. Del. 1995) (‘When a defendant files a motion to dismiss pursuant to Fed. R. Civ. P.
12(b)(2), and supports that motion with affidavits, plaintiff is required to controvert those
affidavits with his own affidavits or other
competent evidence in order to survive the
motion.’) (citing Time Share Vacation Club v.
Atlantic Resorts, Ltd., 735 F.2d 61, 63 (3d Cir.
1984)).”
Covington Pike Dodge, 904 So. 2d at 229-30.

14a
A. Evidentiary Burdens
At the outset, before we address the merits of the
mandamus petitions, we must determine whether the
defendants made prima facie evidentiary showings in
support of their motions to dismiss that required Centre Water and Gadsden Water to substantiate the jurisdictional allegations in their complaints. See Ex
parte Güdel AG, 183 So. 3d 147, 156 (Ala. 2015).
In the Cherokee County action, Aladdin Manufacturing Corporation, Mohawk Industries, Inc., Mohawk Carpet, LLC, and The Dixie Group, Inc., did not
support their motions with any evidentiary submissions.2 Shaw Industries, Inc., Engineered Floors,
LLC, and J&J Industries, Inc., each filed a separate
motion to dismiss supported with an affidavit from an
executive of each company in which each executive
testified, among other things, that his or her company
was organized under the laws of Georgia and was located in Georgia. ArrowStar, LLC, and MFG Chemical, Inc., each attached to their motions to dismiss affidavits of their respective chief executive officers that
indicated that each company was organized under
Georgia laws and was located exclusively in Georgia
and, in addition, that all the wastewater discharges
from each company were transferred to Dalton Utilities, rather than directly into the Conasauga River. In
support of its motion, Textile Rubber and Chemical
Company, Inc., submitted an affidavit from its chief
financial officer in which he testified, among other
things, that Textile Rubber and Chemical was a Georgia corporation, that it was not licensed or registered
2

The defendants who were parties in both the Cherokee
County action and the Etowah County action filed substantially
the same motions to dismiss in both actions.

15a
to do business in Alabama, that it owned no property
in Alabama, and that it had no employees in Alabama.
None of the aforementioned defendants supported
their motions to dismiss filed in the Cherokee County
action with any evidentiary submissions to controvert
the basis for the jurisdictional allegations in Centre
Water’s complaint; therefore, the Cherokee Circuit
Court was required to consider the allegations in Centre Water’s complaint to be true. Covington Pike
Dodge, 904 So. 2d at 229.
Milliken & Company (“Milliken”) submitted an affidavit of Philip Bridges, its global vice president of
manufacturing, in support of its motion to dismiss. In
his affidavit, Bridges testified, in pertinent part, that
Milliken does not and had never manufactured, produced, supplied, or sold PFCs or chemicals containing
PFCs to manufacturing or other facilities in Dalton
and that it does not and had never discharged industrial wastewater to Dalton Utilities. Centre Water attached only literature regarding PFCs to its response
in opposition to Milliken’s motion to dismiss. That literature did not specifically address Milliken or in any
way rebut Milliken’s evidence indicating that it had
3
no involvement with PFC-containing chemicals.
Centre Water acknowledges that Bridges’s affidavit
stated that Milliken’s Dalton facilities had not manufactured carpet using PFCs and had not discharged
‘
wastewater to Dalton Utilities. Centre Water asserts,
however, that the affidavit “does not mention whether
[Milliken’s] facilities in Calhoun, Georgia purchased,

3

We note that, at the hearing on the motion to dismiss, Centre
Water indicated that it would provide a response to Milliken’s
reply and affidavit; however, there is nothing in the record showing Centre Water provided that response.

16a
applied, and discharged wastewater into the Conasauga River” and that, accordingly, “[u]ncertainty
over these operations means [Milliken] has not conclusively shown it is not responsible for polluting
[Centre Water’s] water supply.” As Milliken points
out in its reply brief, however, Centre Water did not
plead those factual allegations in its complaint or
raise that assertion in the trial-court proceedings. We
will not consider it for the first time now. See Landers
v. O’Neal Steel, Inc., 564 So. 2d 925, 926 (Ala. 1990)
(explaining that this Court will not consider an issue
raised for the first time in the appellate court).
In the Etowah County action, Mohawk Industries,
Inc., and Mohawk Carpet, LLC, J&J Industries, Inc.,
and The Dixie Group, Inc., each filed a motion to dismiss but did not support their motions with any evi4
dentiary submissions. Shaw Industries, Inc., submitted an affidavit from one of its executives demonstrating that it was a Georgia Corporation, but it did not
dispute the assertions in Gadsden Water’s complaint
regarding its alleged use of PFCs in its carpet-manufacturing process. MFG Chemical, Inc., submitted an
affidavit demonstrating that it was incorporated under the laws of Georgia, that it was located exclusively
in Georgia, and, in addition, that all of its wastewater
discharges were transferred to Dalton Utilities, rather
than directly into the Conasauga River. Gadsden Water filed a response in opposition to each of those
Etowah County defendants’ motions to dismiss to
which it attached myriad information regarding
PFCs, and, to some responses, it attached documents

4

Mohawk Industries, Inc., and Mohawk Carpet, LLC, actually
filed a motion for a judgment on the pleadings based on a lack of
personal jurisdiction.

17a
related to that particular defendant. Because the
above Etowah County defendants did not present evidence to controvert the jurisdictional allegations in
Gadsden Water’s complaint, the Etowah Circuit Court
was required to consider the allegations in Gadsden
Water’s complaint to be true. Covington Pike Dodge,
904 So. 2d at 229.
Lexmark Carpet Mills, Inc. (“Lexmark”), submitted an affidavit of James E. Butler, its chief financial
officer, in which he testified that Lexmark “does not
currently use and has never in the past used” PFCs
“in its Dalton, Georgia manufacturing facility.” Butler further testified that “Lexmark has never manufactured, produced, marketed, distributed or supplied
PFC, PFOA, or PFOS to any manufacturing facilities
located in or near Dalton, Georgia.” Finally, Butler
testified that “Lexmark does not currently discharge
and has never in the past discharged PFC, PFOA, or
PFOS into its industrial wastewater or into tributaries of the Coosa River.” In opposition to Lexmark’s
motion to dismiss, Gadsden Water submitted documentary evidence indicating that Scotchgard® stainresistant fabric treatment contains PFCs and documentation entitled “Lexmark Carpet Limited Warranties and Care” in which Lexmark informed customers of its use of Scotchgard®. Accordingly, as to
Lexmark, the Etowah Circuit Court was faced with
conflicting evidence and was required to “‘“‘construe
all reasonable inferences in favor of the plaintiff.’
Robinson[ v. Giarmarco & Bill, P.C.,] 74 F.3d [253] at
255 [(11th Cir. 1996)] (quoting Madara v. Hall, 916
F.2d 1510, 1514 (11th Cir. 1990)).”’” Covington Pike
Dodge, 904 So. 2d at 229 (quoting Wenger Tree Serv.
v. Royal Truck & Equip., Inc., 853 So. 2d 888, 894 (Ala.
2002)).

18a
Oriental Weavers USA, Inc. (“Oriental Weavers”),
submitted in support of its motion to dismiss an affidavit from David Flood, its “masterbatch manager,” in
which Flood testified that Oriental Weavers manufactures only area rugs at its Dalton facility and that he
was familiar with all stages of the area-rug production. Flood testified that, “[t]o the extent the Complaint states the [Environmental Protection Agency]
‘published provisional drinking water health advisories for PFOA and PFOS’ in 2009, Oriental Weavers
does not use, and did not use, any perfluorinated
stain-resistant, grease-resistant, or water-resistant
chemicals after January 1, 2009,” and that Oriental
Weavers “does not apply any stain-resistant, greaseresistant, or water-resistant chemicals to its area rugs
at any point during the manufacturing process.”
Flood elaborated that Oriental Weavers uses a separate company, Phoenix Chemical, for the application
of stain resistance and that Phoenix Chemical did not
use PFC-containing chemicals. Oriental Weavers also
submitted an affidavit from Todd Mull, the vice president of Phoenix Chemical, who testified that Phoenix
Chemical does not “use, consume, emit, produce, or
sell” any chemicals containing PFCs.
Similarly, Dorsett Industries, Inc. (“Dorsett”),
presented an affidavit of its president who testified,
among other things, that Dorsett designs and manufactures automotive and marine carpets. Dorsett also
submitted an affidavit of its director of manufacturing, Bob Goodroe, who testified that Dorsett “does not
apply any stain-resistant, grease-resistant, or waterresistant chemicals to its products at any point during
the manufacturing process because Dorsett’s automotive and marine customers do not request or pay for
this treatment.” Goodroe further testified, however:

19a
“The Complaint states that the [Environmental Protection Agency] ‘published provisional drinking water
health advisories for PFOA and PFOS in 2009.
Dorsett did not use any perfl[uo]rinated stain-resistant, grease-resistant, or water-resistant chemicals
after January 1, 2009.”
As it did with its response to other Etowah County
defendants’ motions to dismiss, Gadsden Water attacked the affidavits submitted by Oriental Weavers
and Dorsett, but it did not provide any evidence to refute the testimony contained in those affidavits. The
affidavits submitted by Oriental Weavers and
Dorsett, however, do not conclusively rebut the jurisdictional allegations in Gadsden Water’s complaint
that the Etowah County defendants had used and discharged, at least before January 1, 2009, “chemical
compounds that contain or degrade into PFCs, including, but not limited to PFOA and PFOS” and that the
toxic chemicals had contaminated the water at Gadsden Water’s water-intake site. Therefore, the Etowah
Circuit Court was required to construe all reasonable
inferences in favor of Gadsden Water. Covington Pike
5
Dodge, 904 So. 2d at 229.

5

Oriental Weavers’ motion to dismiss was also based on Rule
12(b)(3), Ala. R. Civ. P., and, in its petition, Oriental Weavers
additionally argues that Etowah County is an improper venue
based on § 6-3-7, Ala. Code 1975. In support of its argument, Oriental Weavers cites only § 6-3-7(a), Ala. Code 1975, and argues,
without analysis or citation to other legal authority, that venue
is improper in Etowah County under all four subsections of § 63-7(a). “We have unequivocally stated that it is not the function
of this Court to do a party’s legal research or to make and address
legal arguments for a party based on undelineated general propositions not supported by sufficient authority or argument.”
Dykes v. Lane Trucking, Inc., 652 So. 2d 248, 251 (Ala. 1994)

20a
Indian Summer Carpet Mills, Inc. (“Indian Summer”), submitted an affidavit of its president, Randall
Hatch, who testified:
“Indian Summer has never used chemicals containing PFOA or PFOS in its manufacturing process. Until 2004, Indian Summer
only manufactured polypropylene carpet,
which is not treated for stain-resistance.
Since then, Indian Summer has also sold some
carpets treated with topical stain resistant
chemicals, but those stain-resistant chemicals
were applied by mills Indian Summer hired to
perform the finishing process on its carpets.
The mills were not owned or operated by, or
affiliated with, Indian Summer, and the
chemicals applied are of ‘C6 chemistry,’ which
do not contain or degrade into PFOS or PFOA.
“. . . Indian Summer does not create
wastewater. Moreover, because Indian Summer does not and has not used stain-resistant

(citing Spradlin v. Spradlin, 601 So. 2d 76 (Ala. 1992)). Furthermore, in mandamus proceedings, “[t]he burden of establishing a
clear legal right to the relief sought rests with the petitioner.” Ex
parte Metropolitan Prop. & Cas. Ins. Co., 974 So. 2d 967, 972
(Ala. 2007). Oriental Weavers has not demonstrated a clear legal
right to have the action against it dismissed based on improper
venue.
Likewise, in support of its argument that venue is improper
based on the doctrine of forum non conveniens under § 6-5-430,
Ala. Code 1975, Oriental Weavers asserts only that none of the
underlying acts occurred in Alabama and that its witnesses and
documents are located near Dalton, Georgia. Oriental Weavers
has not demonstrated that the Etowah Circuit Court is an inconvenient forum or that the trial court was required to dismiss the
action based on the doctrine of forum non conveniens.

21a
chemicals, Indian Summer has never discharged chemicals containing PFOA or PFOS
in wastewater.”
In response to Indian Summer’s motion, Gadsden
Water asserted that Hatch’s affidavit did not establish
that Indian Summer had always used its current
manufacturing process and that it had never discharged wastewater. To the contrary, however, Hatch
testified that Indian Summer had “never used chemicals containing PFOA or PFOS in its manufacturing
process” and that it had “never discharged chemicals
containing PFOA or PFOS in wastewater.” Gadsden
Water attached various literature and studies regarding PFCs, but none specific to Indian Summer, and it
presented no evidence to rebut the evidence contained
in Hatch’s affidavit.
Kaleen Rugs, Inc. (“Kaleen”), submitted an affidavit of its senior vice president, Blake Dennard. Dennard testified that Kaleen does not manufacture rugs,
carpets, or any other product but that Kaleen imports
finished products and distributes those products.
Dennard also testified that Kaleen does not use or
supply any chemicals related to the rug or carpetmanufacturing process, including those alleged in
Gadsden Water’s complaint, and that Kaleen does not
discharge any chemicals related to the rug- or carpetmanufacturing process into any water supply. Gadsden Water filed a response to Kaleen’s motion to dismiss in which it argued that Dennard’s affidavit did
not state that Kaleen had “never” engaged in the activities alleged in the complaint. Gadsden Water attached literature and documents regarding PFCs but
presented nothing to refute the testimony in Dennard’s affidavit. After Gadsden Water filed its re-

22a
sponse to Kaleen’s motion, Kaleen filed a supplemental reply with an affidavit from Monty Rathi that
stated, among other things, that Kaleen had never directed PFC-containing chemicals be applied to any of
the products that it received or sold.
The factual basis proffered by Centre Water and
Gadsden Water to support their specific-personal-jurisdiction assertion is that the defendants discharged
wastewater containing PFCs that contaminated Centre Water’s and Gadsden Water’s water sources and
that those acts were purposefully directed at Alabama. In addition to identifying each defendant, noting that each was a foreign corporation, and asserting
that each company was “causing injury” in Alabama,
Centre Water and Gadsden Water alleged in their
complaints that the defendants had used and discharged “chemical compounds that contain or degrade
into PFCs, including, but not limited to PFOA and
PFOS” and that the toxic chemicals had contaminated
the water at Centre Water’s and Gadsden Water’s water-intake sites. Centre Water and Gadsden Water
also alleged in their complaints that the United States
Environmental Protection Agency (“the EPA”) had
identified industrial wastewater from the defendants’
manufacturing facilities as the source of PFCs entering the Conasauga River. Centre Water and Gadsden
Water further alleged that the EPA had taken regulatory action in 2002 by publishing rules under the
Toxic Substances Control Act to limit the future manufacture and use of PFC-containing chemicals.
By presenting affidavits controverting the factual
allegations in Centre Water’s and Gadsden Water’s
complaints that would establish specific personal jurisdiction (i.e., evidence demonstrating that they did
not and had never manufactured or used PFCs and

23a
that they did not discharge wastewater containing
PFCs in Dalton), Indian Summer, Kaleen, and Milliken made a prima facie showing that no specific personal jurisdiction existed as to them. Thereafter, it
was incumbent upon Centre Water and Gadsden Water to “substantiate [their] jurisdictional allegations
with affidavits or other competent evidence.” Covington Pike Dodge, 904 So. 2d at 232. See also Ex parte
Excelsior Fin., Inc., 42 So. 3d 96, 104 (Ala. 2010), and
Ex parte Güdel AG, 183 So. 3d at 156 (granting mandamus relief where the defendant’s evidence in support of its motion to dismiss “disproved the factual allegations asserted in the [plaintiffs’] complaint that
would establish specific jurisdiction and constituted a
prima facie showing that no specific jurisdiction existed” because the plaintiffs failed to meet their burden of substantiating “their jurisdictional allegations
with affidavits or other competent evidence — which
they indisputably failed to do”).
Centre Water, in one sentence in its response
brief, asserts that additional discovery is needed before Milliken should be dismissed from the Cherokee
County action. As we have previously explained, however, “‘“[a] plaintiff does not enjoy an automatic right
to discovery pertaining to personal jurisdiction in
every case.”’ Ex parte Troncalli Chrysler Plymouth
Dodge, Inc., 876 So. 2d 459, 468 (Ala. 2003) (quoting
Andersen v. Sportmart, Inc., 179 F.R.D. 236, 241
(N.D. Ind. 1998)).” Covington Pike Dodge, 904 So. 2d
at 232. Furthermore, a plaintiff’s request for discovery to obtain evidence demonstrating personal jurisdiction will “‘“be denied if it is only based upon ‘bare,’
‘attenuated,’ or ‘unsupported’ assertions of personal
jurisdiction, or when a plaintiff’s claim appears to be
‘clearly frivolous.’”’ Troncalli, 876 So. 2d at 468 (quoting Andersen[ v. Sportmart, Inc.], 179 F.R.D. [236] at

24a
242 [(N.D. Ind. 1998)]).” Covington Pike Dodge, 904
So. 2d at 233. See also Ex parte Güdel AG, 183 So. 3d
at 157 (citing Covington Pike Dodge, 904 So. 2d at
233) (holding that the plaintiffs’ “‘bare allegations’
that additional discovery could possibly reveal evidence establishing personal jurisdiction are insufficient to entitle [them] to further discovery on the jurisdictional issue”). Gadsden Water does not raise a
similar argument with respect to Indian Summer or
Kaleen.
Because Indian Summer, Kaleen, and Milliken
made a prima facie showing that the trial courts
lacked specific personal jurisdiction and Centre Water
and Gadsden Water failed to produce any evidence to
contradict that showing, the trial courts should have
granted their motions to dismiss. Indian Summer,
Kaleen, and Milliken have, therefore, demonstrated a
clear legal right to the relief sought — dismissal of
Gadsden Water’s and Centre Water’s complaints
against them — and the petitions for a writ of mandamus in case nos. 1170887, 1171197, and 1171199 are
granted.
We must next determine whether, taking the Centre Water’s and Gadsden Water’s allegations as true
and construing all reasonable inferences in their favor, the jurisdictional allegations support an exercise
of personal jurisdiction over the remaining defendants.
B. Specific Personal Jurisdiction
Personal-jurisdiction analysis has its underpinnings in the fundamental concept that a court may exercise personal jurisdiction over a defendant only
when the defendant has sufficient “minimum contacts
with [the forum state] such that the maintenance of

25a
the suit does not ‘offend traditional notions of fair play
and substantial justice.’” International Shoe Co. v.
Washington, 326 U.S. 310, 316, 66 S. Ct. 154, 158, 90
L. Ed. 95 (1945) (quoting Milliken v. Meyer, 311 U.S.
457, 463, 61 S. Ct. 339, 343, 85 L.Ed. 278 (1940)). Embodied within that test is the controlling principle that
due process requires that a defendant have “‘fair
warning that a particular activity may subject [it] to
the jurisdiction of a foreign sovereign.’” Burger King
Corp. v. Rudzewicz, 471 U.S. 462, 472, 105 S. Ct. 2174,
2182, 85 L.Ed.2d 528 (1985) (quoting Shaffer v. Heitner, 433 U.S. 186, 218, 97 S. Ct. 2569, 2587, 53
L.Ed.2d 683 (1977) (Stevens, J., concurring in judgment)).
Centre Water and Gadsden Water brought claims
sounding in both negligence and intentional tort. To
exercise specific personal jurisdiction in the context of
an unintentional-tort claim, (1) the defendant must
have “purposefully availed” itself of the benefits and
privileges of the forum state or “purposefully directed”
activity toward the forum state, see Hinrichs v. General Motors of Canada, Ltd., 222 So. 3d 1114, 1122
(Ala. 2016), and (2) there must be “‘a relationship
among the defendant, the forum, and the litigation.’”
Helicopteros Nacionales de Colombia, S.A. v. Hall, 466
U.S. 408, 414, 104 S. Ct. 1868, 1872, 80 L.Ed.2d 404
(1984) (quoting Shaffer v. Heitner, 433 U.S. at 204, 97
S. Ct. at 2579).
As to the intentional-tort claims, the proper analysis is the “effects test” to determine whether the defendant has the requisite contacts with the forum
state. See, e.g., Ex parte Gregory, 947 So. 2d 385, 394
(Ala. 2006) (explaining that the “effects test” that originated in Calder v. Jones, 465 U.S. 783, 104 S. Ct.

26a
1482, 79 L.Ed.2d 804 (1984) “has been limited to intentional-tort cases”). The “effects test” requires a
plaintiff to show “that the defendant (1) committed an
intentional tort (2) that was directly aimed at the forum, (3) causing an injury within the forum that the
defendant should have reasonably anticipated.” Oldfield v. Pueblo De Bahia Lora, S.A., 558 F.3d 1210,
1220 n.28 (11th Cir. 2009). Regardless of the type of
claim involved, the United States Supreme Court has
explained that physical presence in the forum state is
not necessary for jurisdiction because a physical entry
into the forum state through “some other means” is a
relevant contact. Walden v. Fiore, 571 U.S. 277, 285,
134 S. Ct. 1115, 1122, 188 L.Ed.2d 12 (2014) (citing
Keeton v. Hustler Magazine, Inc., 465 U.S. 770, 77374, 104 S. Ct. 1473, 79 L.Ed.2d 790 (1984)).
“The issue of personal jurisdiction ‘“stands or falls
on the unique facts of [each] case.”’” Ex parte Phil Owens Used Cars, Inc., 4 So. 3d 418, 423 (Ala. 2008)
(quoting Ex parte I.M.C., Inc., 485 So. 2d 724, 725
(Ala. 1986), quoting in turn and adopting trial court’s
order). When the allegations in the complaints are
6
taken as true, they reveal the following. The remaining Cherokee County defendants and the remaining
Etowah County defendants (hereinafter referred to
collectively as “the remaining defendants”) own
and/or operate carpet-manufacturing facilities that

6

The trial courts were required to consider the allegations in
Centre Water’s and Gadsden Water’s complaints to be true because, as noted above, the remaining defendants did not submit
evidentiary materials disputing Centre Water’s and Gadsden
Water’s assertions in their complaints that the remaining defendants knowingly either used or supplied PFC-containing
chemicals and discharged those chemicals into their industrial
wastewater. See Covington Pike Dodge, 904 So. 2d at 229.

27a
use PFC-containing chemicals or supply PFCcontaining chemicals to those facilities. The remaining defendants eventually discharge the toxic chemicals into their industrial wastewater.
That
wastewater is then treated by Dalton Utilities as its
wastewater-treatment plant in Georgia. The PFCcontaining water is sprayed by Dalton Utilities over a
9,800-acre Land Application System (“the LAS”), and
the runoff from the LAS enters the Conasauga River,
a tributary of the Coosa River. The PFC-containing
chemicals then travel in the Conasauga River to the
Coosa River, which crosses into Alabama, and, finally,
contaminates the water at Centre Water’s and Gadsden Water’s water-intake sites. Centre Water and
Gadsden Water further substantiated the jurisdictional allegations in their complaints by presenting
documentary evidence in opposition to the motions to
dismiss demonstrating that the remaining defendants
had been placed on notice from publicly available reports published by the EPA that the PFCs were enter7
ing the Conasauga River. Additionally, Centre Water
and Gadsden Water submitted documentary evidence
of studies determining that PFC pollution had been
introduced into the Coosa River watershed through
carpet manufacturers’ industrial-wastewater discharges. See Peter J. Lasier et al., Perfluorinated
Chemicals in Surface Waters and Sediments from
Northwest Georgia, USA, and Their Bioaccumulation
in Lumbriculus Variegatus, 30 Environmental Toxicology and Chemistry 2194 (2011). Therefore, taking
Centre Water’s and Gadsden Water’s allegations as
7

The remaining defendants assert in their reply briefs that
they dispute whether they knew of the EPA reports or when they
did but concede that factual disputes are inapplicable for purposes of the personal-jurisdiction issue before the trial courts.

28a
true, the remaining defendants knew or should have
known from publicly available reports of the EPA and
from published studies that the PFC-containing
chemicals used during the manufacturing process and
discharged into their wastewater were polluting the
Conasauga River, which flows downstream via the
Coosa River into Alabama.
The remaining defendants argue that Centre Water and Gadsden Water have not alleged any conduct
that actually occurred in Alabama and that, because
they sent their industrial wastewater to Dalton Utilities in Georgia, the remaining defendants cannot be
considered to have purposefully availed themselves of
the privilege of conducting activities within Alabama
or to have undertaken any purposeful conduct aimed
8
at Alabama. See, e.g., Hinrichs, 222 So. 3d at 1137
(quoting Goodyear Dunlop Tires Operations, S.A., v.
Brown, 564 U.S. 915, 923, 131 S. Ct. 2846, 2853, 180
L.Ed.2d 796 (2011)) (holding that the defendants must
have engaged in some “in-state activity” that “‘[gives]
rise to the episode-in-suit’”). The remaining defendants, citing Covington Pike Dodge, supra, argue that
a third party’s unilateral actions that cause injury
cannot serve as minimum contacts sufficient for specific personal jurisdiction. Covington Pike Dodge,

8

The remaining defendants, citing Ex parte Dill, Dill, Carr,
Stonbraker & Hutchings, P.C., 866 So. 2d 519 (Ala. 2003), also
argue that they did not direct any action toward any particular,
identifiable Alabama citizens. The United States Supreme Court
has explained, however, that the acts must be directed at the forum rather than the individual residents of the forum. “[O]ur
‘minimum contacts’ analysis looks to the defendant’s contacts
with the forum State itself, not the defendant’s contacts with persons who reside there.” Walden, 571 U.S. at 285, 134 S. Ct. at
1122.

29a
however, is factually inapplicable because it involved
the exercise of personal jurisdiction over a Tennessee
automobile dealership in an action stemming from an
automobile accident that occurred in Alabama. In
that case, there was no evidence indicating that the
dealership had any control over the driver or that it
knew of any of the driver’s actions that could have
caused the accident. 904 So. 2d at 228-29.
The remaining defendants also argue that Dalton
Utilities’ treatment of the remaining defendants’
wastewater, or its alleged failure to do so, is an intervening cause that breaks the chain of causation. It is
axiomatic, however, that this defense fails if the intervening cause was foreseeable, which is Centre Water’s
and Gadsden Water’s contention here. Alabama
Power Co. v. Taylor, 306 So. 2d 236, 249 (1975). The
cases relied upon by the remaining defendants regarding a third-party “intervening cause” are inapplicable
here and merely serve to unnecessarily confuse the issue. Moreover, the remaining defendants’ defense
that the wastewater was transferred to and treated by
Dalton Utilities is inapplicable at this stage of the litigation because, as the remaining defendants concede
in their reply briefs, we must take Centre Water’s and
Gadsden Water’s allegations as true, and, therefore,
the remaining defendants allegedly knew or should
have known that the treatment process could not and
did not remove the PFC-containing chemicals from
the wastewater.
The remaining defendants argue that, even if it
had been foreseeable that their wastewater discharge
to Dalton Utilities would result in the chemicals entering the Coosa River and subsequently Alabama, it
would still not satisfy the purposeful-availment requirement. In support, the remaining defendants cite

30a
Hinrichs, supra, in which a plurality of this Court reaffirmed that “‘“‘foreseeability’ alone has never been a
sufficient benchmark for personal jurisdiction under
the Due Process Clause.”’” 222 So. 3d at 1138 (quoting
D’Jamoos v. Pilatus Aircraft Ltd., 566 F.3d 94, 105 (3d
Cir. 2009), quoting in turn World-Wide Volkswagen v.
Woodson, 444 U.S. 286, 295, 100 S. Ct. 559, 566, 62
L.Ed.2d 490 (1980)).
Centre Water and Gadsden Water assert that the
rationale underpinning the current “purposeful availment” and “effects-test” line of cases is factually distinguishable from the situation involved in this case,
and they appear to argue that foreseeability alone is
enough under this particular water-pollution scenario. Adopting such an approach, however, would
start us on a slippery slope.
This Court has not been presented with a factual
scenario in which out-of-state defendants are alleged
to have caused environmental pollution in another
state but where the consequences of those acts have
caused harm in Alabama. As a result, this Court has
no established precedent or an approach for evaluating this unique situation.
The remaining defendants rely heavily on Hin9
richs to support their position. Hinrichs, however, is

9

The remaining defendants also rely on Bristol-Myers Squibb
Co. v. Superior Court of California, San Francisco Cty., 582 U.S.
___, 137 S. Ct. 1773, 198 L.Ed.2d 395 (2017), and BNSF Ry. v.
Tyrrell, 581 U.S. ___, 137 S. Ct. 1549, 198 L.Ed.2d 36 (2017), neither of which is applicable. Bristol-Myers involved a California
court’s exercise of specific personal jurisdiction over a company
sued by nonresident plaintiffs; none of the actions giving rise to
the suit arose in California. BNSF involved a discussion of a
Montana state court’s exercise of general personal jurisdiction

31a
factually distinguishable from the present situation.
In Hinrichs, Daniel Vinson purchased a vehicle in
Pennsylvania that had been manufactured by General
Motors of Canada (“GM Canada”). GM Canada manufactured vehicles for General Motors Corporation, its
parent company, to distribute to all 50 states in the
United States. Hinrichs suffered serious injuries in
an automobile accident in Alabama while he was a
passenger in the vehicle driven by Vinson. Hinrichs
brought a products-liability action against GM Canada in the Geneva Circuit Court. In considering
whether Alabama could exercise personal jurisdiction
over GM Canada, this Court considered
“whether a stream-of-commerce analysis consistent with existing precedent can be applied
to uphold specific jurisdiction over GM Canada under the facts of this case. The starting
point of the stream of commerce in this case is
GM Canada’s anticipation of the presence of
its vehicles in all 50 states, necessarily including Alabama. But it is undisputed that the
stream of commerce for the [GMC] Sierra
[pickup truck] ended at its sale in Pennsylvania, approximately 1,000 miles from Alabama.
“. . . .
“Although existing Supreme Court precedent on stream of commerce as a basis for specific jurisdiction is not a model of clarity, it is
clear that a majority of the United States Supreme Court has yet to hold that foreseeability alone is sufficient to subject a nonresident
defendant to specific jurisdiction in the forum
over a railway company that conducted business within the
state.

32a
state. This conclusion is consistent with a
law-review article quoted with approval in
Daimler[ AG v. Bauman, 571 U.S. 117, 134
S. Ct. 746, 187 L.Ed.2d 624 (2014),] describing
International Shoe as clearly not saying that
‘dispute-blind’ jurisdiction is appropriate in
cases involving specific jurisdiction. 571 U.S.
at [138], 134 S. Ct. at 761 [(Ala. 2014)].
“In Walden v. Fiore, [571 U.S. 277, 134
S. Ct. 1115, 188 L.Ed.2d 12 (2014),] the
United States Supreme Court’s most recent
pronouncement on specific jurisdiction and
the first case in many years to garner a unanimous Court on the subject, the Supreme
Court emphatically underscored the requirement that the claim against the defendant
have a suit-related nexus with the forum state
before specific jurisdiction can attach. The
Walden Court left no room for any exceptions.
‘For a State to exercise [specific] jurisdiction
consistent with due process, the defendant’s
suit-related conduct must create a substantial
connection with the forum State.’ 571 U.S. at
[284], 134 S. Ct. at 1121 (emphasis added).
Vinson, the owner of the vehicle in which Hinrichs was injured, brought the Sierra to Alabama. However, Vinson’s ‘“unilateral activity
of [bringing the Sierra to Alabama, in which
GM Canada did not participate,] is not an appropriate consideration when determining
whether a defendant has sufficient contacts
with a forum State to justify an assertion of
jurisdiction.”’ 571 U.S. at [284], 134 S. Ct. at
1122 (quoting Helicopteros Nacionales de Colombia, S.A. v. Hall, 466 U.S. 408, 417, 104
S. Ct. 1868, 80 L.Ed.2d 404 (1984)).”

33a
Hinrichs, 222 So. 3d at 1138-40. In upholding the trial
court’s conclusion that it did not have specific personal
jurisdiction over GM Canada, a plurality of this Court
stated that “there simply is no ‘suit-related conduct’
that creates a substantial connection between GM
Canada and Alabama if the vehicle was not sold in Alabama, even though Hinrichs was injured in Alabama. Walden, 571 U.S. at [284], 134 S. Ct. at 1121.”
222 So. 3d at 1141.
A significant factor that distinguishes the present
cases from Hinrichs is that the present cases do not
involve the sale of a product that is placed into the
stream of commerce. Rather, they involve the deposit
of toxic chemicals into a stream of water. As a recent
decision of the Ohio Court of Appeals for the Seventh
District noted:
“The case before us does not involve a sale
of an item or distribution into the stream of
commerce. Nor does it deal with others (such
as a consumer or distributor) moving the item
into the forum, thus resulting in contact. Rather, the defendants are alleged to have physically injected their solution into Ohio.”
Triad Hunter, LLC v. Eagle Natrium, LLC, 132
N.E.3d 1272, 1285 (Ohio Ct. App. 2019).
Centre Water and Gadsden Water urge this Court
to apply the rationale from water-pollution cases in
other jurisdictions. In particular, Centre Water and
Gadsden Water cite Illinois v. City of Milwaukee, 599
F.2d 151 (7th. Cir. 1979), and International Paper Co.
v. Ouellette, 479 U.S. 481, 107 S. Ct. 805, 93 L.Ed.2d
883 (1987).
In Illinois v. City of Milwaukee, the evidence indicated that the City of Milwaukee had dumped millions

34a
of gallons of pathogen-containing sewage into Lake
Michigan, which sometimes traveled into Illinois waters. 599 F.2d at 156. The United States Court of Appeals for the Seventh Circuit applied Illinois’s longarm statute that provided that a tort is deemed committed in the place where the injury occurs and found
that it was fair to require Milwaukee to litigate in a
federal court in Illinois. In Ouellette, the Supreme
Court held that “nothing in the [Clean Water] Act bars
aggrieved individuals from bringing a nuisance claim
pursuant to the law of the source State” and declined
to hold that “all state-law suits . . . must be brought in
the source-state courts.” 479 U.S. at 497, 499, 107
S. Ct. at 814, 815.
Centre Water and Gadsden Water also rely on Pakootas v. Teck Cominco Metals, Ltd., 905 F.3d 565,
577–78 (9th Cir. 2018), cert. denied, 139 S. Ct. 2693
10
(2019), and a preceding case, Pakootas v. Teck
Cominco Metals, Ltd., No. CV-04-256-AAM, Nov. 8,
2004 (E.D. Wash.) (not selected for publication in
F. Supp.), and Horne v. Mobile Area Water & Sewer
System, 897 So. 2d 972 (Miss. 2004). Those cases
were, likewise, relied upon by the trial courts in finding the existence of specific personal jurisdiction in
this case.
In Horne, the Mississippi Supreme Court held
that Mississippi courts could exercise personal jurisdiction over the Mobile Area Water & Sewer System,
the Board of Water & Sewer Commissioners of the
City of Mobile (“BWSC”), and the City of Mobile for

10

Although Pakootas was decided after the petitions were submitted to this Court, the parties were afforded an opportunity to
address the application of Pakootas to this case by letter brief
and in oral argument.

35a
their actions occurring in Alabama that resulted in
damage to property in Mississippi. More particularly,
in 1998, in response to heavy rains from Hurricane
Georges, the BWSC “released a significant amount of
water” from the Big Creek Lake Reservoir in Alabama, which is located approximately 12 miles from
the Mississippi state line, and the water flowed into
the Escatawpa River, which flowed through Jackson
County, Mississippi, and caused property damage in
Mississippi. 897 So. 2d at 974. The court applied Mississippi’s long-arm statute, which permits Mississippi
courts to exercise personal jurisdiction over nonresident defendants who “‘commit a tort in whole or in
part’” in Mississippi. 897 So. 2d at 977 (quoting Miss.
Code Ann. § 13-3-57 (Rev. 2002)). The court also explained that “a tort is committed in Mississippi when
the injury results in th[at] State.” Id. (citing Sorrells
v. R & R Custom Coach Works, Inc., 636 So. 2d 668,
672 (Miss. 1994)). The Horne court went on to consider whether the defendants had minimum contacts
to support the exercise of personal jurisdiction, explaining:
“A defendant has ‘minimum contacts’ with a
state if ‘the defendant has “purposefully directed” his activities at residents of the forum
and the litigation results from alleged injuries
that “arise out of or relate to” those activities.’
Burger King Corp. v. Rudzewicz, 471 U.S. 462,
472, 105 S. Ct. 2174, 85 L.Ed.2d 528 (1985).”
Horne, 897 So. 2d at 979. The court found from the
evidence in that case that “the City and the [BWSC]
‘purposefully directed’ their activities toward Mississippi property owners, by opening the spillway to its
maximum capacity.” Horne, 897 So. 2d at 979.

36a
The recent decision of the United States Court of
Appeals for the Ninth Circuit in Pakootas provides
further insight as to a possible analysis to be applied
in a water-pollution case. Like Alabama courts, the
Ninth Circuit requires more than “foreseeability.”
“Express aiming is an ill-defined concept that
we have taken to mean ‘something more’ than
‘a foreign act with foreseeable effects in the forum state.’ Bancroft & Masters, Inc. v. Augusta Nat. Inc., 223 F.3d 1082, 1087 (9th Cir.
2000).
“Calder[ v. Jones, 465 U.S. 783, 104 S. Ct.
1482, 79 L.Ed.2d 804 (1984),] illustrates this
point. In that case, a California actress sued
two National Enquirer employees for an allegedly defamatory article published in the magazine. The article had been written and edited
in Florida but the magazine was distributed
nationally, with its largest market in California. The Supreme Court upheld the exercise
of personal jurisdiction in California because
the allegations of libel did not concern ‘mere
untargeted negligence’ with foreseeable effects there; rather, the defendants’ ‘intentional, and allegedly tortious, actions were expressly aimed’ at the state. 465 U.S. at 789,
104 S. Ct. 1482. Those actions simply involved writing and editing an article about a
person in California, an article that the defendants knew would be circulated and cause
reputational injury in that forum. Id. at 789–
90, 104 S. Ct. 1482. Under those circumstances, the defendants should ‘reasonably
anticipate being haled into court there’ to answer for their tortious behavior. Id. at 790,

37a
104 S. Ct. 1482 (quoting World-Wide
Volkswagen Corp. v. Woodson, 444 U.S. 286,
297, 100 S. Ct. 559, 62 L.Ed.2d 490 (1980)).
That was true even though the defendants
were not personally responsible for the circulation of their article in California. Id. at 789–
90, 104 S. Ct. 1482.”
Pakootas, 905 F.3d at 577-78.
Pakootas involved a factual scenario similar to the
one currently before us. The plaintiff in that case sued
the defendant in the State of Washington for damages
related to discharge and sludge from a defendant located upstream in Canada. Like the allegations taken
as true in our case, in Pakootas there was ample evidence indicating that the defendant knew the Columbia River carried waste away from the smelter and
that much of that waste traveled downstream into
Washington. Despite that knowledge, the defendant
in Pakootas continued to discharge hundreds of tons
of waste into the river every day. In finding specific
personal jurisdiction to exist, the Ninth Circuit held:
“[W]e have no difficulty concluding that [the defendant] expressly aimed its waste at the State of Washington.” 905 F.3d at 577-78. The court found that it
was “inconceivable that [the defendant] did not know
that its waste was aimed at the State of Washington
when [it] deposited [waste] into the powerful Columbia River just miles upstream of the border.” 905 F.3d
at 578. Further, the court found that, without the discharge into the river, the defendant would have soon
been inundated by the massive quantities of waste it
produced. The Ninth Circuit concluded that, saddled
with the knowledge of the effects of its discharge, the
defendant purposely directed its activities toward the
downstream state.

38a
The rationales from Pakootas and Horne were
more recently cited with approval in an analysis by
the Ohio Court of Appeals in Triad Hunter, LLC v.
Eagle Natrium, LLC, supra, in which the plaintiffs alleged that the defendants had conducted mining activities and released polluting substances that caused
damage in the neighboring state. That court reasoned:
“Continuing to release a substance while
knowing it travels to a jurisdiction is considered purposeful direction of efforts toward
that jurisdiction. See, e.g., Pakootas v. Teck
Cominco Metals, Ltd., 905 F.3d 565, 577-78
(9th Cir. 2018) (‘We have no difficulty concluding that Teck expressly aimed its waste at the
State of Washington. The district court found
ample evidence that Teck’s leadership knew
the Columbia River carried waste away from
the smelter, and that much of this waste travelled downstream into Washington, yet Teck
continued to discharge hundreds of tons of
waste into the river every day.’); Horne v. Mobile Area Water & Sewer Sys., 897 So. 2d 972,
979 (Miss. 2004) (where the Supreme Court
found the City of Mobile, Alabama and its local board of water commissioners ‘purposefully directed’ their activities toward Mississippi property owners by opening the spillway
to its maximum capacity). The aim can involve a forum resident or the forum state in
general. See Walden, 571 U.S. at 285, 134
S. Ct. 1115.”
Triad Hunter, LLC, 132 N.E.3d at 1285.
We find the above analyses persuasive and particularly applicable to the present case. “Alabama’s

39a
long-arm ‘statute,’ which is actually Rule 4.2, Ala. R.
Civ. P., extends to the limits of due process.” Leithead
v. Banyan Corp., 926 So. 2d 1025, 1030 (Ala. 2005)
(citing Ex parte McInnis, 820 So. 2d 795, 802 (Ala.
2001), and Duke v. Young, 496 So. 2d 37, 39 (Ala.
1986)). Unlike Mississippi’s long-arm statute at issue
in Horne, Rule 4.2 does not contain a specifically enumerated list; however, before Rule 4.2 was amended
in 2004, it “included a ‘laundry list’ of types of conduct
that would subject an out-of-state defendant to personal jurisdiction in Alabama.” Committee Comments to Amendment to Rule 4.2 Effective August 1,
2004. Former Rule 4.2(a)(2)(D) permitted Alabama
courts to exercise jurisdiction over a person who had
caused “tortious injury or damage in this state by an
act or omission outside this state if the person regularly does or solicits business, or engages in any other
persistent course of conduct or derives substantial
revenue from goods used or consumed or services rendered in this state.” Committee Comments to the
2004 amendment to Rule 4.2 state that, “[b]ecause the
‘catchall’ clause has consistently been interpreted to
go to the full extent of federal due process, see, for example, Martin v. Robbins, 628 So. 2d 614, 617 (Ala.
1993), it is no longer necessary to retain the ‘laundry
list’ in the text of the Rule.” Accordingly, considering
11
the history and committee comments, we construe
Rule 4.2 to include out-of-state torts, and we deem a
tort to be committed in the place where the injury occurs. See, e.g., Ex parte Holladay, 466 So. 2d 956, 960
(Ala. 1985) (explaining that, when “this Court is called
11

“Although the committee comments are not binding, they
may be highly persuasive. See Thomas v. Liberty National Life
Ins. Co., 368 So. 2d 254 (Ala. 1979).” Iverson v. Xpert Tune, Inc.,
553 So. 2d 82, 88 (Ala. 1989).

40a
upon to construe a statute, the fundamental rule is
that the court has a duty to ascertain and effectuate
legislative intent expressed in the statute, which may
be gleaned from the language used, the reason and necessity for the act, and the purpose sought to be obtained”); see also Ex parte State ex rel. Daw, 786 So.
2d 1134, 1137 (Ala. 2000) (“In construing rules of
court, this Court has applied the rules of construction
applicable to statutes. See Ex parte Oswalt, 686 So.
2d 368 (Ala. 1996).”). The injury in this case indisputably occurred in Alabama; therefore, the tort occurred
in Alabama for purposes of Rule 4.2.
We must next conduct a minimum-contacts analysis, which requires us to determine whether the remaining defendants have “purposefully avail[ed]
[themselves] of the privilege of conducting activities
within” Alabama, Hinrichs, 222 So. 3d at 1122, which
can be satisfied by showing that the remaining defendants purposefully directed their actions at Alabama. Horne, 897 So. 2d at 979. We must also determine whether Centre Water’s and Gadsden Water’s
causes of action against the remaining defendants
“arise out of or relate to” the remaining defendants’
activities in Alabama or, in other words, whether
there is a relationship among the remaining defendants, Alabama, and the action. Hinrichs, 222 So. 3d
12
at 1137 (citing Walden, supra). As explained above,

12

We note that the United States Court of Appeals for the Eleventh Circuit has “held that a tort ‘arise[s] out of or relate[s] to’
the defendant’s activity in a state only if the activity is a ‘but-for’
cause of the tort.” Waite v. All Acquisition Corp., 901 F.3d 1307,
1314 (11th Cir. 2018) (citing Oldfield v. Pueblo De Bahia Lora,
S.A., 558 F.3d 1210, 1222-23 (11th Cir. 2009)). In Waite, the
Eleventh Circuit also explained that the Supreme Court, in Walden, had not expressly rejected or adopted the “but-for” test. If

41a
taking Centre Water’s and Gadsden Water’s jurisdictional allegations as true, we must conclude that the
remaining defendants knowingly discharged PFCcontaining
chemicals
into
their
industrial
wastewater, which traveled to Dalton Utilities’ facility, where the defendants knew it was bing ineffectively treated and where the wastewater was sprayed
over the LAS. The remaining defendants further
knew that the PFC-containing chemicals entered the
Conasauga River, a tributary of the Coosa River, and
traveled through the Coosa River into Alabama. The
publicly available EPA reports and the published
studies demonstrate that the remaining defendants
had been placed on notice that the PFC-containing
chemicals were polluting the Coosa River upstream
from the sites in Alabama where the injuries occurred.
Based on the remaining defendants’ alleged activities,
Centre Water and Gadsden Water filed their causes of
action against the defendants. Here, similarly as in
Horne, Pakootas, and Triad Hunter, by virtue of
knowingly discharging PFC-containing chemicals in
their industrial wastewater, knowing they were ineffectively treated by Dalton Utilities, and knowing that
the PFCs would end up in the Coosa River, which
flows into Alabama, the remaining defendants, according to Centre Water’s and Gadsden Water’s allegations, purposefully directed their actions at Alabama. Such alleged conduct on the part of the remaining defendants in relation to Alabama is not random,
fortuitous, or attenuated, Burger King, 471 U.S. at

we were to apply that approach, i.e., but for the remaining defendants’ discharge of PFC-containing wastewater, those PFCs
would not have caused harm in Alabama, we would conclude that
the actions arise out of or relate to the remaining defendants’
contacts with Alabama, the forum state.

42a
486, 105 S. Ct. at 2189, regardless of the distance the
chemicals traveled to reach the sites in Alabama
where the injuries occurred. Furthermore, as noted
above, physical entry into the forum through “goods,
mail, or some other means” is relevant to the specific-personal-jurisdiction analysis. Walden, 571 U.S.
at 285, 134 S. Ct. at 1122. Under this factual scenario,
the physical entry of the pollution into Alabama’s water source creates the relationship among the remaining defendants, Alabama, and the actions.
We reiterate that foreseeability alone is insufficient to confer specific personal jurisdiction. In this
situation, however, Centre Water’s and Gadsden Water’s allegations, which we are required to take as
true, demonstrate that the remaining defendants continued to discharge PFC-containing chemicals in their
industrial wastewater, despite allegedly knowing that
the chemicals would enter the Coosa River. The remaining defendants are alleged to have expressly and
directly aimed the polluted water not only at Dalton
Utilities or the LAS in Georgia but also at Alabama
through the continuing flow of the polluted
wastewater from the remaining defendants’ plants,
into the Coosa River and its tributaries, and ultimately to the sites in Alabama where the injuries occurred. Thus, we conclude that, pursuant to the allegations in Centre Water’s and Gadsden Water’s complaints, the remaining defendants in these cases
knowingly and directly aimed tortious actions at Alabama.
Finally, in concluding our personal-jurisdiction
analysis, we must determine whether the exercise of
jurisdiction over the remaining defendants “complies
with traditional notions of fair play and substantial
justice.” Ex parte DBI, Inc., 23 So. 3d 635, 656 (Ala.

43a
2009). In determining whether jurisdiction comports
with traditional notions of fair play and substantial
justice, a court should consider, among other factors,
“‘the burden on the defendant,’ ‘the forum State’s interest in adjudicating the dispute,’ [and] ‘the plaintiff’s interest in obtaining convenient and effective relief.’” Ex parte DBI, 23 So. 3d at 656 (quoting WorldWide Volkswagen, 444 U.S. at 292, 100 S. Ct. at 564;
and Burger King, 471 U.S. at 477, 105 S. Ct. at 2184).
The remaining defendants assert that their minimum
contacts with Alabama alone illustrate why the exercise of jurisdiction by the trial courts does not comport
with notions of fair play and substantial justice.
The materials submitted by the parties, however,
indicate that the remaining defendants are located in
Dalton, Georgia, which is approximately 70 miles
from Centre and 90 miles from Gadsden. “[B]ecause
‘modern transportation and communications have
made it much less burdensome for a party sued to defend himself in a State where he engages in economic
activity,’ it usually will not be unfair to subject him to
the burdens of litigating in another forum for disputes
relating to such activity.” Burger King, 471 U.S. at
474, 105 S. Ct. at 2183 (quoting McGee v. International Life Ins. Co., 355 U.S. 220, 223, 78 S. Ct. 199,
201, 2 L.Ed.2d 223 (1957)). In addition, Centre Water’s and Gadsden Water’s allegations in these cases
pertain to an alleged injury occurring in Alabama, i.e.,
the pollution of the water supply of Alabama residents. Alabama has a significant and “‘“manifest interest” in providing its residents with a convenient forum for redressing injuries inflicted by out-of-state actors.’” Ex parte DBI, 23 So. 3d at 656 (quoting Burger
King, 471 U.S. at 473, 105 S. Ct. at 2182). “Moreover,
where individuals ‘purposefully derive benefit’ from

44a
their interstate activities, it may well be unfair to allow them to escape having to account in other States
for consequences that arise proximately from such activities.” Burger King, 471 U.S. at 474, 105 S. Ct. at
2183 (quoting Kulko v. California Superior Ct., 436
U.S. 84, 96, 98 S. Ct. 1690, 1699, 56 L.Ed.2d 132
(1978)).
There is no demonstrable burden in having the remaining defendants litigate in Cherokee and Etowah
Counties, and, considering all the factors this Court is
required to consider, we cannot say that it violates the
“‘traditional notions of fair play and substantial justice.’” International Shoe Co. v. Washington, 326 U.S.
at 316, 66 S. Ct. at 158 (quoting Milliken v. Meyer,
311 U.S. 457, 463, 61 S. Ct. 339, 85 L.Ed. 278 (1940)).
As the Pakootas court concluded, “[t]o the contrary,
there would be no fair play and no substantial justice
if [the remaining defendants] could avoid suit in the
place where [they are alleged to have] deliberately
sent [their] toxic waste.” 905 F.3d at 578.
We conclude that the trial courts may exercise
specific personal jurisdiction over the remaining defendants and that the remaining defendants have not
demonstrated a clear legal right to relief at this stage.
See Ex parte McInnis, 820 So. 2d at 798 (explaining
that mandamus relief requires a showing of, among
other factors, “a clear legal right in the petitioner to
the order sought”). As a result, the petitions for a writ
of mandamus filed in case nos. 1170864, 1170894,
13
1171182, 1171196, and 1171198 are denied.

13

With regard to Shaw Industries, Inc., because we find that
the trial courts properly exercised specific personal jurisdiction
over it, we need not address the contention that the Etowah Circuit Court erred in finding the existence of general jurisdiction.

45a
1170864, 1170894, 1171182,
1171198 — PETITIONS DENIED.

1171196,

and

Parker, C.J., and Wise, J., concur.
Bryan, J., concurs in the result.
Bolin, Sellers, and Mendheim, JJ., dissent.
Shaw and Mitchell, JJ., recuse themselves.
1170887, 1171197, and 1171199 — PETITIONS
GRANTED; WRITS ISSUED.
Parker, C.J., and Bolin, Wise, Sellers, and
Mendheim, JJ., concur.
Bryan, J., concurs in the result.
Shaw and Mitchell, JJ., recuse themselves.

46a
SELLERS, Justice (concurring in case nos. 1170887,
1171197, and 1171199 and dissenting in case nos.
1170864, 1170894, 1171182, 1171196, and 1171198).
I concur in the main opinion insofar as it grants
the mandamus petitions filed by defendants Indian
Summer Carpet Mills, Inc.; Kaleen Rugs, Inc.; and
Milliken & Company. I dissent from the denial of the
petitions filed by the remaining defendants because I
do not agree that those defendants’ suit-related conduct creates a “substantial connection” with the State
of Alabama sufficient to support specific jurisdiction.
The Water Works and Sewer Board of the Town of
Centre and the Water Works and Sewer Board of the
City of Gadsden (hereinafter referred to collectively as
“the plaintiffs”) allege in their complaints that the defendant carpet manufacturers and/or chemical suppliers send their chemically tainted industrial
wastewater to Dalton Utilities’ facility for treatment,
knowing that the chemicals in the wastewater resist
degradation. The plaintiffs allege that Dalton Utilities then treats the wastewater at its treatment plant
and sprays the treated wastewater onto a 9,800 acre
Land Application System (“LAS”) bordering the Conasauga River. The plaintiffs claim that runoff from the
LAS enters the Conasauga River, flows downstream
into the Coosa River, and ultimately contaminates
drinking water provided by the plaintiffs to their customers. The plaintiffs allege that the defendants
knew or should have known that their wastewater
contained certain chemicals resistant to treatment,
that those chemicals were polluting the Conasauga
River, and that it was foreseeable that the pollution
would flow downstream into Alabama and cause injury. The Due Process Clause of the Fourteenth

47a
Amendment permits a forum state to subject a nonresident defendant to its courts only when that defendant has sufficient minimum contacts with the forum state. Walden v. Fiore, 571 U.S. 277, 283, 134
S. Ct. 1115, 1121 (2014). “In judging minimum contacts, a court properly focuses on ‘the relationship
among the defendant, the forum, and the litigation.’”
Keeton v. Hustler Magazine, Inc., 465 U.S. 770, 775,
104 S. Ct. 1473, 1478 (1984) (quoting Shaffer v. Heitner, 433 U.S. 186, 204, 97 S. Ct. 2569, 2579 (1977)).
“For a State to exercise [specific personal] jurisdiction
consistent with due process, the defendant’s suit-related conduct must create a substantial connection
with the forum State.” Walden 571 U.S. at 284, 134
S. Ct. at 1121. A defendant’s contacts with a forum
State that are merely “‘random,’ ‘fortuitous’ or ‘attenuated’” are not sufficient. Burger King Corp. v.
Rudzewicz, 471 U.S. 462, 475, 105 S. Ct. 2174, 2183
(1985), quoting Keeton, 465 U.S. at 774, 104 S. Ct. at
1748).
The Supreme Court in Walden considered the “effects test” first enunciated in Calder v. Jones, 465 U.S.
783, 104 S. Ct. 1482 (1984). That test is applicable in
cases alleging intentional torts. Oldfield v. Pueblo De
Bahia Lora, S.A., 558 F.3d 1210, 1220 n.28 (11th Cir.
2009). Under the effects test, a plaintiff must demonstrate “that the defendant (1) committed an intentional tort (2) that was directly aimed at the forum, (3)
causing an injury within the forum that the defendant
should have reasonably anticipated.” Id. In applying
the effects test, the United States Supreme Court
noted that “[t]he proper question is not where the
plaintiff experienced a particular injury or effect but
whether the defendant’s conduct connects him to the
forum in a meaningful way.” Walden, 571 U.S. at 290,
134 S. Ct. at 1125. The Court in Walden ultimately

48a
held that Nevada did not have specific personal jurisdiction over the defendant because all the actions complained of had occurred in Georgia and the defendant
had not directly aimed the allegedly tortious actions
at Nevada.
“The issue of personal jurisdiction ‘“stands or falls
on the unique facts of [each] case.’”” Ex parte Citizens
Prop. Ins. Corp., 15 So. 3d 511, 515 (Ala. 2009) (quoting Ex parte I.M.C., Inc., 485 So. 2d 724, 725 (Ala.
1986)). All the underlying actions giving rise to the
plaintiffs’ claims in the present case occurred in Georgia. The defendants directed their wastewater to Dalton Utilities, a public utility, regulated by the Georgia
Department of Natural Resources, for treatment.
Dalton Utilities, in turn, treated the wastewater and
sprayed it onto its LAS, which Dalton Utilities is specifically authorized and permitted to do under Georgia
law. The fact that some runoff allegedly ended up in
the Conasauga River in Georgia and eventually in the
Coosa River in Alabama does not establish that the
defendants’ actions were intentionally and directly
aimed at Alabama.
The plaintiffs put much emphasis on an allegation
that the defendants knew or should have known that
their chemicals would reach Alabama. However,
“‘foreseeability’ alone has never been a sufficient
benchmark for personal jurisdiction under the Due
Process Clause.” World-Wide Volkswagen Corp. v.
Woodson, 444 U.S. 286, 295, 100 S. Ct. 559, 566
(1980).
Finally, I believe the three cases from other jurisdictions upon which the main opinion primarily relies
are distinguishable. In Triad Hunter, LLC v. Eagle
Natrium, LLC, 132 N.E.3d 1272 (Ohio Ct. App. 2019),
the plaintiff alleged that the defendant, located in

49a
West Virginia and engaged in mining operations on
the West Virginia side of the Ohio River, had created
“caverns” that extended under the river and into the
plaintiff’s property in Ohio. According to the Ohio
Court of Appeals, the case involved
“not only . . . entry of the defendants’ instrumentality into [Ohio] but also . . . allegations
of retrieval of the item which made contact
with Ohio and retrieval of minerals which
were dissolved into the item (which was injected with the purpose of dissolving minerals
in order to profit). The item making the contact with Ohio still essentially belonged to the
defendants, at least for purposes of personal
jurisdiction, and it was purposefully retrieved
by them in order to extract the dissolved minerals.”
132 N.E.3d at 1285.
In Horne v. Mobile Area Water & Sewer System,
897 So. 2d 972, 979 (Miss. 2004), the defendants, in
anticipation of heavy rains, purposefully released a
significant amount of water from a reservoir 12 miles
from the Mississippi border, which flowed into Mississippi and caused damage. In Pakootas v. Teck
Cominco Metals, Ltd., 905 F.3d 565 (9th Cir. 2018),
the defendant, a Canadian company, intentionally
dumped waste directly into a river that flowed into the
State of Washington. The United States Court of Appeals for the Ninth Circuit described the defendant’s
actions as using the river as a “conveyor belt” to dispose of waste into Washington.
Those cases involved defendants intentionally and
purposefully reaching across state lines or discharging material directly into a water source that flowed

50a
into the forum jurisdiction a short distance away. In
contrast, in the present case, the allegedly offending
material was discharged into Dalton Utilities’ facility,
which in turn sprayed it on land in Georgia, which
then trickled into a tributary river in Georgia approximately 70 miles from the Coosa River site of the injuries in Alabama.
There is no evidence indicating that the defendants in the present cases directly aimed the allegedly
tainted wastewater at Alabama. Thus, I do not believe their actions sufficiently created the necessary
minimum contacts with this State to create specific
personal jurisdiction. Accordingly, I would grant all
14
the petitions for the writ of mandamus.
Mendheim, J., concurs.

14

In a negligence case, in order to establish specific personal
jurisdiction, the plaintiff must show that the defendant committed “‘some act by which the defendant purposefully avails itself
of the privilege of conducting activities within the forum . . ., thus
invoking the benefits and protections of its laws.’” Oldfield v.
Pueblo De Bahia Lora, S.A., 558 F.3d 1210, 1220 (11th Cir. 2009)
(quoting Hanson v. Denckla, 357 U.S. 235, 253, 78 S. Ct. 1228,
1240 (1958)). For the same reasons I conclude that the plaintiffs
have not shown that the defendants directly aimed their allegedly tortious conduct at Alabama, I do not believe it has been
established that they purposefully availed themselves of the
privilege of conducting business here, which is the standard to
obtain personal jurisdiction.

51a
APPENDIX B
IN THE CIRCUIT COURT OF
CHEROKEE COUNTY, ALABAMA
THE WATER WORKS
AND SEWER BOARD
OF THE TOWN OF
CEN,

)

Plaintiff,

)

v.

)

3M COMPANY, INC.,
ALADDIN
MANUFACTURING
CORPORATION,
APRICOT
INTERNATIONAL,
INC.,
ARROWSTAR, LLC
ET AL,

)

)
)
Case No.:
CV-2017-900049.00

)
)
)

May 15, 2018

)
)
)

Defendants.
ORDER ON MOTIONS TO DISMISS
AND MOTIONS FOR PROTECTIVE ORDER
This case is before the Court on motions to dismiss
and motions for a protective order filed by some, but
not all, of the Defendants. The Court will address the
motions by individual Defendant.
Facts
The Plaintiff provides drinking water to residential and commercial customers in Cherokee County,
Alabama. It draws its raw water from Weiss Lake. It

52a
alleges that the Defendants are either carpet manufacturers who use certain chemicals in their manufacturing process or are chemicals manufacturers who
supply chemicals to the manufacturers of carpet. The
Plaintiff alleges that the Defendants caused chemicals
to enter Weiss Lake in Cherokee County, Alabama
and that it must expend considerable resources to remove those chemicals from the water in order to make
it safe for its customers to drink. The Plaintiff alleges
that the chemicals were placed into the environment
in Georgia near the Conasauga River, that that River
is a tributary of the Coosa River, that Weiss Lake is
in the Coosa River Basin and that through those connections the chemicals made their way into the raw
water source of the Plaintiff.
While taking issue with those allegations, the Defendants addressed in this Order contest this Court’s
jurisdiction.
Defendant Textile Rubber and
Chemical Company, Inc.
Motion to Dismiss
Textile Rubber and Chemical Company, Inc.
(“TRCC”) filed a Motion to Dismiss for Lack of Personal Jurisdiction and a Motion for Protective Oder to
Stay Discovery. The Motion to Dismiss was filed pursuant to Ala. R. Civ. P. 12(b)(2) (the defense of “lack of
jurisdiction over the person”).
As recognized by all parties, there are two subsets
of personal jurisdiction: (1) general and (2) specific.
Daimler AG v. Bauman, 134 S. Ct. 746 (2014). The
Plaintiff has made no supported claim of general jurisdiction relative to most of the Defendants, including TRCC, and the Court finds that general jurisdiction of TRCC does not exist in Alabama.

53a
The general statement of the law regarding personal jurisdiction is that
The Due Process Clause of the Fourteenth
Amendment constrains a State’s authority to
bind a nonresident defendant to a judgment of
its courts. World-Wide Volkswagen Corp. v.
Woodson, 444 U.S. 286, 291, 100 S. Ct. 559, 62
L.Ed.2d 490 (1980). Although a nonresident’s
physical presence within the territorial jurisdiction of the court is not required, the nonresident generally must have “certain minimum
contacts . . . such that the maintenance of the
suit does not offend ‘traditional notions of fair
play and substantial justice.’” International
Shoe Co. v. Washington, 326 U.S. 310, 316, 66
S. Ct. 154, 90 L.Ed. 95 (1945) (quoting Milliken v. Meyer, 311 U.S. 457, 463, 61 S. Ct. 339,
85 L.Ed. 278 (1940)).
Walden v. Fiore, 134 S. Ct. 1115, 1121, 188 L. Ed. 2d
12 (2014).
Alabama Courts have addressed the question of
specific jurisdiction with the following statement
“The analytical framework for determining
whether specific jurisdiction exists consists of
three inquiries. See [State ex rel.] Circus Circus [Reno, Inc. v. Pope], 317 Or. [151,] 159–60,
854 P.2d 461[, 465 (1993) (en banc)] (laying
out analytical framework).
First, the defendant must have ‘purposefully
avail[ed] itself of the privilege of conducting
activities within the forum State.’ Hanson v.
Denckla, 357 U.S. 235, 253, 78 S. Ct. 1228, 2
L.Ed.2d 1283 (1958). The requirement that a
defendant purposefully direct activity to the

54a
forum state precludes the exercise of jurisdiction over a defendant whose affiliation with
the forum state is ‘random,’ ‘fortuitous,’ or ‘attenuated,’ or the ‘unilateral activity of another
party or a third person.’ Burger King, 471
U.S. at 475, 105 S. Ct. 2174 (internal citation
marks omitted); see also State ex rel. Jones v.
Crookham, 296 Or. 735, 741–42, 681 P.2d
103[, 107] (1984) (requirements of due process
not met when defendant’s contacts with Oregon are ‘minimal and fortuitous’).
“Second, the action must ‘arise out of or relate
to’ the foreign defendant’s ‘activities in the forum State.’ Helicopteros Nacionales de Colombia, S.A., v. Hall, 466 U.S. 408, 414, 104
S. Ct. 1868, 80 L.Ed.2d 404 (1984); Burger
King, 471 U.S. at 472, 105 S. Ct. 2174. Stated
differently, for an exercise of specific jurisdiction to be valid, there must be ‘a “relationship
among the defendant, the forum, and the litigation.”’ Helicopteros, 466 U.S. at 414, 104
S. Ct. 1868 (quoting Shaffer v. Heitner, 433
U.S. 186, 204, 97 S. Ct. 2569, 53 L.Ed.2d 683
(1977)). In further explaining that relationship, the Supreme Court recently highlighted
two means by which specific jurisdiction attaches: Jurisdiction may attach if a party engages in ‘activity [that] is continuous and systematic and that activity gave rise to the episode-in-suit.’ Goodyear, [564] U.S. at [923],
131 S. Ct. at 2853 (internal quotation marks
omitted; emphasis in original). Jurisdiction
may also attach if a party's ‘certain single or
occasional acts in a State [are] sufficient to
render [him or her] answerable in that State

55a
with respect to those acts, though not with respect to matters unrelated to the forum connections.’ Id. (internal quotation marks omitted). Thus, as articulated by the Court, an exercise of specific jurisdiction is appropriate in
cases where the controversy at issue ‘derive[s]
from, or connect[s] with’ a defendant's forumrelated contacts. Id. at [919], 131 S. Ct. at
2851.
“Finally, a court must examine whether the
exercise of jurisdiction over a foreign defendant comports with fair play and substantial
justice, taking into account various factors
deemed relevant, including an evaluation of
the burden on a defendant, the forum state's
interest in obtaining convenient and effective
relief, the interstate judicial system's interest
in efficient resolution of controversies, and
furthering fundamental social policies. Asahi
Metal Industry Co. v. Superior Court, 480
U.S. 102, 113, 107 S. Ct. 1026, 94 L.Ed.2d 92
(1987); Burger King, 471 U.S. at 476–77, 105
S. Ct. 2174; see Circus Circus, 317 Or. at 159–
60, 854 P.2d 461.”
354 Or. at 577–80, 316 P.3d at 291–92 (third
emphasis original; other emphases added;
footnote omitted).
Hinrichs v. Gen. Motors of Canada, Ltd., 222 So. 3d
1114, 1121–22 (Ala. 2016), cert. denied, 137 S. Ct.
2291, 198 L. Ed. 2d 724 (2017) (emphasis in original).
To summarize, for an out-of-state defendant to be
subject to specific jurisdiction in Alabama, a plaintiff
must show:

56a
(1) That the defendant purposefully availed itself
of the privilege of conducting activities in Alabama; this requires a showing:
a. That the subject activity of the Defendant is directed at Alabama
b. That the subject activity is not “random,” “fortuitous,” or “attenuated,” or
the “unilateral activity of another
party or a third person.”
(2) That there is “a ‘relationship among the defendant, the forum, and the litigation.’” That
is, as set out by TRCC, “[t]he defendant’s activities must be related to the ‘operative facts of
the controversy.’” And
(3) That the exercise of personal jurisdiction
would “comport[] with fair play and substantial justice”
The argument of TRCC is that its principal place
of business is in Georgia and that the allegations
made by the Plaintiff involve conduct alleged to have
occurred in Georgia. It states that “Plaintiff has alleged no conduct or ‘activities’ by TRCC in the State
of Alabama that relate to the causes of action in Plaintiff’s Complaint.” Defendant TRCC’s Motion to Dismiss, pg. 6 (emphasis in original). It states that the
Plaintiff’s allegation is that the Defendants “discharged wastewater to a third party, Dalton Utilities,
located in Dalton, Georgia, and the wastewater,
through no other purposeful action or conduct by
TRCC, allegedly made its way many miles to the water supply in the Towne (sic) of Centre, Alabama.” Id.
(emphasis in original). TRCC pointed out in its Reply
Brief Supporting its Motion to Dismiss for Lack of Per-

57a
sonal jurisdiction, that Dalton Utilities was in violation of its permit from the Georgia Environmental
Protection Division that stated that “[t]he wastewater
and disposal system [maintain by Dalton Utilities]
must be maintained as a no-discharge system.” TRCC
Reply Brief, pg. 7.
The primary areas of contention are that (1)
TRCC did not direct any activity toward Alabama and
(2) the acts complained of by the Plaintiff are actually
acts of a third party (Dalton Utilities). It appears that
there is no Alabama case law directly on point.
WHETHER THE ACTS WERE
DIRECTED AT ALABAMA
The most illustrative cases cited by the parties relative to this issue are: (1) Horne v. Mobile Area Water
& Sewer Sys., 897 So. 2d 972 (Miss. 2004), and (2) Pakootas v. Teck Cominco Metals, Ltd., 2004 WL
2578982 (E.D. Wash. 2004).
In both of these cases, there was a question of
whether the plaintiffs satisfied the issue of whether
the out-of-state defendants had engaged in “express
aiming” or “purposefully directing” activities toward
the forum state. In both cases, the court held that the
plaintiffs had satisfied their burdens on this issue.
In Horne, property owners in Mississippi sued
various defendants, including the Water and Sewer
System of Mobile, Alabama, (“The System”) in state
court in Mississippi. The System had, in Alabama, released a significant amount of water in anticipation of
an oncoming hurricane. The water that had been released damaged and/or destroyed real and personal
property downstream in Mississippi. The Supreme
Court of Mississippi held that “[t]here is no question
that [the defendants] knew the water would flow into

58a
Mississippi . . .” Id. at 979. This act and this
knowledge was sufficient for the court to find that the
System in Alabama had “minimum contacts” with
Mississippi such that the exercise of personal jurisdiction was appropriate.
In Pakootas, the plaintiffs were citizens of the
State of Washington that filed a suit under the federal
Comprehensive Environmental Response, Compensation and Liability Act (CERCLA) against a Canadian
corporation that operated a smelter ten miles north of
the US-Canada border. The allegation was that the
defendants discharged harmful substances into the
waters that flowed downstream to the plaintiffs and
caused damage. The court held the facts as set out
above and as alleged by the plaintiffs did satisfy the
legal tests for personal jurisdiction.
In drawing a distinction between those cases and
the present case, TRCC points out that it did not dispose of anything directly into any water source and
that the distance from the defendants in those two
cases and the forum jurisdiction was not as great as
the distance in this case.
“‘In considering a Rule 12(b)(2), Ala. R. Civ. P.,
motion to dismiss for want of personal jurisdiction, a court must consider as true the allegations of the plaintiff's complaint not controverted by the defendant's affidavits, Robinson
v. Giarmarco & Bill, P.C., 74 F.3d 253 (11th
Cir. 1996), and Cable/Home Communication
Corp. v. Network Productions, Inc., 902 F.2d
829 (11th Cir. 1990), and “where the plaintiff's
complaint and the defendant's affidavits conflict, the . . . court must construe all reasonable inferences in favor of the plaintiff.” Robinson, 74 F.3d at 255 (quoting Madara v. Hall,

59a
916 F.2d 1510, 1514 (11th Cir. 1990)). “For
purposes of this appeal [on the issue of in personam jurisdiction] the facts as alleged by the
. . . plaintiff will be considered in a light most
favorable to him [or her].” Duke v. Young, 496
So. 2d 37, 38 (Ala. 1986).’
Corp. Waste Alternatives, Inc. v. McLane Cumberland, Inc., 896 So. 2d 410, 413 (Ala. 2004).
The Plaintiff’s Complaint alleges that the “chemicals [complained of by the Plaintiff and allegedly
used/manufactured by the Defendants] resist degradation during processing at Dalton Utilities’
wastewater treatment center and contaminate the
Conasauga River.” Complaint, ¶ 3, ¶ 50. The Plaintiff’s Complaint alleges that studies have been conducted and that regulations from the Environmental
Protection Agency (“EPA”) have been published relative to the health risks of the chemicals at issue. Complaint, ¶¶ 51-59. Those studies and regulations allegedly gave notice to the Defendants of the adverse
health risks of the chemicals. The Plaintiff’s Complaint alleges that the Defendants are responsible for
these chemicals being present in the Plaintiff’s raw
water source through the disbursement of the Defendants’ wastewater into the Conasauga River and eventually into the Coosa River. Complaint, ¶¶ 2-5, 49-50,
64.
In considering the facts in the light most favorable
to the Plaintiff and in construing all reasonable inferences in favor of the Plaintiff where the Complaint
and the Defendants’ evidentiary submissions conflict,
the Court finds that the Plaintiff has demonstrated
that the Defendants have conducted activity directed
at Alabama and that that activity is not “random,”

60a
“fortuitous,” or “attenuated,” or the “unilateral activity of another party or a third person.”
As shown in the Horne and Pakootas cases, the
actions of an entity that result in harmful substances
being placed into a water source can result in harm
downstream in a foreign jurisdiction and it is reasonable for the entity causing those substances to be
placed into the water to expect that their downstream
harm could cause them to be hauled into court in that
foreign jurisdiction. Thus, an entity causing chemicals to enter the Conasauga River should expect that
since that River is a tributary of the Coosa River then
the chemicals can enter the Coosa River. Once those
chemicals enter the Coosa River, the entity should expect that those chemicals will reach downstream to
Alabama once the Coosa River crosses the state line.
Therefore, the act of causing the chemicals to enter
the Conasauga River is an act directed at Alabama.
The Defendant cannot, at this stage in the litigation, avail themselves of the defense that Dalton Utilities is the entity responsible and that its actions constitute the “unilateral activity of another party or a
third person.” As alleged by the Plaintiff, and, again,
considering the facts in the light most favorable to the
Plaintiff and resolving factual disputes in its favor,
the chemicals at issue “resist degradation during the
treatment process utilized by Dalton Utilities and increase in concentration as waste accumulates in the
[Land Application System].” Complaint, ¶ 50. In
other words, the chemicals sent to Dalton Utilities by
the Defendants cannot be treated and removed from
the environment by Dalton Utilities. Therefore, the
Plaintiff alleges, the Defendants have not properly
disposed of the chemicals by sending them to Dalton

61a
Utilities, thus the actions complained of are not the
“unilateral activity of another party or a third person.”
Given this finding, the Court also finds that:
(1) there is “a ‘relationship among the defendant, the
forum, and the litigation.’” That is, as set out by
TRCC, “[t]he defendant’s activities [are] related to the
‘operative facts of the controversy’” and (2) that the
exercise of personal jurisdiction would “comport[] with
fair play and substantial justice[.]”
For the purposes of the present Motion only, the
Court finds in favor of the Plaintiff on the issue of specific personal jurisdiction.
Motion for Protective Order to Stay Discovery
Because the Court herein denies TRCC’s Motion
to Dismiss, the Motion for Protective Order to Stay
Discovery is also denied.
Defendant Dorsett Industries, Inc.
Motion to Dismiss and Motion for
Protective Order
Dorsett Industries, Inc. (“Dorsett”), asserts the
same argument regarding personal jurisdiction as asserted by TRCC and for the same reasoning as set out
above Dorsett’s Motion to Dismiss is due to be denied.
However, Dorsett first makes the claim that the
Plaintiff’s allegations that it “utilize(s) various PFCs
and their precursors in the manufacturing process”
(Complaint, ¶ 49) is inaccurate. The Director of Manufacturing for Dorsett filed an affidavit in which he
stated that “Dorsett does not apply any stain-resistant, grease-resistant, or water-resistant chemicals
to its products at any point during the manufacturing
process . . .” Goodroe Affidavit, ¶ 4. He further stated

62a
that “Dorsett did not use any perflourinated stain-resistant, or water-resistant chemicals after January 1,
2009.” Id. at ¶ 5.
The Plaintiff responded that these statements
“do[] not conclusively refute the complaint’s allegations which claim that [Dorsett] uses specific PFC’s
(e.g. PFOA, PFOS, and their precursors) that have
these [stain, grease and water-resistant] qualities”
and that the affidavit “indirectly admits that [Dorsett]
used such chemicals until December 31, 2008” and
that other companies contracted by Dorsett may have
used these chemicals to “finish” products manufactured by Dorsett.
Given these factual considerations, the Court will
hold the Motion to Dismiss in abeyance and allow the
parties an opportunity to conduct discovery only specifically related to the three issues raised by the Plaintiff in its Response in Opposition to Defendant Dorsett
Industries, Inc.’s Renewed Motion to Dismiss.
Defendant MFG Chemical, Inc.
Motion to Dismiss and Motion for
Protective Order
MFG Chemical, Inc. (“MFG”) stated in its Memorandum of Law in Support of its Motion to Dismiss
that it “never used or produced chemicals with PFCs
. . .” Memorandum, pg. 7. However, it failed to support this allegation with any evidentiary submission.
MFG submitted an affidavit from its Chairman and
CEO. That affidavit does not make the same statement that MFG did not use or produce chemicals with
PFCs. Instead, MFG points to its pleadings for the
basis that did not use or produce chemicals with
PFCs. See, e.g., Defendant MFG Chemical, Inc.’s Reply to Plaintiff’s Response in Opposition to Defendant

63a
MFG’s Motion to Dismiss, pg. 4 (citing MFG’s Renewed Answer, First Defense).
MFG’s Motion to Dismiss and Motion for Protective Order are both denied on the same reasoning as
set out above relative to TRCC’s Motions.
Defendant Shaw Industries, Inc.
Motion to Dismiss for Lack of Personal
Jurisdiction, and Alternatively, Under the
Doctrine of Forum non Conveniens
Shaw Industries, Inc. (“Shaw”) bases its Motion to
Dismiss: (1) on a lack of personal jurisdiction, and
(2) on the doctrine of forum non conveniens. Based on
the same reasoning as set out above relative to
TRCC’s Motion to Dismiss, Shaw’s Motion to Dismiss
based on a lack of personal jurisdiction is denied.
The allegations made by the Plaintiff are relative
to actions occurring in and around Dalton, Georgia.
As stated by the Plaintiff in its Response in Opposition to Defendant Shaw Industries, Inc.’s Renewed
Motion to Dismiss, Dalton, Georgia is only 68 miles
from Centre, Alabama. The Plaintiff alleges actions
taken by the Defendant in Dalton. The Court expects
that witnesses from that area will be necessary witnesses in this case. However, the alleged harm is in
Cherokee County, Alabama. The Court also expects
that witnesses from this area will be necessary witnesses in this case.
Given both of these considerations, and given the
relatively short distance between Dalton and Cherokee County, the Court denies Shaw’s Motion to Dismiss Under the Doctrine of Forum non Conveniens.

64a
Defendant Milliken and Company
Motion to Dismiss
Milliken and Company (“Milliken”) bases its Motion to Dismiss: (1) on a lack of personal jurisdiction,
and (2) on a claim that the Complaint fails to state a
claim for relief. Based on the same reasoning as set
out above relative to TRCC’s Motion to Dismiss, Milliken’s Motion to Dismiss based on a lack of personal
jurisdiction is denied.
Milliken also seeks dismissal of “[e]ach individual
count” of the Complaint because, it alleges, “the allegations of each Count in the Complaint (Compl. ¶¶ 6595) constitute no more than threadbare recitals of the
elements of the cause of action and do not show that
Plaintiff is entitled to relief.” Milliken’s Motion to Dismiss and Memorandum of Law in Support, pg. 8.
As is well-known, Alabama is a “notice-pleading”
state. This concept has been discussed as follows:
“[T]he purpose of notice pleading is to provide
defendants adequate notice of the claims
against them.” Ex parte International Ref. &
Mfg. Co., 972 So. 2d 784, 789 (Ala. 2007). See
also Rule 8, Ala. R. Civ. P., Committee Comments on 1973 Adoption (“Under [Rule 8] the
prime purpose of pleadings is to give notice.”).
“Generally, the pleadings, in and of themselves, are considered relatively unimportant
because cases are to be decided on the merits.”
Johnson v. City of Mobile, 475 So. 2d 517, 519
(Ala. 1985).
“[Rule 8(a)] is complied with if the claim for
relief gives to the opponent fair notice of the
pleader’s claim and the grounds upon which it

65a
rests. Carter v. Calhoun County Board of Education, 345 So. 2d 1351 (Ala. 1977). The discovery process bears the burden of filling in
the factual details. 5 C. Wright & A. Miller,
Federal Practice and Procedure § 1215, p. 110
(1969).
A fair reading and study of the Alabama Rules
of Civil Procedure lead to the determination
that pleading technicalities are now largely
avoided and that the pleading of legal conclusions is not prohibited, as long as the requisite
fair notice is provided thereby to the opponent.” Mitchell v. Mitchell, 506 So. 2d 1009,
1010 (Ala. Civ. App. 1987).
Furthermore, “pleadings are to be liberally
construed in favor of the pleader.” Adkison v.
Thompson, 650 So. 2d 859, 862 (Ala. 1994).
See also Rule 8, Ala. R. Civ. P., Committee
Comments on 1973 Adoption (“Rule 8(f) [, Ala.
R. Civ. P.,] . . . provides that the pleadings are
to be construed liberally in favor of the
pleader.”).
“[T]he dismissal of a complaint is not proper if
the pleading contains ‘even a generalized
statement of facts which will support a claim
for relief under [Rule] 8, [Ala. R. Civ. P.]’
(Dunson v. Friedlander Realty, 369 So. 2d
792, 796 (Ala. 1979)), because ‘[t]he purpose of
the Alabama Rules of Civil Procedure is to effect justice upon the merits of the claim and to
renounce the technicality of procedure.’
Crawford v. Crawford, 349 So. 2d 65, 66 (Ala.
Civ. App. 1977).”

66a
McKelvin v. Smith, 85 So. 3d 386, 388–89 (Ala. Civ.
App. 2010).
Given the considerations listed in the McKelvin v.
Smith case and this Court’s review of the Complaint,
Milliken’s Motion to Dismiss based on its claim that
the Complaint fails to state a claim for relief (claims
listed in pages 8 through 14 of its Motion to Dismiss)
is denied.
Motion for Protective Order to Stay Discovery
Because the Court herein denies Milliken’s Motion to Dismiss, the Motion for Protective Order to
Stay Discovery is also denied.
Defendants Aladdin Manufacturing
Corporation, Mohawk Industries, Inc. and
Mohawk Carpet, LLC.
Motion to Dismiss
Aladdin Manufacturing Corporation, Mohawk Industries, Inc. and Mohawk Carpet, LLC. base their
joint Motion to Dismiss: (1) on a lack of personal jurisdiction, and (2) on a claim that the Complaint fails
to state a claim for relief. Based on the same reasoning as set out above relative to TRCC’s Motion to Dismiss and Milliken’s Motion to Dismiss, the Motion to
Dismiss filed by these Defendants is denied.
Defendant 3M Company
Motion to Dismiss
3M Company (“3M”) bases its Motion to Dismiss
on a claim that the Complaint fails to state a claim for
relief. Based on the same reasoning as set out above
relative to the Motion to Dismiss filed by Milliken, the
Motion to Dismiss filed by 3M is denied.

67a
Defendant Lexmark Carpet Mills, Inc.
Motion to Dismiss and Motion for
Protective Order and Stay of Discovery
Lexmark Carpet Mills, Inc. (“Lexmark”) bases its
Motion to Dismiss: (1) on a lack of personal jurisdiction, and (2) on a claim that the Complaint fails to
state a claim for relief. Based on the same reasoning
as set out above relative to TRCC’s Motion to Dismiss,
Milliken’s Motion to Dismiss based on a lack of personal jurisdiction is denied.
However, like Dorsett, Lexmark claims that it
“does not use [the chemicals complained of by the
Plaintiff] in its manufacturing process or discharge
them into any bodies of water.” Lexmark’s Motion to
Dismiss, page 2. Lexmark submitted an affidavit
from its Chief Financial Officer in which he stated
that Lexmark does not and has not made or used
PFCs, PFOAs or PFOSs in Dalton, Georgia. Affidavit
of James E. Butler, ¶¶ 3-4.
The Plaintiff countered that Lexmark’s “own
product warranty literature establishes that
[Lexmark] manufactures a number of different stainresistant products . . . At least some of these products
impart stain-resistance through the use of
Scotchguard, a 3M product that contained PFOS as a
key ingredient until June 2003 when it was reformulated.” Plaintiff’s Response in Opposition to Defendant Lexmark Carpet Mills, Inc.’s Motion to Dismiss,
pg. 10.
Given these factual considerations, the Court will
hold the Motion to Dismiss and Motion for Protective
Order and Stay of Discovery in abeyance and allow the
parties an opportunity to conduct discovery only specifically related to the issue of whether Lexmark ever

68a
made, used, supplied or distributed any of the chemicals at issue in this case.
Defendant Kraus USA, Inc.
Motion to Dismiss
Kraus USA, Inc. (“Kraus”), asserts the same argument regarding personal jurisdiction as asserted by
TRCC and for the same reasoning as set out above,
Kraus’s Motion to Dismiss is due to be denied.
Kraus’s Motion also references its evidentiary
submission stating that since 2010 the facility it owns
in Dalton, Georgia, is a “storage facility only” and that
“since 2010 Kraus has produced none of the . . . chemicals referenced in Plaintiff’s Complaint . . .” Affidavit
of Mark Cummings, ¶ 8.
As pointed out by the Plaintiff, this statement
could be viewed as an admission “that [Kraus] did
produce and use PFCs and related chemicals at this
facility . . .” Plaintiff’s Response in Opposition to Defendant Kraus USA, Inc.’s Renewed Motion to Dismiss, pg. 10 (emphasis in original). Given this consideration, the Motion to Dismiss is denied.
Defendant The Dixie Group, Inc.
Motion to Dismiss and Motion for
Protective Order to Stay Discovery
The Dixie Group, Inc. (“Dixie”), asserts essentially
the same argument regarding personal jurisdiction as
asserted by TRCC and for the same reasoning as set
out above Dixie’s Motion to Dismiss and Motion for
Protective Order to Stay Discovery are denied.

69a
Defendant Harcos Chemical, Inc.
Motion to Dismiss, or in the Alternative,
Motion for More Definite Statement
Harcos Chemical, Inc. (“Harcos”) explicitly bases
its Motion to Dismiss on the same argument asserted
by 3M. For the same reasons stated above relative to
3M, Harcos’ Motion to Dismiss is denied.
The Motion for More Definite Statement is denied.
The Court finds that the Complaint sufficiently apprises Harcos of the allegations against it.
Defendant Dystar L.P.
Motion to Dismiss and Motion for
Protective Order to Stay Discovery
Dystar L.P. (“Dystar”) bases its Motion to Dismiss
on its assertion that it “does not produce or use [the
chemicals complained of the Plaintiff] at its Dalton,
Georgia facility and has never discharged such chemicals from its Dalton facility to Dalton Utilities.” Dystar’s Reply Brief in Support of its Renewed and
Amended Motion to Dismiss, pg. 1. In support of this
assertion, it relies on an affidavit from its Chief Financial Officer.
The Plaintiff counters that Dystar “suppl[ies]
chemical products to manufacturing facilities located
upstream of Centre Water’s intake site . . . Therefore,
[Dystar] need not manufacture PFCs and related
chemicals in Dalton, Georgia to be liable. Instead,
Plaintiff alleges that [Dystar] supplies chemicals to
manufacturing facilities in Dalton.”
Given these factual considerations, the Court will
hold the Motion to Dismiss and Motion for Protective
Order and Stay of Discovery in abeyance and allow the

70a
parties an opportunity to conduct discovery only specifically related to the issue of whether Dystar ever
made, used, supplied or distributed any of the chemicals at issue in this case to any manufacturer in or
near Dalton, Georgia.
Defendant J&J Industries, Inc.
Motion to Dismiss and Motion for
Protective Order and to Stay Discovery
J&J Industries, Inc. (“J&J”) asserts essentially
the same argument regarding personal jurisdiction as
asserted by TRCC and for the same reasoning as set
out above J&J’s Motion to Dismiss and Motion for Protective Order to Stay Discovery are denied.
Defendant Tandus Centiva US, LLC
Motion for Judgment on the Pleadings
Pursuant to Ala. R. Civ. P. 12, or, Alternatively,
Motion for Summary Judgment Pursuant to
Ala. R. Civ. P. 56 and Motion For Protective
Order to Stay Discovery
Tandus Centiva US, LLC (“Tandus”) claims that
it “is not a carpet manufacturer . . . and has never
used or discharged the chemicals complained of by
Plaintiff.” Memorandum of Law in Support of its Motion for Judgment on the Pleadings, pg. 3.
Given these factual considerations, the Court will
hold the Motion for Judgment on the Pleadings Pursuant to Ala. R. Civ. P. 12, or, Alternatively, Motion
for Summary Judgment Pursuant to Ala. R. Civ. P. 56
and Motion for Protective Order to Stay Discovery in
abeyance and allow the parties an opportunity to conduct discovery only specifically related to the issue of
whether Tandus ever made, used, supplied or discharged any of the chemicals at issue in this case.

71a
Defendant Engineered Floors, LLC
Motion to Dismiss and Motion for
Protective Order and to Stay Discovery
Engineered Floors, LLC (“Engineered Floors”) asserts essentially the same argument regarding personal jurisdiction as asserted by TRCC and for the
same reasoning as set out above Engineered Floors’
Motion to Dismiss and Motion for Protective Order to
Stay Discovery are denied.
Defendant Arrowstar LLC
Renewed and Amended Motion to Dismiss
Arrowstar LLC (“Arrowstar”) asserts essentially
the same argument regarding personal jurisdiction as
asserted by TRCC and for the same reasoning as set
out above Arrowstar’s Motion to Dismiss is denied.
Defendant Fortune Contract, Inc.
Motion to Dismiss Pursuant to Ala. R. Civ. P.
12(b)(2) and (6), and Alternatively,
Motion for Summary Judgment Pursuant to
Ala. R. Civ. P. 56
Fortune Contract, Inc. (“Fortune”) claims that it
“does not manufacture carpet or chemicals or use or
discharge chemicals in the manufacture of rugs or carpet or any other product. It has never done so. Fortune has not utilized or supplied any chemicals related to the rug or carpet manufacturing process, including those named in the Complaint.” Brief in Support of its Motion to Dismiss, pg. 2.
Given these factual considerations, the Court will
hold the Motion to Dismiss Pursuant to Ala. R. Civ. P.
12(b)(2) and (6), and Alternatively, Motion for Sum-

72a
mary Judgment Pursuant to Ala. R. Civ. P. 56 in abeyance and allow the parties an opportunity to conduct
discovery only specifically related to the issue of
whether Fortune ever made, used, supplied or discharged any of the chemicals at issue in this case.
Defendant NPC South, Inc.
Motion to Dismiss Pursuant to Ala. R. Civ. P.
12(b)(2) and (6), and Alternatively,
Motion for Summary Judgment Pursuant to
Ala. R. Civ. P. 56
NPC South, Inc. (“NPC”) claims that it “does not
manufacture carpet or chemicals or use or discharge
chemicals in the manufacture of rugs or carpet or any
other product. It has never done so. NPC has not utilized or supplied any chemicals related to the rug or
carpet manufacturing process, including those named
in the Complaint.” Brief in Support of its Motion to
Dismiss, pg. 2.
Given these factual considerations, the Court will
hold the Motion to Dismiss Pursuant to Ala. R. Civ. P.
12(b)(2) and (6), and Alternatively, Motion for Summary Judgment Pursuant to Ala. R. Civ. P. 56 in abeyance and allow the parties an opportunity to conduct
discovery only specifically related to the issue of
whether NPC ever made, used, supplied or discharged
any of the chemicals at issue in this case.

73a
Defendant Indian Summer Carpet Mills, Inc.
Motion to Dismiss Pursuant to Ala. R. Civ. P.
12(b) and (c) and Ala. Code § 6-5-430 or, in the
Alternative, Motion for Summary Judgment
Pursuant to Ala. R. Civ. P. 56 and Motion for
Protective Order
Indian Summer Carpet Mills, Inc. (“Indian Summer”) claims that it “does not manufacture carpet
treated with PFOA or PFOS. It has never done so.
Indian Summer has never purchased any chemicals
containing PFOA or PFOS. While some carpets sold
by Indian Summer are treated with chemicals to make
them stain-resistant, those chemicals are applied by
entities unrelated to Indian Summer and do not contain PFOA or PFOS. Those chemicals were applied at
facilities owned and operated by entities unrelated to
Indian Summer.” Indian Summer’s Motion to Dismiss, pg. 3.
Given these factual considerations, the Court will
hold the Motion to Dismiss Pursuant to Ala. R. Civ. P.
12(b) and (c) and Ala. Code § 6-5-430 or, in the Alternative, Motion for Summary Judgment Pursuant to
Ala. R. Civ. P. 56 and Motion for Protective Order in
abeyance and allow the parties an opportunity to conduct discovery only specifically related to the issue of
whether Indian Summer ever made, used, supplied or
discharged any of the chemicals at issue in this case.
Defendants ECMH, LLC D/B/A Clayton Miller
and Emerald Carpets, Inc.
Defendants ECMH, LLC D/B/A Clayton Miller
(“Clayton Miller”) and Emerald Carpets, Inc. (“Emerald Carpet”) filed a Motion for Summary Judgment.
This Motion will be set for hearing by separate order.
The parties may engage in discovery relative to the

74a
Plaintiff’s claims against Clayton Miller and Emerald
Carpets.
DONE this 15th day of May, 2018.
/s/ JEREMY S TAYLOR
CIRCUIT JUDGE

75a
APPENDIX C
IN THE CIRCUIT COURT OF
ETOWAH COUNTY, ALABAMA
THE WATER WORKS
AND SEWER
BOARD OF THE CITY
OF GADSDEN,
Plaintiff,
v.
3M COMPANY, INC.,
et al.,
Defendants.

)
)

CIVIL ACTION
) NO:
) 31-CV-2016900676.00
)
)
) August 13, 2018
)
)

ORDER ON DEFENDANTS’
DISPOSITIVE MOTIONS AND
MOTIONS FOR PROTECTIVE ORDER
Before the Court are motions to dismiss, motions
for summary judgment, and motions for a protective
order to stay discovery filed by various Defendants.
The Court will address each motion separately.
FACTS
Plaintiff, the Water Works and Sewer Board of the
City of Gadsden (“Plaintiff”), provides residential and
commercial customers in Etowah County with drinking water. Plaintiff utilizes the Coosa River as its raw
water source, specifically drawing its source water
from Lake Neely Henry in the Middle Coosa Basin.
Coosa River tributaries above Plaintiff’s water intake

76a
point includes the Conasauga River which is located
just to the east of Dalton, Georgia. Dalton is home to
over 150 carpet manufacturing plants, and more than
90% of the world’s carpet is produced within a 65-mile
radius of the city.
Defendants are owners and operators of, or the
chemical suppliers to, manufacturing facilities in and
around Dalton, Georgia. Plaintiff alleges that these
manufacturing facilities apply perflourinated chemicals (“PFCs”) including, but not limited to, perfluorooctanoic acid (“PFOA”), perfluorooctane sulfonate
(“POSE”), and related chemicals in the manufacturing
process to impart stain resistance to their carpet.
Plaintiff further states that these chemicals pose certain health risks to individuals who drink water contaminated with PFCs and its related chemicals. Because of these health risks, the United States Environmental Protection Agency (“EPA”) issued a new
drinking water health advisory for PFOA and PFOS,
stating that the combined concentration of these
chemicals in drinking water pose a lifetime health
risk when they reach concentration that levels of
greater than 70 parts per trillion.
Plaintiff alleges the Defendant chemical suppliers
and carpet manufacturers caused PFCs and their related chemicals to enter the Conasauga River that
contaminated Plaintiff’s water source from the Coosa
River. As a result, Plaintiff claims it must expend resources to remove these chemicals from the source water to ensure it can deliver safe drinking water to its
customers.

77a
ANALYSIS
The motions filed by the Defendants can mostly be
placed into three different categories. First, most of
the Defendants seek dismissal or summary judgment
for lack of personal jurisdiction either because they
claim they did not supply or use the chemicals at issue
in the complaint or did not engage in any activities in
the State of Alabama to warrant this court’s jurisdiction. Second, some Defendants attack the sufficiency
of the allegations in Plaintiff’s complaint and move to
dismiss for failure to state a claim upon which relief
can be granted pursuant to ALA. R. CIV. P. 12(b)(6).
Finally, several Defendants also moved for a protective order staying discovery pursuant to ALA. R. CIV.
P. 26(c) until this Court rules on the accompanying
dispositive motion seeking dismissal from the case.
For ease of review, the Court will discuss the governing law for each of these issues, then will address
the Defendants’ motions separately.
I.

Personal Jurisdiction

Alabama courts may exercise personal jurisdiction over an out-of-state defendant as permitted by Alabama’s long-arm provision, Ala. R. Civ. Pro. 4.2(b).
“This rule extends the personal jurisdiction of Alabama courts to the limit of due process under the
United States and Alabama Constitutions.” Ex parte
City Boy’s Tire, 87 So. 3d 521, 528 (Ala. 2011). Alabama Courts do not look to statutes or rules, but instead look to the essence of due process. Id. Stated
another way, instead of simply applying formulas, the
court relies on principles of fairness and justice. Id.
There are two types of jurisdiction a court may exercise over a defendant: general and specific.

78a
a. General Jurisdiction
General jurisdiction exists when a defendant’s
“continuous . . . operations within a state [are] so substantial and of such a nature as to justify suit against
[the defendant] on causes of actions arising from dealings entirely distinct from those activities” Hinrichs v.
General Motors of Canada, Ltd., 222 So. 3d 1114, 1121
(Ala. 2016) cert. denied, 137 S. Ct. 2291(2017) (quoting
Goodyear, 564 U.S. at 924). It requires “continuous
and systematic” contacts with the forum state so as to
render the defendant essentially at home there. Id.
(quoting Goodyear, 564 U.S. at 919 (2011). A corporation’s home may include its state of incorporation, its
principal place of business, or wherever it has “some
other comparable level of intensity of contact.” Hinrichs, 222 So. 3d at 112. Notably, “Goodyear did not
hold that a corporation may be subject to general jurisdiction only in a forum where it is incorporated or
has its principal place of business; it simply typed
those places paradigm all-purpose forums.” Id. (quoting Daimler AG v. Bauman, 134 S. Ct. 746, 760-62
(2014) (emphasis original)). The Hinrichs court interpreted Daimler to hold that the key inquiry is whether
a defendant’s contacts with Alabama are “so ‘continuous and systematic’ that it is essentially ‘at home’
there.” Hinrichs, 222 So. 3d at 1125. Therefore, the
court may still analyze the extent of a defendant’s contacts with the forum state to determine whether it is
“essentially” at home there.
b.

Specific Jurisdiction

Three elements must be satisfied for Alabama
courts to have specific personal jurisdiction:
First, the defendant must have ‘purposefully
avail[ed] itself of the privilege of conducting

79a
activities within the forum State.’ Hanson v.
Denckla, 357 U.S. 235, 253 (1958). The requirement that a defendant purposefully direct activity to the forum state precludes the
exercise of jurisdiction over a defendant whose
affiliation with the forum state is ‘random,’
fortuitous,’ or ‘attenuated,’ or the unilateral
activity of another party or a third person.’
Burger King v. Rudzwicz, 471 U.S. 462, 475
(internal citation marks omitted) . . .
Second, the action must ‘arise out of or relate
to’ the foreign defendant’s ‘activities in the forum State.’ Helicopteros Nacionales de Colombia, S.A., v. Hall., 466 U.S. 408, 414
(1984); Burger King, 471 U.S. at 472 . . .
Finally, a court must examine whether the exercise of jurisdiction over a foreign defendant
comports with fair play and substantial justice, taking into account various factors
deemed relevant, including an evaluation of
the burden on a defendant, the forum state’s
interest in obtaining convenient and effective
relief, the interstate judicial system’s interest
in efficient resolution of the controversies, and
furthering fundamental social policies. Asahi
Metal Industry Co. v. Superior Court, 480 U.S.
102, 113 (1987); Burger King, 471 U.S. at 47677.
Hinrichs, 222 So. 3d at 1121-22.
Where the plaintiff alleges that the defendant
committed an intentional tort, the effects test may be
applied to determine whether the defendant has the
requisite contacts with the forum state. The effects

80a
test requires a Plaintiff to show “that the defendant
(1) committed an intentional tort (2) that was directly
aimed at the forum, (3) causing an injury within the
forum that the defendant should have reasonably anticipated.” Oldfield v. Pueblo De Bahia Lora, S.A., 558
F.3d 1210, 1220 (11th Cir. 2009). Importantly, physical presence in the forum state is not necessary for jurisdiction as a physical entry into the forum state
through “some other means” is a relevant contact.
Walden v. Fiore, 134 S. Ct. 1115, 1122 (2014) (citing
Keeton v. Hustler Magazine, Inc., 465 U.S. 770, 773-74
(1984)).
These cases establish that a defendant must direct some act towards a particular state to warrant
personal jurisdiction and being hauled into court
there. However, this reasoning, and the cases that established the current jurisdictional analysis, are factually distinguishable from the matter before this
Court and other environmental contamination cases
involving a continuous tort that occurs over time and
migrates from one state into another. Indeed, the
United States Supreme Court has recognized that
“even the simplest sort of interstate pollution case [is]
an awkward vehicle to manage.” Ohio v. Wyandotte
Chemicals Corp., 401 U.S. 493, 504 (1971). Thus, any
jurisdictional analysis must consider the more complex nature of interstate environmental pollution
cases such as that before this Court.
In similar water pollution cases, courts have not
dismissed lawsuits for lack of personal jurisdiction
when a resident plaintiff sued a non-resident defendant that discharged pollution into water or released
water that ultimately caused damage to the plaintiff
in the forum state. See, e.g. People of State of Illinois

81a
v. City of Milwaukee, 599 F.2d 151 (7th Cir. 1979) (water pollution originating in Wisconsin causing injury
in Illinois), aff’d, 451 U.S. 304 (1981); International
Paper Co. v. Ouellette, 479 U.S. 481 (1987) (water pollution originating in New York causing injury in Vermont); Ohio v. Wyandotte Chemicals Corp., 401 U.S.
493, 500-501 (1971) (water pollution from Canada
causing damage in the U.S.); Pakootas v. Teck
Cominco Metals, Ltd., No. CV-04-256-AAM, 2004 WL
2578982 (E.D. Wash. Nov. 8, 2004), aff’d 452 F.3d
1066 (9th Cir. 2006) (water pollution from Canada
causing damage in U.S.); and Horne v. Mobile Area
Water & Sewer System, 897 So.2d 972 (Miss. 2004) (release of water in Alabama causing property damage
in Mississippi). Indeed, the Supreme Court specifically rejected one defendant’s argument that “all
state-law suits must be brought in [the] source-state
courts.” Ouellete, 479 U.S. at 499 (emphasis original).
Thus, jurisdiction was deemed proper where the injury occurred.
This Court finds the Horne and Pakootas cases
particularly instructive. In both cases, there was a
question of whether the plaintiffs satisfied the issue
of whether the out-of-state defendants had engaged in
“express aiming” or “purposefully directing” activities
toward the forum state. In both cases, the court held
that the plaintiffs had satisfied their burdens on this
issue.
In Horne, property owners in Mississippi sued
various defendants, including the Water and Sewer
System of Mobile, Alabama, (“The System”) in state
court in Mississippi. The System had, in Alabama, released a significant amount of water in anticipation of
an oncoming hurricane. The water that was released
damaged and/or destroyed real and personal property

82a
downstream in Mississippi. The Supreme Court of
Mississippi held that “[t]here is no question that [the
defendants] knew the water would flow into Mississippi . . .” Horne 897 So.2d at 979. This act and this
knowledge was sufficient for the court to determine
that the System in Alabama had “minimum contacts”
with Mississippi such that the exercise of personal jurisdiction was appropriate.
In Pakootas, the plaintiffs were citizens of the
State of Washington that filed suit under the federal
Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA) against a Canadian
corporation that operated a smelter ten miles north of
the U.S.–Canada border. The plaintiffs alleged that
the defendants discharged harmful substances into
the waters that flowed downstream to the plaintiffs’
location and caused damage. The court found personal jurisdiction existed under these facts.
Thus, a defendant who engaged in conduct that
foreseeably impacted a plaintiff in another state was
sufficient to confer personal jurisdiction in the state
where the plaintiff was injured. This finding comports with the due process requirement that it be fair
to force a defendant to litigate in the selected forum.
International Shoe Co. v. Washington, 326 U.S. 310,
316 (1945). This ultimately turns on foreseeability
and whether a defendant’s conduct could have predictably caused an injury in the forum state. See Allstate
Ins. Co. v. Hague, 449 U.S. 302 (1981). If so, then the
defendant could reasonably anticipate being hauled
into court there.
II. Failure to State a Claim
Under ALA. R. CIV. P. 8(a), a complaint must contain a “short and plain statement of the claim showing

83a
that the pleader is entitled to relief.” This pleading
standard does not require that a plaintiff show that it
will “ultimately prevail, but only whether the plaintiff
may possibly prevail.” Liberty Nat’l Life Ins. Co. v.
University of Alabama Heath Servs. Found., P.C. 881
So.2d 1013, 1017 (Ala. 2003). Dismissal under ALA. R.
CIV. P. 12(b)(6) is only proper if “it appears beyond
doubt that the plaintiff can prove no set of facts in support of the claim that would entitle the plaintiff to relief.” Id.
Pleadings are construed liberally in favor of the
plaintiff. Adkison v. Thompson, 650 So. 2d 859, 862
(Ala. 1994). A well-pleaded complaint may proceed
even if it appears “that a recovery is very remote and
unlikely.” Scheuer v. Rhodes, 416 U.S. 232, 236
(1974). “Generally, the pleadings, in and of themselves, are considered relatively unimportant because
cases are to be decided on the merits.” Johnson v. City
of Mobile, 475 So.2d 517, 519 (Ala. 1985). “The purpose of the Alabama Rules of Civil Procedure is to effect justice upon the merits of the claim and to renounce the technicality of procedure.” Crawford v.
Crawford, 349 So. 2d 65, 66 (Ala. Civ. App. 1977).
Further, the court must accept all allegations of the
plaintiff s complaint as true unless they are controverted by the defendant’s affidavits. Corporate Waste
Alternatives, Inc. v. McLane Cumberland, Inc., 896 So.
2d 410, 413 (Ala. 2004).
Plaintiff asserts the following claims against all
defendants: negligence, nuisance, trespass, wantonness/punitive damages, and injunctive relief. A handful of Defendants argue these claims are not sufficiently plead under ALA. R. CIV. P. 12(b)(6) and, as a
result, seek dismissal.

84a
III. Standard Governing Granting a Protective
Order
Several Defendants seek a halt of discovery until
this Court determines whether it has jurisdiction over
them. There is no law or mandate to stay discovery
while a dispositive motion is pending before a court.
Instead, this Court retains discretion to grant a stay
only if the moving party establishes “good cause” to
protect a party “from annoyance, embarrassment, oppression, or undue burden or expense.” Ala. R. Civ. P.
26(c). Courts have imposed various limitations when
determining whether there is good cause to grant a
protective order staying discovery. The Alabama Supreme Court recognized that limiting discovery
should occur “sparingly and with real discretion rather than as an absolute rule.” Ex parte Windom, 776
So. 2d 799, 803 (Ala. 2000) (quoting 8 Wright & Miller,
Federal Practice and Procedure, § 2040 (1994)). “[T]he
movant must meet this burden with a ‘particular and
specific demonstration of fact as distinguished from
stereotyped and conclusory statements.’” Smith v.
Life Ins. Co. of North America, 33 F.Supp.3d 1324,
1326 (N.D. Ala. July 30, 2014) (quoting United States
1
v. Garrett, 571 F.2d 1323, 1326 n. 3 (5th Cir. 1978)).
Thus, mere conclusory statements about discovery
creating an undue burden or expense are insufficient.

1

Federal courts’ analyses of the analogous Federal Rule of
Civil Procedure 26 are “authority for construction of the Alabama
Rules.” Ex parte Scott, 414 So.2d 939, 941 (Ala. 1982); see also
Baldwin v. Baldwin, 160 So. 3d 34, 40 (Ala. Civ. App. 2014) (citing Ex pane Novartis Pharms. Corp., 975 So. 2d 297, 300 n.2 (Ala.
2007)) (“the opinions of federal courts construing the federal rule
are persuasive authority as to the proper construction of” Rule
26(c)).

85a
Rule 26(c) also requires the moving attorney to
submit a statement along with the motion for protective order confirming that attorney met and conferred
with opposing counsel to attempt to resolve the dispute:
“A motion for a protective order shall be accompanied by a statement of the attorney for
the moving party stating that the attorney,
before filing the motion, has endeavored to
resolve the subject of the discovery motion
through correspondence or discussion with opposing counsel . . .” (emphases added).
The supplied emphases clearly establish this meet
and confer requirement is mandatory prior to counsel
moving this Court for a protective order. Indeed, the
committee comments elaborating on this requirement
confirm its desire that parties resolve a discovery dispute before involving the Court. Failure to submit the
meet and conferral statement is a ground for denying
a motion for protective order. See Smith v. Savage,
655 So.2d 1022, 1025 (Ala. Civ. App. 1995) (stating
that the trial court should reconsider the granting of
a protective order when the moving party failed to file
the conferral statement).
APPLICATION
The Court will now analyze each Defendant’s motion.
I.

Defendant MFG Chemical, Inc.
a. Motion to Dismiss for Lack of Personal
Jurisdiction

MFG Chemical, Inc. (“MFG”) argues this Court
lacks sufficient contacts with Alabama to warrant this
Court exercising specific jurisdiction. In support, it

86a
relies upon the affidavit of Chairman and CEO
Charles E. Gavin, III who states that MFG is incorporated in Georgia, maintains no manufacturing or office locations in Alabama, and does not discharge anything directly into the Conasauga River but, instead,
discharges its wastewater to the wastewater treatment facility owned and operated by Dalton Utilities.
Doc. 218, Ex. A. MFG also points out that, even if its
discharges had contained PFCs, it did not pollute
Plaintiff’s waters because it transferred its discharges
to Dalton Utilities for treatment and Dalton Utilities’
alleged failure to decontaminate is an intervening act
directed at Alabama which breaks the chain of causation.
Plaintiff responds that Mr. Gavin’s affidavit does
not sufficiently controvert its allegations that MFG
manufactured and discharged wastewater containing
PFCs to Dalton Utilities. Plaintiff also highlights that
Mr. Gavin’s affidavit fails to state that MFG “never”
manufactured or discharged PFCs, inferring that
MFG could have manufactured and sold PFCs in previous years which is pertinent because these chemicals persist in the environment for years and can bioaccumulate in humans, causing a variety of illnesses.
Doc. 498, pgs. 9-11. Plaintiff also emphasizes that
MFG’s discharge of pollutants to Dalton Utilities is
not an intervening act breaking the chain of causation
because MFG was aware of the PFC contamination issues involving Dalton Utilities and the Conasauga
River for several years yet continued to contribute to
the pollution with its manufacture and discharge of
PFCs. In support, Plaintiff cited to publicly available
studies which examined the toxicity of PFCs dating
back to 1999 and one report released by the EPA in
2008 revealing high levels of PFCs in the Conasauga
River downstream of Dalton, Georgia. Id. at pgs. 7-9.

87a
Considering the facts in the light most favorable
to the Plaintiff and in construing all reasonable inferences in favor of the Plaintiff where the Complaint
and the MFG’s evidentiary submissions conflict, the
Court finds that the Plaintiff has demonstrated that
the Defendants have conducted activity directed at Alabama and that that activity is not “random,” “fortuitous,” or “attenuated,” or the “unilateral activity of another party or a third person.”
As shown in the Horne and Pakootas cases, the actions of an entity that result in harmful substances
being placed into a water source can result in harm
downstream in a foreign jurisdiction and it is reasonable for the entity causing those substances to be
placed into the water to expect that their downstream
harm could cause them to be brought into court in that
foreign jurisdiction. Thus, an entity causing chemicals to enter the Conasauga River should expect that
since that river is a tributary of the Coosa River, then
the chemicals can enter the Coosa River. That entity
should further expect that those chemicals will flow
downstream and reach Alabama once the Coosa River
crosses the Georgia/Alabama state line. Therefore,
the act of causing the chemicals to enter the Conasauga River is an act directed at Alabama.
MFG argues that Dalton Utilities’ treatment, or
alleged failure thereof, is an intervening cause which
breaks the chain of causation and, consequently, any
claim that MFG purposefully directed activities at Alabama cannot stand. This does not occur, however, if
the intervening cause was foreseeable. Foreseeability
is the cornerstone of proximate cause. Alabama
Power Company v. Taylor, 306 So.2d 236 (Ala. 1975).
A defendant is held legally responsible for all consequences which a prudent and experienced person,

88a
fully acquainted with all the circumstances, at the
time of his negligent act, would have thought reasonably possible to follow that act. Prescott v. Martin, 331
So.2d 240 (Ala. 1976). This includes the negligence of
others. Williams v. Woodman, 424 So.2d 611 (Ala.
1982).
A cause is considered the proximate cause of an
injury if, in the natural and probable sequence of
events, and without intervention of any new or independent cause, the injury flows from the act. City of
Mobile v. Havard, 268 So.2d 805 (Ala. 1972). To be an
intervening cause, a subsequent cause also must have
been unforeseeable and must have been sufficient in
and of itself to have been the sole “cause in fact” of the
injury. Vines v. Plantation Motor Lodge, 336 So.2d
1338, 1339 (Ala.1976). If an intervening cause could
have reasonably been foreseen at the time the tortfeasor acted, it does not break the chain of causation between his act and the injury. Id.
MFG’S supposed lack of control over its
wastewater discharge from Dalton Utilities is not the
pertinent issue, and Dalton Utilities’ own control over
its treatment and discharge of MFG’S PFC-laden
wastewater does not break the causal chain. Any supposed inability of Dalton Utilities to sufficiently treat
and remove PFCs from its wastewater was certainly
foreseeable based on publicly available documents. As
discussed above, the Dalton carpet industry and their
chemical suppliers have been on notice for nearly a
decade that the industrial wastewater discharged
from their operations have introduced PFC contamination into the Coosa River Watershed after passing
through Dalton Utilities. MFG’s argument that it
could not foresee its wastewater discharge would ultimately pollute Plaintiff’s drinking water source, and

89a
that its actions were not aimed at Alabama residents,
is unavailing.
MFG cannot, at this stage in the litigation, avail
itself of the defense that Dalton Utilities is the entity
responsible and that its actions constitute the “unilateral activity of another party or a third person.” As
alleged by Plaintiff, and, again considering the facts
in the light most favorable to the Plaintiff and resolving factual disputes in its favor, the chemicals at issue
“resist degradation during the treatment process utilized by Dalton Utilities and increase in concentration
as waste accumulates in the [Land Application System].” Compl. at ¶ 48. In other words, the chemicals
treated by Dalton Utilities by the Defendants cannot
be treated and removed from the environment by Dalton Utilities. Therefore, Plaintiff alleges the Defendants have not properly disposed of the chemicals by
sending them to Dalton Utilities. Thus, the actions
complained of are not the “unilateral activity of another party or a third person.” Given this finding, the
Court also finds that: (1) there is “a ‘relationship
among the defendant, the forum, and the litigation’”
and (2) the exercise of personal jurisdiction would
“comport with fair play and substantial justice.”
Therefore, the Court finds in favor of the Plaintiff
on the issue of specific personal jurisdiction and denies MFG’s Motion to Dismiss.
b. Motion for Protective Order to Stay
Discovery
Because the Court denies MFG’s Motion to Dismiss, its Motion for Protective Order to Stay Discovery is also denied.

90a
II. The Dixie Group, Inc.
a. Motion to Dismiss for Lack of Personal
Jurisdiction
Defendant The Dixie Group, Inc. (“Dixie Group”)
makes similar arguments regarding personal jurisdiction as asserted by MFG and, for the same reasoning
as set out above, its motion is to be denied.
It is also worth noting one additional argument
made by Dixie Group. Dixie Group also argues that
“foreseeability alone is insufficient as a matter of law
to trigger personal jurisdiction in the forum state.”
Thompson v. Taracorp, Inc., 684 So. 2d 152, 156-57
(Ala. Civ. App. 1996). Dixie Group claims the court in
Taracorp found that, even though the improper disposal of a battery by an Alabama company or use of
those batteries in a manner harming the Alabama
company was foreseeable, it declined to find personal
jurisdiction. In actuality, the court held it was not
foreseeable to Taracorp that its conduct would pollute
the plaintiff’s property and be sued in Alabama. Id.
at 156. The Taracorp court dismissed the Georgiabased defendant because Taracorp’s only contacts
with Alabama involved two transactions with the resident defendant. The court determined that Taracorp
had no knowledge of how the defendant disposed of
the batteries or information concerning environmental problems caused by the batteries’ disposal. Id. at
156.
Unlike Taracorp, Dixie Group and other Defendants here applied PFCs and PFC-related chemicals in
its manufacturing process and discharged contaminated water for an unknown time. Based on publicly
available information discussed below, Dixie Group
was well aware of the environmental harm incurred

91a
by those downstream in Alabama due to this ongoing
conduct. Dixie Group’s statement that the winding
and attenuated path of these chemicals down 150
river miles of waterways is unavailing for reasons discussed above in Section I(a).
Therefore, the Court finds in favor of the Plaintiff
on the issue of specific personal jurisdiction and denies Dixie Groups Motion to Dismiss.
b. Motion for Protective Order to Stay
Discovery
Because the Court denies Dixie Group’s Motion to
Dismiss, its Motion for Protective Order to Stay Discovery is also denied.
III. J&J Industries, Inc.
a. Motion to Dismiss for Lack of Personal
Jurisdiction
Defendant J&J Industries, Inc. makes similar arguments regarding personal jurisdiction as asserted
by Dixie Group and, for the same reasoning as set out
above, its motion is denied.
b. Motion for Protective Order to Stay
Discovery
Because the Court denies J&J’s Motion to Dismiss, its Motion for Protective Order to Stay Discovery is also denied.
IV. Dorsett Industries, Inc.
a. Motion to Dismiss for Lack of Personal
Jurisdiction
Defendant Dorsett Industries, Inc. makes similar
arguments regarding personal jurisdiction as asserted

92a
by Dixie Group and, for the same reasoning as set out
above, its motion is to be denied.
b. Motion for Protective Order to Stay
Discovery
Because the Court denies Dorsett’s Motion to Dismiss, its Motion for Protective Order to Stay Discovery is also denied.
V. Shaw Industries, Inc.
a. Motion to Dismiss for Lack of Personal
Jurisdiction and, Alternatively, Under
the Doctrine of Forum Non-Conveniens.
i.

This Court has Specific and General
Personal Jurisdiction over Shaw
1. General Jurisdiction Exists

Defendant Shaw Industries, Inc. (“Shaw”) is the
only defendant against which Plaintiff contends this
Court has general jurisdiction. Although Shaw is incorporated in Georgia and states its principal place of
business in Dalton, it can still be subject to general
jurisdiction if its contacts with Alabama arise to “some
other comparable level of intensity of contact” and is
essentially “at home” in Alabama. Hinrichs, 222
So.3d at 1122, 1125.
Shaw is the world’s largest carpet manufacturer
with more than $4 billion in revenue and approxi2
mately 25,000 employees worldwide. It has manufacturing and distribution facilities in twenty-nine (29)
states and other manufacturing facilities in Australia,
Belgium, Brazil, Canada, Chile, China, India, Mexico,
Singapore, the United Arab Emirates, and the United

2

https://shawfloors.com/why-shaw/about-us/shaw-history.

93a
3

Kingdom. It operates thirty-one (31) distribution
centers and twenty-seven (27) redistribution centers
4
across the United States. According to the Department of Transportation, Shaw’s transportation sub5
sidiary has over 1,000 drivers while Shaw employs
400 drivers operating out of its 29 distribution centers
6
who make 4,200 deliveries per day. Since 2013, Shaw
has hosted tradeshows throughout the southeast,
7
including Atlanta and Dallas. Tradeshows are also
8
scheduled in these cities for 2018.
Shaw’s contacts with Alabama are extensive.
Shaw has had a manufacturing facility in Andalusia,
Alabama since 1992 and announced in April that it
would spend an additional $184 million on new ma9
chinery. Until July 2017, Shaw also operated a plant
10
in Valley Head, Alabama which opened in 1971. In
3

https://www.linkedin.com/company/shaw-industries/.

4

http://www.shawtransport.com/Driver-Opportunities/Regional-Operations.aspx.
5

https://safer.fmcsa.dot.gov/query.asp?query_type=queryCarrierSnapshot&query param=USDOT&query string=188556.
6

http://www.shawtransport.com/Driver-Opportunities/Regional-Operations.aspx.
7

Plaintiff’s counsel used an internet archive database called
the Wayback Machine which allows a user to interact with certain websites as they appeared in the past. Defendant’s website
only provided upcoming tradeshows in 2018, so this tool was utilized
to
show
past
shows.
https://web.archive.org/web/20111204223851/http://www.shaw
shows.com:80/.
8

http://www.shawshows.com/

9

http://www.andalusiastarnews.com/2017/04/05/shaw-plans184m-project/.
10

http://www.al.com/business/index.ssf/2016/05/shaw_industries_closing_in val.html.

94a
addition to its manufacturing operations, Shaw also
specifically marketed to Alabama customers. It advertises its Alabama dealers on its website and, in
turn, its dealers advertise Shaw products in Ala11
bama. Shaw’s presence in Alabama is further bolstered by the eleven (11) “network” retailers here, an
additional twenty-nine (29) retailers outside the net12
work , and the three full time sales representatives
that market to all types of customers throughout the
13
state. Shaw’s carpet is sold by Lowe’s which, as of
January 29, 2016, has thirty-seven locations through14
out Alabama. Shaw provides marketing materials
for Lowe’s and other retailers.
These contacts are sufficiently substantial, continuous, and systematic to essentially render Shaw at
home in Alabama. Therefore, it is subject to general
jurisdiction in Alabama.
1. Specific Jurisdiction Exists
Although the Court need not rule on the issue of
specific jurisdiction because it holds Shaw is subject
to general personal jurisdiction, it will nonetheless address the issue. Shaw makes similar arguments regarding personal jurisdiction as asserted by MFG and

11
12

https://shawfloors.com/stores/storelist.
https://shawfloors.com/stores.

13

Carmen Preston, Jim Estes, and Justin Bixeman market to
business engaged in the following fields: education, healthcare,
hospitality, schools and government, retirement homes, and retail.
14

https://www.lowes.com/pl/Carpet-Carpet-carpet-tileFloorin/4294825283?refinement=4294942474; https://www.mystore411.com/stor/list state/12/alabama/Lowes-store-locations.

95a
Dixie Group and, for the same reasoning as set out
above, its motion is to be denied.
Shaw relies upon the affidavit of its Vice President, Karen Tallon, in support of its argument it lacks
sufficient contacts with Alabama because it is incorporated in Georgia and maintains its principal place
of business in Dalton. See Doc. 182. Importantly, it
does not refute that Defendant manufactures carpet
using PFCs at its locations in Alabama, markets that
carpet to customers in Alabama, ships to those Alabama, or sells its products at many retailers in Alabama. In other words, Shaw does not deny it engaged
in the activity giving rise to this suit in Alabama but,
instead, merely seeks to downplay its connections
with Alabama by stating its presence in Georgia. As
discussed above, this is unavailing in cases where polluting activities occurred across state lines.
Simply stated, Ms. Tallon’s affidavit does not constitute convincing evidence contradicting Plaintiff’s
assertion that it has been, and continues to be, damaged because of Shaw’s use and discharge of PFCs, including PFOA, PFOS, and their precursors. To the
extent any conflict exists between Plaintiff’s allegations and Shaw’s proffered affidavit, such conflict
must be resolved in Plaintiff’s favor. See Corporate
Waste Alternatives, Inc., 896 So. 2d at 412. Moreover,
discovery is in its infancy in this case and must be conducted before this Court agrees to dismiss Shaw.
ii.

Alabama is the Proper Forum to
Adjudicate this Lawsuit

Shaw also seeks dismissal under Ala. Code. § 6-5430 on forum non conveniens grounds and suggests
that Dalton is the more appropriate venue. The burden is on the party seeking dismissal to prove a more

96a
appropriate forum outside the state exists, based on
the location of acts giving rise to the lawsuit occurred,
the convenience of parties and witnesses, and the interests of justice. Ala. Code. § 6-5-430; Malsch v. Bell
Helicopter Textron, Inc., 916 So. 2d 600 (Ala. 2005).
All these factors must be positively found to justify
dismissal. Donald v. Transport Life Ins. Co., 595 So.
2d 865 (Ala. 1992).
A court is less likely to find it inconvenient for a
corporation to litigate a case in a foreign state. See Ex
parte Integon Corp., 672 So.2d 497 (Ala. 1995) (holding trial court did not abuse its discretion in denying
motion to dismiss based on forum non conveniens despite the corporate defendant’s principal place of business was located in North Carolina, its president was
resident of North Carolina, and many acts giving rise
to claims in North Carolina). This makes sense given
that corporations can easily arrange for its witnesses
and documents to appear in another state. In Ex parte
Integon Corp., the court determined that the plaintiff’s principal place of business in Birmingham meant
that Alabama was the appropriate forum. Id. Unlike
the parties in that case that were states apart, Gadsden is only 90 miles from Dalton. Shaw’s expenses to
litigate this action in Gadsden are minimal for a $4
billion corporation such as itself. Consequently, Alabama is the most appropriate forum, and so the Court
denies Shaw’s request to dismiss the action under forum non conveniens grounds.

97a
VI. Kaleen Rugs, Inc.
a. Motion to Dismiss or, in the Alternative,
Motion for Summary Judgment
Defendant Kaleen Rugs, Inc. (“Kaleen”) bases its
dispositive motion on the statement that it did not engage in the complained of conduct. In support, it submitted two affidavits — one from Senior Vice President Blake Dennard and another from Chief Operating Officer Monty Rathi. See Docs. 106 and 818. Mr.
Dennard’s affidavit states that Kaleen does not manufacture carpet, use any of the chemicals set forth in
the complaint, or discharge any chemicals into any
water supply. Mr. Rathi states that Kaleen has
“never ordered, requested, directed or specified” for
any treatment to be applied to its carpet and has no
knowledge that PFCs were used on the rugs it received or sold.
Although informative, these affidavits fail to conclusively establish that Kaleen did not previously engage in the conduct giving rise to this lawsuit. Mr.
Dennard’s affidavit states that Kaleen does not presently manufacture rugs or carpet, utilize or supply
chemicals related to the carpet manufacturing process
or discharge these chemicals into any water supply.
Doc. 106 at ¶¶ 2, 4, 5. Importantly, the affidavit does
not say that Defendant never engaged in these activities. As stated in Plaintiff’s complaint, PFCs and related chemicals persist in the environment for years
making any past application and discharge of these
chemicals pertinent to this action. Compl. ¶ 50. Tellingly, Mr. Rathi’s affidavit did not shore up this deficiency which Plaintiff mentioned in its Response to
Kaleen’s Motion to Dismiss. See Doc. 774, pg. 6. Consequently, at this stage in the litigation, Plaintiff’s al-

98a
legations against Kaleen are uncontroverted and prevent the Court from dismissing this Plaintiff. Therefore, Kaleen’s Motion to Dismiss or, in the Alternative,
Motion for Summary Judgment is denied.
b. Motion for Protective Order to Stay
Discovery
Because the Court denies Kaleen’s Motion to Dismiss, its Motion for Protective Order to Stay Discovery is also denied.
VII. 3M Company
a. Motion to Dismiss for Failure to State a
Claim
Defendant 3M Company argues that each of
Plaintiff’s causes of action must be dismissed because
Plaintiff failed to sufficiently allege each cause of action it asserts. Alabama, however, is a notice pleading
state which merely requires that a complaint contain
a “short and plain statement of the claim showing that
the pleader is entitled to relief.” ALA. R. CIV. P. 8(a).
Rule 8(a) is complied with as long as the opponent is
given “fair notice of the pleader’s claim and the
grounds upon which it rests.” Carter v. Calhoun
County Board of Education, 345 So.2d 1351 (Ala.
1997). “The discovery process bears the burdens in
the factual details.” McKelvin v. Smith, 85 So. 3d 386,
688-89 (Ala. Civ. App. 2010). For reasons stated below, Plaintiff has met its pleading burden under Rule
8, and 3M’s Motion to Dismiss is denied.
3M also argues it cannot be liable for Plaintiff’s
damages because, as a chemical supplier, it had no
control over how its PFCs and related chemicals were
used or disposed of, nor could it foresee that these
products would impact Plaintiff and other entities
downstream of its customers. Plaintiff’s Complaint,

99a
however, alleges that 3M has known for 14 years that
PFCs and related chemicals survive treatment at conventional wastewater treatment plants as evidenced
by its finding of high concentrations of PFCs and related chemicals in a wastewater treatment plant a few
miles downstream from one of its production facilities.
Compl. at ¶ 53. Plaintiffs Response in Opposition
states that 3M was aware of the contamination of public water supplies near its PFC manufacturing facility
in Minnesota in the early 2000s which resulted in
3M’s funding of a carbon filtration system to remove
PFCs from public water systems as well as using carbon filtration to prevent further release of PFCs from
its Cottage Grove, Minnesota PFC manufacturing
plant through its wastewater discharge system. See
Doc. 524, Exhibit B. Therefore, it was foreseeable to
3M that, based on its own release of PFCs through its
facility’s wastewater system in Oak Grove that contaminated public water systems, that other public water systems using water from areas where 3M’s PFC
compounds were used in large quantities could be contaminated. Not only was it foreseeable to 3M that its
PFCs used in Dalton would find their way into drinking water supplies, 3M knew that it was likely. See id.
Exhibit C.
i.

Plaintiff Sufficiently Pled its
Negligence Claim

3M argues that Plaintiff’s negligence claim fails
because the complaint did not sufficiently allege that
3M owed Plaintiff a duty, that 3M’s conduct was the
proximate cause of Plaintiff’s harm, and that no damages are recoverable. Under Alabama law, the elements of a claim for negligence are: (1) duty; (2)
breach of duty; (3) proximate cause; and (4) damages.
Glass v. Birmingham Southern R.R., 905 So.2d 789,

100a
794 (Ala.2004). “In determining whether a duty exists
in a given situation, however, courts should consider
a number of factors, including public policy, social considerations, and foreseeability. The key factor is
whether the injury was foreseeable by the defendant.”
Patrick v. Union State Bank, 681 So.2d 1364, 1368
(Ala. 1996).
Foreseeability is also the cornerstone of proximate
cause. Alabama Power Company v. Taylor, 306 So.2d
236 (1975). A defendant is held legally responsible for
all consequences which a prudent and experienced
person, fully acquainted with all the circumstances, at
the time of his negligent act, would have thought reasonably possible to follow that act. Prescott v. Martin,
331 So.2d 240 (Ala.1976). This includes the negligence of others. Williams v. Woodman, 424 So.2d 611
(Ala.1982).
A cause is considered the proximate cause of an
injury if, in the natural and probable sequence of
events, and without intervention of any new or independent cause, the injury flows from the act. City of
Mobile v. Havard, 268 So.2d 805 (Ala. 1972). To be an
intervening cause, a subsequent cause also must have
been unforeseeable and must have been sufficient in
and of itself to have been the sole "cause in fact" of the
injury. Vines v. Plantation Motor Lodge, 336 So.2d
1338, 1339 (Ala.1976). If an intervening cause could
have reasonably been foreseen at the time the tortfeasor acted, it does not break the chain of causation between his act and the injury. Id.
The complaint contains numerous allegations satisfying all elements. See Compl. at ¶¶ 3 -5, 52, 53 and
64-66. It is clear from these complaint excerpts that
Plaintiff has pled each element of a negligence claim

101a
against 3M under Alabama law. Moreover, these allegations are sufficient to notify 3M of the claim of
negligence against which it must defend: manufacturing and suppling chemicals to carpet manufacturing customers located in the Dalton, Georgia to impart
stain resistance to carpet that would likely result in
contamination of drinking water supplies. Similarly,
these allegations, if proven, leave little doubt that
Plaintiff would be entitled to relief under its negligence claim. As such, it does not appear beyond a
doubt that Plaintiff cannot prove any set of facts
which would entitle it to relief under ALA. R. CIV. P.
12.
Finally, the Complaint sufficiently alleges recoverable damages. See Compl. at ¶¶ 4, 5, 62, 66, 69, 71,
76, and 78. 3M contends that Gadsden “cannot recover
under its negligence claim because Plaintiff has suffered no actual loss or damage to its property.” Doc.
258 at 9. 3M, however, is incorrect. The water Plaintiff draws from the Coosa River and treats to sell to its
customers unquestionably is “property” as the word is
commonly understood and defined. Merriam-Webster
defines “property” as “something owned or possessed”;
“the exclusive right to possess, enjoy, and dispose of a
thing”; or “something to which a person or business
has a legal title”. Once drawn, Plaintiff owns or possesses the water that it draws and is permitted by governmental entities to treat and distribute the treated
water to its customers for a fee.
ii.

Plaintiff
Sufficiently
Nuisance Claim

Pled

its

3M challenges the adequacy of Plaintiff’s nuisance
claim because the complaint failed to allege either a

102a
private or public nuisance and, in either event, believes that Plaintiff fail to sufficiently allege either
claim.
1. Plaintiff’s
Allegations
Sufficiently Provided Fair Notice.
Plaintiff’s nuisance allegations sufficiently stated
that Plaintiff’s property was damaged by the Defendant’s discharge of PFCs and ultimate contamination
of its water source, thereby causing it “hurt, inconvenience, and harm.” Compl. at ¶¶ 67-69. The levels of
these toxic chemicals in Plaintiff’s water caused by
3M’s conduct created a condition that threatens Plaintiff’s operations, and it was foreseeable that its actions
would cause, and continue to cause, substantial damages. Id. at ¶¶ 70-71. These allegations sufficiently
state a claim for nuisance. See, e.g. City of Birmingham v. City of Fairfield, 375 So.2d 438, 441 (Ala. 1979)
(holding that nuisance allegation is sufficient if it
gives defendant notice of what plaintiff’s claim is and
the grounds upon which it is based). 3M contends that
Plaintiff failed to give fair notice of its nuisance claim
against it, but then argues extensively why Plaintiffs
nuisance count fails to state claims for both public and
private nuisance. Therefore, 3M’s arguments belie its
contention that Plaintiff has failed to give it fair notice
of the grounds for its nuisance claim and fall short of
warranting dismissal of Plaintiff’s nuisance claim.
2. Plaintiff
Suffered
Damages” Compared
General Public.

“Special
to the

3M then argues that Plaintiff has not stated a
claim for public nuisance because it has not suffered
“special damages” different in kind and degree from
the damage to the general public. See Russell Corp. v.

103a
Sullivan, 790 So. 2d 940, 951 (Ala. 2001); Ala. Code
§ 6-5-123. Plaintiff has pled damages that are different, if not unique. Plaintiff is the sole supplier of public drinking water to the citizens of the City of Gadsden. Plaintiff must treat the water that it provides to
comply with water quality standards through that
treatment. The presence of pollutants in Plaintiffs
water source dictates the nature and extent of treatment that is required. Plaintiff has alleged that, due
to the presence of 3M’s PFCs, it has incurred monitoring and testing costs associated with determining contaminant levels and has lost revenues and profits as a
result. Compl. ¶¶ 5, 62. These damages are not suffered by the public at large, are unique to Plaintiff,
and thus establish the requisite special damages required to assert a claim for public nuisance. Similar
allegations were sufficient in an analogous case. See
West Morgan-East Lawrence Water and Sewer Authority v. 3M Company, 208 F.Supp.3d 1227, 1236
(N.D. Ala. Sept. 20, 2016). Clearly, Plaintiff’s damages significantly differ in kind and degree from any
damages to the public generally.
Additionally, Alabama law incorporates a much
broader definition of the public for purposes of a special damages inquiry, i.e., “the public”, the “general
public,” or the “public in general.” See, e.g., Ala. Code
§ 6-5-123 (1975); City of Birmingham, 375 So.2d at
441; Benefield v. Int’l Paper Co., 2009 WL 2601425 at
*3 (M.D. Ala. 2009); Russell, 790 Sold at 951. Accordingly, the Russell court held:
. . . the use and enjoyment of a public area is a
public right. The alleged nuisance in this case
affects anyone who would want to use and enjoy Lake Martin, not just those who live on its
banks.

104a
790 So.2d at 953 (emphasis added).
Applying this analysis in this case, the public is
“anyone who would want to use and enjoy” the Coosa
River, whether it be for recreation, transportation, industrial, or other uses. In contrast, as alleged in the
complaint, Plaintiffs “special damages” are the contamination of its drinking water source, increased
monitoring and testing costs associated with determining contaminant levels, lost revenues and profits,
and other remediation costs to decontaminate its water. Compl. ¶¶ 5, 62. These damages are unique and
different from those who merely “use and enjoy” the
Coosa River.
3. Plaintiff Sufficiently
Private Nuisance.

Pled

a

3M argues that any private nuisance claim must
also fail because Plaintiff does not allege that it owns
the Coosa River tributaries, and the effect of 3M’s contamination of the Coosa River is not limited to one or
a few individuals.
Plaintiff is not required to allege that it “owns” the
Coosa River tributaries. As discussed above, Plaintiff
has the right to remove water from the Coosa River
and the water that is removed becomes the property
of Plaintiff for treatment, distribution and sell to its
customers. This right is unique to Plaintiff alone and
is not open for the public. Based on the information
currently before the court, it appears that the effect of
3M’s nuisance on public water supplies is limited to
the few water systems that draw water from the
Coosa River downstream of Dalton, Georgia. Therefore, 3M’s nuisance is sufficiently limited to support a
private nuisance claim by Plaintiff.

105a
iii. Plaintiff
Sufficiently
Trespass Claim

Pled

its

3M states that Plaintiff’s trespass claim is due to
be dismissed because Plaintiff consented to the invasion of PFCs into its water system; there was no intentional invasion on Plaintiff’s property; and the
complaint fails to allege substantial damage to the res.
Plaintiff alleged its property, including a water
treatment plant, water distribution system, and offices were invaded by 3M’s PFC’s discharged upstream in Dalton. Compl. at ¶¶ 73-74. However,
Plaintiff clearly states that it did not consent to this
foreseeable invasion from 3M’s chemicals which affected its interest in the exclusive possession of its
property. Id. at 74-75. As a result, 3M should have
known that the discharges upstream from Plaintiff
would damage and impair Plaintiff’s use of its property, including the operation of its water treatment
system, until the trespass is abated. Id. at ¶¶ 76-78.
These allegations are sufficient to notify 3M that
Plaintiff seeks damages caused by PFCs in and on its
property, including the finished water provided to the
public and its water processing and distribution system.
Alabama has long recognized that the discharge of
pollutants at one location that then migrate onto the
property of another can constitute actionable trespass. See Borland v. Sanders Lead Co., 369 So.2d 523,
530 (Ala.1979) (recognizing that pollutants discharged onto a plaintiff’s land causing damages constituted a trespass); Rushing v. Hooper-McDonald,
Inc., 300 So.2d 94, 97-98 (Ala. 1974) (upholding trespass claim when defendant dumped asphalt on own
land but eventually slid downhill onto plaintiff’s land
killing fish in his pond). It is not necessary that 3M

106a
intended that its pollutants be placed on and in Plaintiffs property despite 3M’s intimation to the contrary.
3M is intentionally providing PFC-containing products which it knew would likely contaminate area waters which is sufficient to sustain Plaintiff’s claims for
nuisance and trespass claims under Borland and
Rushing. This is distinguishable from the case cited
by 3M, Antoine v. Oxmoor Preservation/One, LLC,
130 So. 3d 1204 (Ala. Civ. App. 2012), because the defendant in Antoine committed no act that contributed
to the alleged trespass asserted by plaintiff.
3M argues that Plaintiff consented to its causing
the deposit of PFCs on and in Plaintiff’s property
which defeats its trespass claim and cites Evans v.
Walter Industries, Inc., 579 F. Supp. 2d 1349, 1370
(ND. Ala. 2008) in support of this contention. 3M’s
argument is untenable considering Plaintiff’s specific
allegation that it “did not consent” to the trespass
(Compl. at ¶¶ 74, 75) and the fact that the plaintiffs
in Evans failed to allege that they had not consented
to defendant’s trespass. Plaintiff never agreed to allow 3M to place anything on or in its property, much
less harmful contaminates. This fact also distinguishes this case from Evans wherein it was undisputed that the plaintiffs agreed to allow the defendant
to place the offending materials on plaintiffs’ property. Plaintiff has never consented to 3M’s trespasses
as it has plainly stated in its complaint.
Finally, 3M contends that Plaintiff’s trespass
claims should be dismissed because Plaintiff failed to
allege that “3M caused substantial damage to its property.” Doc 258 at 18. Plaintiff’s alleged damages include the contamination of its entire public water system with chemicals known to cause a wide range of
serious human disease, including cancers. See Compl.

107a
at ¶¶ 51-58. Plaintiff states the extent of the contamination will require the installation and operation of
an expensive filtration system to remove Defendant’s
chemicals. Id. at ¶ 5. Viewing these allegations in a
light most favorable to the Plaintiff, the claimed damages constitute substantial damage to Plaintiff’s property.
iv. Plaintiff
Sufficiently
Pled
Wantonness/Punitive Damages

its

3M contends that Plaintiff’s claim for punitive
damages must also be dismissed because the complaint did not sufficiently allege that 3M consciously
committed a wrongful act that caused Plaintiff’s injuries. Alabama law defines wantonness as “the conscious doing of some act or the omission of some duty
while knowing of the existing conditions and being
conscious that, from doing or omitting to do an act, injury will likely or probably result” Ex parte Essary,
992 So. 2d 5, 9 (Ala. 2007). “[I]t is not necessary that
the actor know that a person is within the zone made
dangerous by his conduct; it is enough that he knows
that a strong possibility exists that others may rightfully come within that zone.” Id. (quoting Joseph v.
Staggs, 519 So.2d 952, 954 (Ala. 1988)).
Plaintiff’s allegations specifically describe 3M’s
conscious misconduct. Compl. ¶¶ 80-84. As a notice
pleading state, this is sufficient at this stage in the
litigation. Whether 3M’s conduct arises to the standard to warrant punitive damages need not be decided
now but is proper after discovery.
v.

Plaintiff Sufficiently Pled its Claim
for Injunctive Relief

Injunctive relief is a prime remedy for claims of
nuisance and trespass. See Water Works and Sewer

108a
Bd. of the City of Birmingham v. Inland Lake Investments, LLC, 31 So.3d 686, 691-692 (Ala. 2009). The
elements required for a preliminary injunction are
mostly the same as those for a permanent injunction,
except the movant must only show a likelihood of success on the merits compared to actual success on the
merits required for a permanent injunction. Classroomdirect.com, LLC v. Draphix, LLC, 992 So. 3d 692,
702 (Ala. 2008) (quoting TFT, Inc. v. Warning Sys.,
Inc., 751 So.3d 1238, 1242 (Ala. 1999)). A preliminary
injunction is warranted if a plaintiff demonstrates
(1) the moving party would suffer irreparable injury
without the injunction; (2) the moving party has no
adequate remedy at law; (3) it has at least a reasonable chance of success on the ultimate merits of the
case; and (4) the hardship imposed on the non-movant
would not unreasonably outweigh the benefit to the
movant. Holiday Isle, LLC v. Adkins, 12 So. 3d 1173,
1176 (Ala. 2008). 3M challenges whether Plaintiff’s
complaint satisfies only the first three elements.
3M states the complaint does not identify the
“type of irreparable injury [Plaintiff] would suffer in
the absence of injunctive relief’ or state facts showing
that Plaintiff will likely prevail. Doc. 258 at 20. The
complaint, however, states that Plaintiff seeks an injunction requiring all defendants, including 3M, to remove its chemicals from Plaintiff’s water supplies and
property and, if none is granted, these chemicals will
pose a continuing threat to Plaintiff’s property.
Compl. at ¶¶ 86-87. The irreparable injury is the consistent contamination of the Coosa River posed by
3M’s continual sale of PFCs to carpet manufacturers
who apply and discharge contaminated wastewater
that foreseeably impacts downstream users such as
Plaintiff.

109a
Also, for the reasons discussed above, Plaintiff has
sufficiently pled facts supporting its claims for negligence, nuisance, trespass, and wantonness, thus
demonstrating it has a reasonable chance of success
on the merits of the case. As a result, Defendant’s Motion to Dismiss this claim and all Plaintiff’s claims is
denied.
VIII.

Lexmark Carpet Mills, Inc.

a. Motion to Dismiss for Lack of Personal
Jurisdiction and Failure to State a
Claim.
Defendant
Lexmark
Carpet
Mills,
Inc.
(“Lexmark”) premises its Rule 12(b)(6) Motion to Dismiss for Failure to State a Claim on the same arguments made by 3M. For reasons discussed above, its
Motion is denied. The Court will address Lexmark’s
argument it lacks personal jurisdiction.
Lexmark relies upon the affidavit of its Chief Financial Officer, James Butler, to support its argument
this Court lacks personal jurisdiction. See Doc. 247.
Mr. Butler claims that he has personal knowledge
that Lexmark has never used, manufactured, or discharged PFCs at its Dalton, Georgia, manufacturing
facility. See Id.
Plaintiff countered that Lexmark’s “own product
warranty literature establishes that [Lexmark] manufacturers a number of different stain-resistant products . . . At least some of these products impart stainresistance through the use of Scotchgard, a 3M product that contained PFOS as a key ingredient until
June 2003 when it was reformulated.” Doc. 504 at 910. Plaintiff also claims Mr. Butler’s affidavit only addresses “two of many PFCs (PFOA and PFOS), and as

110a
such fails to address whether [Lexmark] used, manufactured, or discharged chemicals that could degrade
or decay into PFC-type chemicals such as PFOA or
PFOS.” Id. at 10. Plaintiff emphasizes that its allegations are not limited to PFOA and PFOS but also
includes “related chemicals.” Compl. ¶ 1.
At this stage in the litigation and viewing the allegations in a light most favorable to Plaintiff, Mr.
Butler’s affidavit does not conclusively establish that
Lexmark did not engage in the alleged conduct that
harmed Plaintiff. Discovery is necessary to determine
this issue. Consequently, its Motion to Dismiss is denied.
a. Motion for Protective Order to Stay
Discovery
Because the Court denies Lexmark’s Motion to
Dismiss, its Motion for Protective Order to Stay Discovery is also denied.
IX. Harcros Chemical, Inc.
a. Motion to Dismiss for Failure to State a
Claim or, in the Alternative, Motion for a
More Definite Statement
Defendant Harcros Chemical, Inc. (“Harcros”) incorporates 3M and Lexmark Carpet Mills Inc.’s Motion to Dismiss for Failure to State a Claim. For the
same reasons discussed above, Harcros’ Motion is denied.
Harcros is the only Defendant to move the court
to order Plaintiff to provide a more definite statement
of the claims against Harcros pursuant to ALA. R. CIV.
P. 12(e). Rule 12(e) provides that a party may move
for a more definite statement if a pleading requiring a

111a
response “is so vague or ambiguous that a party cannot reasonably be required to frame a responsive
pleading.” “The motion shall point out the defects
complained of and the details asserted.” Id.
Plaintiff’s complaint satisfies the low notice pleading standard of Rule 8. It alleges that Harcros is an
“owner and operator of, or the chemical supplier to,
manufacturing facilities in Dalton, Georgia which utilize various PFCs and their precursors in the manufacturing process.” Compl. at ¶ 49. These facilities
are upstream of Plaintiffs water intake site and foreseeably contaminated Plaintiff’s water supply. Id. at
¶ 3. Plaintiff further alleges that Harcros continued to
sell PFCs and related chemicals to these carpet manufacturers despite knowing of the chemicals’ toxicity
and ability to resist treatment by Dalton Utilities.
Contrary to Harcros’ statement, the complaint identifies Defendant’s wrongful conduct, specifies to whom
it sold its chemicals, and states the chemicals it discharged that injured Plaintiff. These allegations are
sufficient at this stage in the litigation under Alabama’s notice pleadings standard, so Harcros’s motion
under Rule 12(e) is also denied.
X.

Indian Summer Carpet Mills, Inc.
a.

Motion to Dismiss for Lack of Personal
Jurisdiction, Failure to State a Claim
and Improper Venue or, in the Alternative, Motion for Summary Judgment.

Defendant Indian Summer Carpet Mills, Inc.
(“ISCM”) seeks dismissal on several grounds. For reasons stated above in 3M’s section, its Motion to Dismiss for Failure to State a Claim is denied.

112a
i.

Motion to Dismiss for Lack of
Personal Jurisdiction and Motion
for Summary Judgment.

ISCM bases its Motion to Dismiss for Lack of Personal Jurisdiction and Motion for Summary Judgment on an affidavit submitted by its President Randall Hatch it argues proves it did not engage in any
conduct causing Plaintiffs damages. Mr. Hatch states
that ISCM “has never used chemicals containing
PFOA or PFOS in its manufacturing process” and,
since 2004, any “topical stain-resistant chemicals . . .
were applied by mills Indian Summer hired to perform the finishing process on its carpets.” Doc. 654 at
¶ 3. The specific chemicals applied are of “C6 chemistry” which allegedly “do not contain or degrade into
PFOS or PFOA.” Id. Mr. Hatch also states the “solution-dyeing” manufacturing process currently used by
ISCM generates no wastewater. Id. at ¶ 4. Consequently, ISCM argues it is not responsible for Plaintiff’s damages.
As Plaintiff points out, however, Mr. Hatch’s affidavit fails to conclusively establish that ISCM did not
engage in the conduct forming the basis of this lawsuit. First, the affidavit describes ISCM’s current
manufacturing process involves “solution dyeing”
which it claims generates no wastewater. Id. Importantly, the affidavit does not state that ISCM has
always used this manufacturing process and, as a result, never discharged any wastewater. As stated in
the complaint, PFCs and related chemicals persist in
the environment for years making any past application and discharge of these chemicals pertinent to this
action. Compl. ¶¶ 1, 50.
Also, ISCM can be liable for the acts committed
other companies (i.e. finishers) it used to apply PFCs

113a
that, although may not degrade into PFOA or PFOS,
still have similar stain-resistant qualities. Mr. Hatch
specifically states that, since 2004, ISCM has hired
finishers to treat its carpets with topical stain-resistant chemicals consisting of “C6 chemistry.” Id. at
¶ 3. Although Mr. Hatch states that C6 chemicals do
not contain or degrade into PFOS or PFOA, Plaintiff
states that C6 chemicals have similar stain-resistant
qualities and fail to degrade in the environment. See
Doc. 776, Ex. B. C6 (also known as perfluorohexane
sulfonate, Phis or perfluorohexanoic acid, Phal) is one
of the PFCs being studied by the National Toxicology
Program, id. at 2, and was measured in surface waters
and sediments below Dalton Utilities’ land application site. See Doc 776, Ex. D and Ex. E. Therefore,
ISCM’s statement that its finishers use C6 instead of
PFOS or PFOA does not necessarily rule out that it
used any of the other 146 PFCs or 469 fluorochemicals
that have been identified as potentially able to degrade into other PFCAs. See Exhibit A. Plaintiff’s
complaint states that its injury was caused by water
contaminated with PFC, including PFOS, PFOA and
related chemicals. Compl. at ¶¶ 1, 46, 47, 50, 51,
64, 69, 76, 80. Mr. Hatch’s affidavit fails to state that
ISCM was not involved, in any way, in the selection or
application of PFC or related chemicals such as C6 in
the finishing process or otherwise exercised control
over the discharge of those chemicals.
ISCM’s use of finishers to apply PFCs such as C6
does not relieve it of liability. A manufacturer’s duty
is not limited to only those parts of a product that the
manufacturer makes itself. It has long been recognized in Alabama that a manufacturer who uses component parts in manufacturing or assembling a product for sale as a complete unit may be liable under ap-

114a
propriate circumstances where the defect is in a component part. See, Casrell v. Altec Industries, Inc., 335
So.2d 128, 134 (Ala. 1976); Atkins v. American Motors
Corp., 335 Sold 134 (Ala.1976). A manufacturer can
also be liable for its negligence in designating the components or providing specifications to be incorporated
into its products by third parties. See e.g., Hicks v.
Vulcan Eng. Ca, 749 So.2d 417 (Ala. 1999). Like these
cases, ISCM cannot escape liability even if another entity, such as a finisher, applied the PFCs.
In sum, Mr. Hatch’s affidavit does not conclusively establish it did not engage in the activities resulting in Plaintiff’s damages, thereby leaving a genuine issue of material fact. Therefore, ISCM’s Motions to Dismiss and for Summary Judgment are denied.
ii.

Motion to Dismiss for Forum Non
Conveniens and Improper Venue.

Finally, ISCM challenges venue and, in the event
this Court finds venue is proper, seeks dismissal for
forum non conveniens under Ala. Code § 6-3-7(a).
Venue is proper under ALA. CODE §§ 6-3-7(a)(3) because Plaintiff’s principal office is in Etowah County
and, although ISMC states it does not do business by
agent in Etowah County, other named Defendants in
this action do which is sufficient for venue to be
proper. See Roland Pugh Min. Co. v. Smith, 388 So.2d
977, 978-89 (Ala. 1980) (holding venue was proper for
one defendant and, as a result, was proper to the other
defendants which did not do business in the challenged venue). The Court in Roland Pugh Min. Co.
specifically noted that “[u]nder ARCP 82(c), ‘(w)henever an action has been commenced in a proper
county, additional claims and parties may be joined,
. . . as ancillary thereto, without regard to whether

115a
that county would be proper venue for an independent action on such claims or against such parties.’” Id. (emphasis added). Therefore, Etowah
County is the proper venue if it is proper regarding
one defendant.
Based on available information, venue is, at the
very least, proper to Shaw Industries, Inc. and the Mohawk Defendants (Mohawk Industries, Inc. and Mohawk Carpet, LLC). Proof of a registered agent in a
county “is not a prerequisite to a finding that the corporation is doing business in that county.” Ex parte
Reliance Ins. Co., 484 So.2d 414, 418 (Ala. 1986). Instead, venue is proper over a foreign corporation qualified to do business in Alabama if that corporation conducts “some of the business functions for which it was
created.” Id. at 417 (quoting Ex parte Jim Skinner
Ford, Inc., 435 So.2d 1235, 1237 (Ala. 1983)). One of
these business functions includes engaging in the sale
of its products. See Ex parte Cavalier Home Builders,
LLC, 920 So.2d 1105, 1109-10 (Ala. 2005). Shaw Industries, Inc.’s website shows four different retailers
15
sell its products within 15 miles of Gadsden while
16
the Mohawk Defendants have one retailer. Therefore, venue is proper to both Shaw Industries, Inc. and
the Mohawk Defendants because they do business in
Etowah County which, in turn, means venue is proper
as to all other Defendants, including ISCM.

15

See https://shawfloors.com/stores. Counsel for Plaintiff used
the zip code for the Etowah County Courthouse (35901) in the
search. Lowe’s Home Improvement, Alley’s Floor & Wall Covering, Foote Brothers Carpet One, and Knights Flooring.
16

https://www.mohawkflooring.com/find-mohawk-retailstore?zip=35901. Alleys Carpet of Gadsden.

116a
The Court finds that, for reasons stated above in
Section V(a)(ii), ISMC’s motion to dismiss for forum
non conveniens is also denied.
b. Motion for Protective Order to Stay
Discovery
Because the Court denies ISCM’s dispositive motions, its Motion for Protective Order to Stay Discovery is also denied.
XI. ECMH, LLC d/b/a Clayton
Emerald Carpets, Inc.

Miller

and

a. Motion for Summary Judgment
Defendant ECMH, LLC d/b/a Clayton Miller and
Emerald Carpets, Inc. (collectively, “ECMH”) move for
summary judgment on the basis that they did not engage in any conduct that contaminated Plaintiffs
drinking water supply. In support ECMH submitted
the affidavits of Tom Boykin (Business Unit Manager
for Emerald Carpets) and Hugh McCain (President of
Clayton Miller) and contend the undisputed facts
show that they do not manufacture carpet, have never
applied PFCs or related chemicals to their carpets,
and have never discharged any chemicals. See Docs.
171 and 172.
Plaintiff contends that ECMH does not dispute
that carpet it manufactured and sold was treated with
PFCs to impart stain resistance — only that they did
not apply these chemicals. Plaintiff asserts this evidence does not establish that PFCs were not applied
by other companies at ECMH’s direction, with their
knowledge or that they did not specify the type of
chemical treatment to be used on its carpets during
the finishing process. Both affidavits state that “any
chemicals that are applied to carpets sold by Clayton
Miller and Emerald Carpets are made and applied by

117a
other companies.” (Doc. 171 at ¶ 6; Doc. 172 at ¶ 5).
In other words, ECMH utilizes other companies
known as finishers that could apply PFC and other related chemicals to impart stain-resistance to their carpets.
As explained above in Section X(a)(i) regarding
ISCM, this does not necessarily absolve ECMH from
liability for Plaintiffs damages because it does not establish the absence of a genuine issue of material fact
as to whether they are responsible for causing or allowing the discharge of PFCs into Coosa River tributaries by the entities they retained to apply these
chemicals to its carpet in the Dalton, Georgia area.
Further discovery on this issue is warranted before
this Court can determine no genuine issue of material
fact exists. Consequently, ECMH’s Motion for Summary Judgment is denied.
XII. Mohawk Industries, Inc. and Mohawk
Carpet, LLC (collectively, “Mohawk”)
a. Motion for Judgment on the Pleadings
Mohawk’s dispositive motion argues this Court
does not have personal jurisdiction and, even if it did,
the complaint should be dismissed for failure to state
a claim. Notably, unlike most of the other Defendants, Mohawk did not submit an affidavit refuting the
allegations in the complaint. Therefore, Plaintiffs allegations must be accepted as true. See Corporate
Waste Alternatives, Inc., 896 So. 2d at 413. Mohawk
utilizes PFC-related chemicals and their precursors in
its manufacturing process to impart stain-resistant
qualities to their carpet. Compl. at ¶ 47. Because of
applying these chemicals, Mohawk discharges industrial wastewater containing these chemicals to the
City of Dalton’s wastewater treatment system before

118a
it is land-applied to a spray field. Id. This spray field
is bordered by a tributary of the Coosa River, which
allows runoff contaminated with PFCs to pollute
Plaintiffs water source upstream of its intake site. Id.
at ¶¶ 48-49.
Plaintiff states that Mohawk’s discovery responses, answered by their affiliate Aladdin Manufac17
turing Corporation (“AMC”) , support its allegations
in the complaint. Specifically, in response to Plaintiff’s First Set of Interrogatories, Mohawk admitted to
using “Raw Materials [that] may contain PFCs that
may degrade into PFOA and/or PFOS and may have
been used in the manufacturing processes for various
carpet and flooring products at certain AMC manufacturing facilities in Whitfield County, Georgia.” Doc.
762, Ex. C., p. 7. Mohawk then listed eleven different
“Raw Materials” (i.e. “material that is used to produce
goods or finished products”) used in their manufacturing process and identified three manufacturing facilities in Dalton, Georgia that may have used these Raw
Materials. Id. at 7-9. Mohawk stated that each of
these facilities pretreated the wastewater generated
at these facilities to remove particulates and adjust
the pH level before discharging to the Dalton Utilities.
Id. at 10-11. Mohawk identified two other manufacturing facilities located outside Whitfield County in
Calhoun, Georgia that discharge either directly into
the environment or to a wastewater treatment plant
that discharges into the Coosa River. Id. at 11-12.
17

Plaintiff notes that Mohawk’s affiliate Aladdin Manufacturing Corporation (“AMC”) responded to discovery on their behalf.
The Court finds that discovery against Mohawk is necessary to
determine their association with AMC and their liability in this
case and will construe AMC’s responses as pertaining to the Mohawk Defendants.

119a
Now, it is unknown whether these facilities use Raw
Materials that may contain PFCs or degrade into such
chemicals and discharge wastewater contaminated
with these chemicals into the Conasauga or Coosa
Rivers. Based on both the uncontroverted allegations
in the complaint as well as Mohawk’s responses to
Plaintiff s discovery, Mohawk engaged in the conduct
Plaintiff alleges caused its damages.
Moreover, it is fair for Mohawk to litigate in Alabama because its business activities were purposefully aimed at Alabama residents. “[P]lacement of a
product into the stream of commerce may bolster an
affiliation germane to specific jurisdiction.’” Daimler
AG v. Bauman, 134 S. Ct. 746, 757 (2014) (quoting
Goodyear 564 U.S. at 926). Mohawk advertises, markets, distributes, and sells their products throughout
the world and Alabama. Although Mohawk considers
the applicable fora for each entity are Delaware and
Georgia, they have significant connections to the
State of Alabama. Mohawk Carpet, LLC is a subsidiary of Mohawk Industries, Inc. Mohawk Industries,
Inc. employs 37,800 and maintains manufacturing operations in 15 nations and sales distribution across
more than 160 countries. See Doc. 762, Ex. G, pg. 6.
As of December 31, 2016, it owns a manufacturing and
distribution facility in Florence, Alabama and a manufacturing facility in Roanoke, Alabama. Id. at Mohawk Form 10-K, p. 13. Mohawk Industries, Inc.’s
website currently shows job listings for 22 different
positions in Alabama, with 10 positions available at a
18
location in Bridgeport, Alabama. The website also
lists retailers selling its carpet and flooring products

18

https://mohawkindustries.jobs/jobs/?location=alabama.

120a
19

in more than 70 cities in Alabama. In addition to the
foreseeable conduct aimed at Alabama residents discussed above, these purposeful contacts with Alabama
bolster Mohawk’s affiliations with the State.
Therefore, for these reasons and those stated
above in Section I, this Court has personal jurisdiction
over Mohawk and its Motion to Dismiss is denied. In
addition, Mohawk’s Judgment on the Pleadings for
failure to state a claim is denied for reasons stated
above in Section VII addressing similar arguments
raised by 3M.
XIII. Oriental Weavers USA, Inc.
a. Motion to Dismiss for Lack of Personal
Jurisdiction, Improper Venue, and
Failure to State a Claim.
Defendant Oriental Weavers USA, Inc. (“Oriental
Weavers”) seeks dismissal for lack of personal jurisdiction, claims Etowah County is an improper venue,
and argues the complaint’s allegations are insufficient
to state a claim. For reasons stated above, Oriental
Weaver’s Motion to Dismiss for improper venue and
failure to state a claim are denied. The court will address Oriental Weaver’s argument regarding lack of
personal jurisdiction.
Oriental Weaver’s submitted three affidavits in
support of its argument the Court lacks personal jurisdiction. See Doc. 162. Its CFO, Darrel V. McCay,
states that Oriental Weavers is incorporated in Georgia and maintains its principal place of business
there, including its two manufacturing facilities and
distribution facilities. Id., Ex. B at ¶¶ 4-5. David

19

https://www.mohawkflooring.com/flooring-carpet-stores/AL.

121a
Flood, who holds the position of Masterbatch Manager, states that Oriental Weavers “does not apply
any stain-resistant, grease-resistant, or water-resistant chemicals to its area rugs at any point during
the manufacturing process” and has not since after
January 1, 2009. Id., Ex. A at ¶¶ 5, 7. Mr. Flood then
attests that Defendant’s chemical supplier, Phoenix
Chemical, Inc. does not supply Defendant with products that contain PFCs. Id. at 6. Phoenix Chemical’s
Vice President, Mr. Todd Mull, also submitted an affidavit stating that the chemicals his company sells to
Defendant do not contain PFCs such as PFOA and
PFOS. Id., Ex. C at ¶¶ 4-6. Oriental Weavers argues
these affidavits conclusively establish that it did not
engage in the activities giving rise to this lawsuit and
venue is improper in Etowah County.
Plaintiff claims these affidavits collectively do not
specifically refute the complaint’s allegations that
Oriental Weavers is liable for Plaintiff’s damages.
First, Mr. Flood states that Oriental Weavers does not
use, and has not used, any stain-resistant, grease-resistant, or water-resistant chemicals after January 1,
2009. Ex. A at ¶ 7. Importantly, the affidavit does not
say that it “never” engaged in these activities prior to
January 1, 2009. Mr. Mull’s affidavit also fails to confirm that Phoenix Chemical did not supply these
chemicals prior to this date, nor can it because his affidavit, which is based on his personal knowledge
alone, does not clarify how long he has been with the
company. As stated in the complaint, PFCs and related chemicals persist in the environment for years
making any past application and discharge of these
chemicals pertinent to this action. Compl. ¶ 50.
Plaintiff also claims that Mr. Flood’s affidavit fails
to definitively state whether it hired other companies

122a
to apply PFCs and related chemicals to Oriental
Weaver’s rugs and discharged contaminated
wastewater generated from that application. Although Mr. Flood mentions that he is familiar with all
stages of the manufacturing process, see Ex. A. at ¶ 4,
the following paragraphs pertain only to Oriental
Weaver’s alleged nonuse of PFCs and related chemicals.
Therefore, the affidavit fails to establish that
PFCs were not applied by other companies at Oriental
Weaver’s direction, with its knowledge, or that it did
not specify the type of chemical treatment to be used
on its carpets during the finishing process. As explained above, this does not absolve Defendant from
liability for Plaintiffs damages. Therefore, Oriental
Weaver’s Motion to Dismiss for Lack of Personal Jurisdiction is denied.
a. Motion for Protective Order to Stay
Discovery
Because the Court denies Oriental Weaver’s dispositive motion, its Motion for Protective Order to
Stay Discovery is also denied.
XIV. Savannah Mills Group, LLC
a. Motion to Dismiss for Lack of Personal
Jurisdiction, Failure to State a Claim,
and Summary Judgment.
Defendant Savannah Mills Group, LLC (“SMG”)
seeks dismissal or, alternatively, summary judgment
because it did not contribute to the pollution of Plaintiff’s drinking water. In support, it submitted multiple affidavits from its Managing Member B.J. Bandy,
III stating that SMG has never manufactured carpets
or rugs, purchases only finished products for distribution, has never utilized or supplied PFCs or related

123a
chemicals in the carpet manufacturing process, has
never discharged any chemicals from the manufacturing process into any water supply, and has never ordered, requested directed, or specified that any particular treatment be applied to rugs it received and sold.
See Docs. 205 and 738. Mr. Bandy’s original affidavit
also attests to SMG’s lack of contacts with Alabama.
The Court finds that SMG has met its burden that
it did not engage in the alleged conduct that contaminated Plaintiff’s drinking water. Therefore, its Motion to Dismiss is granted, without prejudice, with
each party to bear its own costs. The Court also notes
that Plaintiff agreed to dismiss SMG in the companion case The Water Works and Sewer Board of the
Town of Centre v. 3M Company, Inc. et al., Case No.
13-CV-2017-900049.00.
b. Motion for Protective Order to Stay
Discovery
SMG’s Motion for Protective Order is now moot
given the Court granted its Motion to Dismiss and, Alternatively, Motion for Summary Judgment.
XV. Tandus Centiva US, LLC
a. Motion for Judgment on the Pleadings
or, Alternatively, Motion for Summary
Judgment
Defendant Tandus Centiva, US, LLC (“Tandus
Centiva”) seeks dismissal for lack of personal jurisdiction and failure to state a claim. Like SMG, it submitted an original and supplemental affidavit from its
President Leonard F. Ferro stating that Tandus Centiva has never manufactured carpet or flooring products, has never purchased PFCs and related chemicals, has never utilized or supplied these chemicals,
has never discharge wastewater containing these

124a
chemicals, and has never directed any other entity to
use or apply these chemicals to flooring materials it
markets and distributes. See Docs. 283 and 688.
A motion for summary judgment will be granted
if the evidence shows “there is no genuine issue as to
any material fact” and the movant “is entitled to a
judgment as a matter of law.” ALA. R. CIV. P. 56(c)(3).
The Court finds that Tandus Centiva has met its burden that it did not engage in the alleged conduct that
contaminated Plaintiffs drinking water. Therefore,
its Motion to Dismiss is granted, without prejudice,
with each party to bear its own costs.
b. Motion for Protective Order to Stay
Discovery
Tandus Centiva’s Motion for Protective Order is
now moot given the Court granted its Motion for Judgment on the Pleadings or, Alternatively, Motion for
Summary Judgment.
XVI. Daltonian Flooring, Inc.
a. Motion for Summary Judgment
Like SMG and Tandus Centiva, Defendant Daltonian Flooring, Inc. (“Daltonian”) moves for summary judgment on the basis that it has not engaged in
the conduct alleged by Plaintiff in the complaint. This
is based on the affidavits of its Chief Financial Officer
and Controller, which made substantially the same
statements as those made by the affiants for SMG and
Tandus Centiva. See Docs. 239 and 725.
As a result, the Court finds that there is no genuine issue of material fact and Daltonian “is entitled to
a judgment as a matter of law.” ALA. R. CIV. P.
56(c)(3). Therefore, its Motion for Summary Judgment is granted with each party to bear its own costs.

125a
XVII. Dystar, LP
a. Motion to Dismiss for Lack of Personal
and Subject Matter Jurisdiction
Defendant Dystar, LP (“Dystar”) moves to dismiss
arguing that it has never manufactured or produced
stain, grease, or water-resistant chemicals such as
PFCs or related chemicals at its plant in Dalton and
has never sold, shipped, delivered, or supplied these
chemicals to any facilities in Whitfield County, Georgia. See Affidavits of Chief Financial Officer Steve
20
Hennen, Docs. 388 and 662.
The Court finds that Dystar has met its burden
that it did not engage in the alleged conduct that contaminated Plaintiff’s drinking water and its Motion to
Dismiss is granted, without prejudice, with each party
to bear their own costs.
b.

Motion for Protective Order to Stay
Discovery

Dystar’s Motion for Protective Order is now moot
given the Court granted its Motion to Dismiss.
DONE this the 13th day of August 2018.
__/s/ William H. Rhea, III_______
CIRCUIT JUDGE
Processed by: Sue Hall

20

Although Mr. Hennen’s Supplemental Affidavit was filed
with its Reply Brief in the similar case filed in Cherokee County
(The Water Works and Sewer Board of the Town of Centre v. 3M
Company, Inc. et al., Case No. 13-CV-2017900049.00.) the facts
stated therein are applicable to this case.

126a
APPENDIX D
IN THE SUPREME COURT OF ALABAMA

March 27, 2020
1170864 Ex parte Aladdin Manufacturing Corporation et al. PETITION FOR WRIT OF MANDAMUS:
CIVIL (In re: The Water Works and Sewer Board of
the Town of Centre v. 3M Company, et al.) (Cherokee
Circuit Court: CV-17-900049).
CERTIFICATE OF JUDGMENT
WHEREAS, the ruling on the application for rehearing filed in this case and indicated below was entered in this cause on March 27, 2020:
Application Overruled. No Opinion. Stewart, J.
— Parker, C.J., and Wise, and Bryan, JJ., concur.
Bolin, Sellers, and Mendheim, JJ., dissent. Shaw
and Mitchell, JJ., recuse themselves.
WHEREAS, the appeal in the above referenced
cause has been duly submitted and considered by the
Supreme Court of Alabama and the judgment indicated below was entered in this cause on December
20, 2019:
Petition Denied. Stewart, J. — Parker, C.J., and
Wise, J., concur. Bryan, J., concurs in the result.
Bolin, Sellers, and Mendheim, JJ., dissent. Shaw and
Mitchell, JJ., recuse themselves.

127a
NOW, THEREFORE, pursuant to Rule 41, Ala. R.
App. P., IT IS HEREBY ORDERED that this Court’s
judgment in this cause is certified on this date. IT IS
FURTHER ORDERED that, unless otherwise ordered
by this Court or agreed upon by the parties, the costs
of this cause are hereby taxed as provided by Rule 35,
Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme
Court of Alabama, do hereby certify that the
foregoing is a full, true, and correct copy of the
instrument(s) herewith set out as same appear(s) of record in said Court.
Witness my hand this 27th day of March,
2020.
/s/ Julia J. Weller
Clerk, Supreme Court of Alabama

128a
APPENDIX E
IN THE SUPREME COURT OF ALABAMA

March 27, 2020
1171182 Ex parte Mohawk Industries, Inc., et al.
PETITION FOR WRIT OF MANDAMUS: CIVIL (In
re: The Water Works and Sewer Board of the City of
Gadsden v. 3M Company et al.) (Etowah Circuit
Court: CV-16-900676).
CERTIFICATE OF JUDGMENT
WHEREAS, the ruling on the application for rehearing filed in this case and indicated below was entered in this cause on March 27, 2020:
Application Overruled. No Opinion. Stewart, J.
— Parker, C.J., and Wise, and Bryan, JJ., concur.
Bolin, Sellers, and Mendheim, JJ., dissent. Shaw
and Mitchell, JJ., recuse themselves.
WHEREAS, the appeal in the above referenced
cause has been duly submitted and considered by the
Supreme Court of Alabama and the judgment indicated below was entered in this cause on December
20, 2019:
Petition Denied. Stewart, J. — Parker, C.J., and
Wise, J., concur. Bryan, J., concurs in the result.
Bolin, Sellers, and Mendheim, JJ., dissent. Shaw and
Mitchell, JJ., recuse themselves.

129a
NOW, THEREFORE, pursuant to Rule 41, Ala. R.
App. P., IT IS HEREBY ORDERED that this Court’s
judgment in this cause is certified on this date. IT IS
FURTHER ORDERED that, unless otherwise ordered
by this Court or agreed upon by the parties, the costs
of this cause are hereby taxed as provided by Rule 35,
Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme
Court of Alabama, do hereby certify that the
foregoing is a full, true, and correct copy of the
instrument(s) herewith set out as same appear(s) of record in said Court.
Witness my hand this 27th day of March,
2020.
/s/ Julia J. Weller
Clerk, Supreme Court of Alabama

130a
APPENDIX F
IN THE CIRCUIT COURT OF
ETOWAH COUNTY, ALABAMA
)
)
)
)
Plaintiff,
)
v.
)
)
3M COMPANY; APRICOT
)
INTERNATIONAL, INC.;
)
ARROWSTAR, LLC;
)
BEAULIEU GROUP, LLC,
)
BEAULIEU OF AMERICA,
INC.; COLLINS & AIKMAN )
)
FLOOR COVERING
)
INTERNATIONAL, INC.;
)
DALTONIAN FLOORING,
)
INC.; DEPENDABLE RUG
)
MILLS, INC.; DORSETT
)
INDUSTRIES, INC.;
DYSTAR, L.P.; ECMH, LLC )
)
d/b/a CLAYTON MILLER
)
HOSPITALITY CARPETS;
EMERALD CARPETS, INC.; )
)
FORTUNUE CONTRACT,
)
INC.; HARCROS
)
CHEMICAL, INC.; HOME
)
CARPET INDUSTRIES,
)
LLC; INDIAN SUMMER
)
CARPET MILLS, INC.;
THE WATER WORKS AND
SEWER BOARD OF THE
CITY OF GADSDEN,

CIVIL ACTION
NO:

TRIAL BY
JURY
REQUESTED

131a
INDUSTRIAL CHEMICALS,
INC.; J&J INDUSTRIES,
INC.; KALEEN RUGS, INC.;
LEXMARK CARPET MILLS,
INC.; LYLE INDUSTRIES,
INC.; MFG CHEMICAL,
INC.; MOHAWK CARPET,
LLC; MOHAWK GROUP,
INC.; MOHAWK
INDUSTRIES, INC.; NPC
SOUTH, INC.; ORIENTAL
WEAVERS USA, INC.; S & S
MILLS, INC.; SAVANNAH
MILLS GROUP, LLC; SHAW
INDUSTRIES, INC.;
TANDUS CENTIVA, INC.;
TANDUS CENTIVA US, LLC;
THE DIXIE GROUP, INC.;
TIARCO CHEMICAL
COMPANY, INC.; VICTOR
CARPET MILLS, INC.; and
FICTITIOUS DEFENDANTS
A-J, those persons, corporations, partnerships or entities who acted either as
principal or agent, for or in
concert with the other
named Defendants and/or
whose acts caused or contributed to the damages sustained by the Plaintiff,
whose identities are unknown to the Plaintiff, but
which will be substituted by

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

132a
amendment when ascertained,
Defendants.

)
)
)
)

COMPLAINT
Plaintiff Water Works and Sewer Board of the
City of Gadsden (“Gadsden Water”) brings this Complaint against Defendants 3M Company, Apricot International, Inc., ArrowStar, LLC, Beaulieu Group
LLC, Beaulieu of America, Inc., Collins & Aikman
Floor covering International, Inc., Daltonian Flooring,
Inc., Dependable Rug Mills, Inc., Dorsett Industries,
Inc., Dystar, L.P., ECMH, LLC d/b/a Clayton Miller
Hospitality Carpets, Emerald Carpets, Inc., Fortune
Contract, Inc., Harcros Chemical, Inc., Home Carpet
Industries LLC, Indian Summer Carpet Mills, Inc.,
Industrial Chemicals, Inc., J&J Industries, Inc., Kaleen Rugs Inc., Lexmark Carpet Mills Inc., Lyle Industries, Inc., MFG Chemical, Inc., Mohawk Carpet LLC,
Mohawk Group, Inc., Mohawk Industries, Inc., NPC
South, Inc., Oriental Weavers USA, Inc., S & S Mills,
Inc., Savannah Mills Group, LLC, Shaw Industries,
Inc., Tandus Centiva Inc., Tandus Centiva US LLC,
The Dixie Group, Inc., Tiarco Chemical Company,
Inc., and Victor Carpet Mills, Inc. (“Defendants”), and
allege as follows:
STATEMENT OF THE CASE
1. Plaintiff, Gadsden Water, has and continues
to be damaged due to the negligent, willful and wanton conduct of the Named and Fictitious Defendants,
as well as nuisance and trespass caused by the Defendants’ past and present release of toxic chemicals,
including perfluorinated compounds (“PFC”) perfluorooctanoic acid (“PFOA”), perfluorooctane sulfonate

133a
(“PFOS”), and related chemicals from their manufacturing facilities in and around the City of Dalton,
Georgia.
2. Gadsden Water provides drinking water directly to its own residential and commercial customers in Etowah County, and also sells finished water to
the Attalla Water Works Board, Highland Water Authority, Northeast Etowah Water Co-op, Utilities
Board of Rainbow City, Reece City water system,
Southside Water Department, Tillison Bend Water
Authority, West Etowah County Water Authority, and
Whorton Bend Water Authority, who provide water to
their own customers in surrounding areas. Gadsden
Water utilizes the Coosa River as its raw water
source, specifically drawing its source water from
Lake Neely Henry in the Middle Coosa Basin.
3. Named and Fictitious Defendants operate, or
supply chemical products to, manufacturing facilities
located upstream of Gadsden Water’s intake site, in or
near the City of Dalton, Georgia. Names and Fictitious Defendants use PFCs, such as PFOA and PFOS,
at their facilities to impart water, stain, and grease
resistance to their carpet and other textile products.
Industrial wastewater discharged from Named and
Fictitious Defendants’ manufacturing plants contains
high levels of PFOA and PFOS. These chemicals resist degradation during processing at Dalton Utilities’
wastewater treatment center and contaminate the
Conasauga River. The Conasauga River is one of the
Coosa River’s five major tributaries.
4. Named and Fictitious Defendants’ toxic chemicals have contaminated the water in the Coosa River
at Gadsden Water’s intake site, and the chemicals
cannot be removed by the water treatment processes

134a
utilized by Gadsden Water’s C.B.
Treatment Plant.

Collier Water

5. As a direct and proximate result of Named
and Fictitious Defendants’ contamination of the
Plaintiffs raw water source, Plaintiff Gadsden Water
has suffered substantial economic and consequential
damage, including, but not limited to, expenses associated with the future installation and operation of a
filtration system capable of removing the Named and
Fictitious Defendants’ chemicals from the water; expenses incurred to monitor PFC contamination levels;
and lost profit and sales.
6. Wherefore, Plaintiff Gadsden Water seeks
compensatory and punitive damages to the fullest extent allowed by award from a jury. Plaintiff also seeks
equitable and injunctive relief compelling the Named
and Fictitious Defendants to remediate their contamination and prevent additional releases of PFCs, including PFOS and PFOA, into the water supply.
JURISDICTION
7. Jurisdiction is proper in this Court pursuant
to ALA. CODE § 12-11-30(1)(1975), as Plaintiff’s
claims exceed $10,000.
8. Plaintiff asserts no federal cause of action in
this Complaint.
PARTIES
9. Plaintiff Gadsden Water is a domestic municipal corporation formed pursuant to Ala. Code § 1150-230, with its principal place of business in Etowah
County, Alabama.

135a
10. Defendant 3M Company (“3M”) is a foreign
corporation qualified to do business in the State of Alabama, and is causing injuring in Etowah County, Alabama.
11. Defendant Apricot International, Inc., is a foreign corporation causing injury in Etowah County, Alabama.
12. Defendant Arrowstar, LLC, is a foreign corporation causing injury in Etowah County, Alabama.
13. Defendant Beaulieu Group LLC is a foreign
corporation causing injury in Etowah County, Alabama.
14. Defendant Beaulieu of America, Inc., is a foreign corporation causing injury in Etowah County, Alabama.
15. Defendant Collins & Aikman Floor Covering
International, Inc., is a foreign corporation causing injury in Etowah County, Alabama.
16. Defendant Daltonian Flooring, Inc., is a foreign corporation causing injury in Etowah County, Alabama.
17. Defendant Dependable Rug Mills, Inc., is a
foreign corporation qualified to do business in the
State of Alabama, and is causing injury in Etowah
County, Alabama.
18. Defendant Dorsett Industries, Inc., is a foreign corporation causing injury in Etowah County, Alabama.
19. Defendant Dystar, L.P., is a foreign corporation causing injury in Etowah County, Alabama.

136a
20. Defendant ECMH, LLC d/b/a Clayton Miller
Hospitality Carpets is a foreign corporation causing
injury in Etowah County, Alabama.
21. Defendant Emerald Carpets, Inc., is a foreign
corporation causing injury in Etowah County, Alabama.
22. Defendant Fortune Contract, Inc., is a foreign
corporation causing injury in Etowah County, Alabama.
23. Defendant Harcros Chemical, Inc., is a foreign
corporation causing injury in Etowah County, Alabama.
24. Defendant Home Carpet Industries LLC is a
foreign corporation causing injury in Etowah County,
Alabama.
25. Defendant Indian Summer Carpet Mills, Inc.,
is a foreign corporation qualified to do business in the
State of Alabama, and is causing injury in Etowah
County, Alabama.
26. Defendant Industrial Chemicals, Inc., is a domestic corporation with its principal place of business
in Birmingham, Alabama, and is causing injury in
Etowah County, Alabama.
27. Defendant J&J Industries, Inc., is a foreign
corporation causing injury in Etowah County, Alabama.
28. Defendant Kaleen Rugs, Inc., is a foreign corporation causing injury in Etowah County, Alabama.
29. Defendant Lexmark Carpet Mills, Inc., is a
foreign corporation causing injury in Etowah County,
Alabama.

137a
30. Defendant Lyle Industries, Inc., is a foreign
corporation causing injury in Etowah County, Alabama.
31. Defendant MFG Chemical, Inc., is a foreign
corporation causing injury in Etowah County, Alabama.
32. Defendant Mohawk Carpet, LLC, is a foreign
corporation causing injury in Etowah County, Alabama.
33. Defendant Mohawk Group, Inc., is a foreign
corporation causing injury in Etowah County, Alabama.
34. Defendant Mohawk Industries, Inc., is a foreign corporation causing injury in Etowah County, Alabama.
35. Defendant NPC South, Inc., is a foreign corporation causing injury in Etowah County, Alabama.
36. Defendant Oriental Weavers USA, Inc., is a
foreign corporation causing injury in Etowah County,
Alabama.
37. Defendant S&S Mills, Inc., is a foreign corporation causing injury in Etowah County, Alabama.
38. Defendant Savannah Mills Group, LLC, is a
foreign corporation causing injury in Etowah County,
Alabama.
39. Defendant Shaw Industries, Inc., is a foreign
corporation qualified to do business in the State of Alabama, and is causing injury in Etowah County, Alabama.

138a
40. Defendant Tandus Centiva, Inc., is a foreign
corporation qualified to do business in the State of Alabama, and is causing injury in Etowah County, Alabama.
41. Defendant Tandus Centiva US, LLC, is a foreign corporation qualified to do business in the State
of Alabama, and is causing injury in Etowah County,
Alabama.
42. Defendant The Dixie Group, Inc., is a foreign
corporation qualified to do business in the State of Alabama, and is causing injury in Etowah County, Alabama.
43. Defendant Tiarco Chemical Company, Inc., is
a foreign corporation qualified to do business in the
State of Alabama, and is causing injury in Etowah
County, Alabama.
44. Defendant Victor Carpet Mills, Inc., is a foreign corporation causing injury in Etowah County, Alabama.
45. Fictitious Defendants A, B, C, D, E, F, G, H, I,
& J are those persons, corporations, partnerships, or
entities who discharged PFOA, PFOS, or other related
chemicals into the water supply upstream of Plaintiff
Gadsden Water’s intake site, who acted either as principal or agent, for or in concert with the named Defendants, and/or who acts caused or contributed to the
damages sustained by the Plaintiff, whose identities
are unknown to Plaintiff, but which will be substituted by amendment when ascertained.
FACTUAL ALLEGATIONS
46. The City of Dalton, Georgia, contains over 150
carpet manufacturing plants, and more than 90% of
the world’s carpet is produced within a 65-mile radius

139a
of the city. These manufacturing plants have used
PFOA, PFOS, and other related chemicals in the
stain-resistant carpeting manufacturing process.
47. Defendants are owners and operators of, or
the chemical suppliers to, manufacturing facilities in
and around Dalton, Georgia, which utilize various
PFCs and their precursors in the manufacturing process. Defendants discharge PFOA, PFOS, and related
chemicals in their industrial wastewater, which is
then treated by Dalton Utilities wastewater treatment plants before being pumped to a 9,800-acre Land
Application System (“LAS”) where it is sprayed onto
the property.
48. PFOA and PFOS, along with many other
PFCs, resist degradation during the treatment process utilized by Dalton Utilities and can increase in
concentration as waste accumulates in the LAS. The
LAS is bordered by the Conasauga River, and runoff
contaminated with PFCs pollutes the river as it flows
past the LAS.
49. The United States Environmental Protection
Agency (“EPA”) has identified industrial wastewater
from defendants’ manufacturing facilities as the
source of PFOA and PFOS being applied to the LAS
and entering the Conasauga River.
50. The human health risks caused by exposure to
low levels of PFOA, PFOS, and related chemicals include testicular cancer, kidney cancer, ulcerative colitis, thyroid disease, high cholesterol, and pregnancyinduced hypertension. The stable carbon-fluorine
bonds that make PFOA and PFOS so pervasive in industrial and consumer products also results in their
environmental persistence, as there is no known envi-

140a
ronmental degradation mechanism for these chemicals. They are readily absorbed into biota and have a
tendency to accumulate with repeated exposure.
51. The association of exposure to these chemicals
and certain cancers has been reported by the C8
Health Project, an independent Science Panel charged
with reviewing the evidence linking PFOA, PFOS,
and related chemicals to the risk of disease. The C8
Panel determined that kidney and testicular cancers
have a “probable link” to PFOA exposure. Epidemiological studies of workers exposed to PFOA support
the association between PFOA exposure and kidney
and testicular cancers. These studies also suggest associations between PFOA exposure and prostate and
ovarian cancers and non-Hodgkin lymphoma. Rodent
studies also support the link with cancer. The majority of a United States Environmental Protection
Agency (“EPA”) Science Advisory Board expert committee recommended in 2006 that PFOA be considered “likely to be carcinogenic to humans.”
52. Defendant 3M Company has long been aware
of the persistence and toxicity of PFOA, PFOS, and
related chemicals, yet it knowingly and intentionally
continued to sell these chemicals to the carpet and textile manufacturing industry. Blood tests of 3M workers conducted in 1978 found elevated organic fluorine
levels proportionate to the length of time the employees had spent in production areas. Furthermore, a
1979 3M study of the effects of fluorochemical compounds on Rhesus monkeys was terminated after only
20 days after every monkey, at every dosage level,
died from exposure to the chemicals.
53. Defendant 3M Company has also known for at
least 14 years that PFOA, PFOS, and related chemicals are not effectively treated by conventional

141a
wastewater treatment plant processes after finding
high concentrations of these chemicals in samples
taken from the effluent of a wastewater treatment
plant located only a few miles downstream from one
of its production facilities.
54. The EPA took regulatory action on March 11,
2002, and December 9, 2002, by publishing two significant new use rules under the Toxic Substances Control Act to limit the future manufacture and use of
PFOA, PFOS, and related chemicals.
55. The State of New Jersey adopted a drinking
water health advisory in 2006 for PFOA that is 0.04
ppb.
56. The EPA in 2009 published provisional drinking water health advisories for PFOA and PFOS, the
limits being 0.4 ppb for PFOA and 0.2 ppb for PFOS.
57. More recent studies have shown that the 2009
EPA advisory limits were far too high. In 2014, the
EPA released a draft of its proposed “reference dose”
for PFOA, which is an estimate of how much a person
could safely consume daily over their lifetime. That
proposed reference dose translated to a limit of 0.1 ppb
for PFOA, which was one-quarter the 2009 advisory
level.
58. In May 2016, the EPA issued a new drinking
water health advisory for PFOA and PFOS, warning
that exposure to elevated levels of these compounds
can lead to a number of health problems, such as cancer in adults and developmental effects in fetuses and
breastfed infants. This advisory stated that, in order
to provide a margin of protection from lifetime exposure to PFOA and PFOS in drinking water, the combined concentration of these chemicals should be no
greater than 0.07 ppb. The EPA health advisory was

142a
based on peer-reviewed studies of the effects of PFOA
and PFOS on laboratory animals, as well as epidemiological studies of human populations exposed to
these chemicals.
59. Gadsden Water began regular testing for
PFOA and PFOS in its water supply following the issuance of the May 2016 EPA health advisory, and has
consistently found PFOA and PFOS levels that combine to meet or exceed the 0.07 ppb limit.
60. Gadsden Water’s current water filtration system, found at the C.B. Collier Water Treatment
Plant, is not capable of removing or reducing levels of
PFOA or PFOS.
61. Due to the high levels of PFOA and PFOS
found in its water supply, many of Gadsden Water’s
residential consumers have turned to alternate
sources of drinking water, resulting in Plaintiff’s lost
profits and sales. If the levels of PFOA and PFOS
found in Plaintiff’s water supply continue to meet or
exceed the 0.07 ppb EPA advisory limit, Plaintiff’s water system purchase customers will be forced to find
an alternate water supply, resulting in further lost
profits and sales.
62. As a direct and proximate result of Defendants’ contamination of Plaintiff’s water supply, Plaintiff Gadsden Water has been damaged, including, but
not limited to past and future monitoring and testing
expenses, lost revenues and profits, and expenses in
remediating and maintaining its water system.
COUNT ONE
Negligence
63. Plaintiff incorporates all prior paragraphs by
reference as if fully set forth herein.

143a
64. Named and Fictitious Defendants owe a duty
to Plaintiff to exercise due and reasonable care in
their manufacturing and chemical supply operations
to prevent the discharge of toxic chemicals, including
PFOA, PFOS, and related chemicals, into the water
supply.
65. Named and Fictitious Defendants breached
the duty owed to Plaintiff, and under the circumstances, Defendants’ breaches constitute negligent,
willful, and/or reckless conduct.
66. As a direct, proximate, and foreseeable result
of the Named and Fictitious Defendants’ conduct,
practices, actions, and inactions, Plaintiff Gadsden
Water has incurred expenses and will incur reasonably ascertainable expenditures in the future.
WHEREFORE
PREMISES
CONSIDERED,
Plaintiff demands judgment for compensatory damages against all defendants, both named and fictitious, jointly and severally, in an amount to be determined by a struck jury in an amount in excess of the
jurisdictional minimum of this court, past and future,
plus interest and costs.
COUNT TWO
Nuisance
67. Plaintiff re-alleges all prior paragraphs as if
set forth fully herein.
68. Plaintiff Gadsden Water owns and occupies
property used to serve its water customers and other
water utilities, including a water treatment plant, water distribution system, and offices.
69. Named and Fictitious Defendants have created a nuisance by their discharge of PFOA, PFOS,

144a
and related chemicals into the Coosa River’s tributaries, which has caused contamination of the Plaintiff’s
water supply, thereby causing Plaintiff Gadsden Water hurt, inconvenience, and harm.
70. The levels of toxic chemical contamination
found in the Plaintiff’s water supply, directly caused
by the Named and Fictitious Defendants’ pollution,
have created a condition that threatens the health
and well-being of Gadsden Water’s employees and
customers.
71. It was reasonably foreseeable, and in fact
known to the Named and Fictitious Defendants, that
their actions would place, and have placed, the Plaintiff at risk of harm. The nuisance has caused substantial damages, and will continue to cause damages until it is satisfactorily abated.
WHEREFORE
PREMISES
CONSIDERED,
Plaintiff demands judgment for compensatory damages against all Defendants, both named and fictitious, jointly and severally, in an amount to be determined by a struck jury in an amount in excess of the
jurisdictional minimum of this court, past and future,
plus interest and costs.
COUNT THREE
Trespass
72. Plaintiff re-alleges all prior paragraphs as if
set forth fully herein.
73. Plaintiff Gadsden Water owns and occupies
property used to serve its water customers and other
water utilities, including a water treatment plant, water distribution system, and offices.

145a
74. Named and Fictitious Defendants’ intentional
acts in discharging PFOA, PFOS, and related chemicals, knowing that they would contaminate the water
supply and flow downstream, caused an invasion of
Plaintiff’s property by Defendants’ chemicals, which
has affected and is affecting Plaintiff’s interest in the
exclusive possession of its property.
75. Plaintiff did not consent to the invasion of its
property by Named and Fictitious Defendants’ chemicals.
76. Named and Fictitious Defendants knew or
should have known that their discharges of PFOA,
PFOS, and related chemicals could contaminate the
water supply and result in an invasion of Plaintiff’s
possessory interest in their property.
77. Named and Fictitious Defendants’ trespass is
continuing.
78. Named and Fictitious Defendants’ continuing
trespass has impaired Plaintiff’s use of its property
and has caused it damages by diminishing its value.
WHEREFORE
PREMISES
CONSIDERED,
Plaintiff demands judgment for compensatory damages against all Defendants, both named and fictitious, jointly and severally, in an amount to be determined by a struck jury in an amount in excess of the
jurisdictional minimum of this court, past and future,
plus interest and costs.
COUNT FOUR
Wantonness and Punitive Damages
79. Plaintiff re-alleges all prior paragraphs as if
restated herein.
80. Named and Fictitious Defendants owe a duty
to Plaintiff to exercise due and reasonable care in

146a
their manufacturing and chemical supply operations
to prevent the discharge of toxic chemicals, including
PFOA, PFOS, and related chemicals, into the water
supply.
81. In breaching the duties described above,
Named and Fictitious Defendants acted in a wanton,
willful, and reckless manner.
82. Named and Fictitious Defendants knew or
should have known the danger to Plaintiff created by
Defendants’ conduct, practices, actions, and inactions.
83. Named and Fictitious Defendants knew or
should have known of the likely impact, harm, damage, and injury their conduct would have on the Plaintiff.
84. Named and Fictitious Defendants’ conduct,
practices, and inactions evidence Defendants’ reckless
disregard for Plaintiff’s property.
WHEREFORE
PREMISES
CONSIDERED,
Plaintiff demands judgment for punitive damages
against all Defendants, both named and fictitious,
jointly and severally, in an amount to be determined
by a struck jury in an amount in excess of the jurisdictional minimum of this court, past and future, plus interest and costs.
COUNT FIVE
Injunctive Relief
85. Plaintiff re-alleges all prior paragraphs as if
set forth fully herein.
86. Plaintiff requests that this Court enter an Order enjoining Named and Fictitious Defendants from
continuing the conduct described above and requiring
Named and Fictitious Defendants to take all steps

147a
necessary to remove their chemicals from Plaintiff’s
water supplies and property.
87. There is continuing irreparable injury to
Plaintiff if an injunction does not issue, as Named and
Fictitious Defendants’ chemicals in its water supplies
pose a continuing threat to Plaintiff’s property interests, and there is no adequate remedy at law.
WHEREFORE
PREMISES
CONSIDERED,
Plaintiff demands injunctive relief against all Defendants, both named and fictitious, jointly and severally,
requiring Defendants to remove their chemicals from
Plaintiff’s water system and to prevent these chemicals from continuing to contaminate Plaintiff’s water
supply.
RELIEF DEMANDED
Wherefore, Plaintiff Gadsden Water respectfully
requests this Court grant the following relief:
a) Award Plaintiff damages in an amount to be
determined by a jury sufficient to compensate
it for real property damage, out of pocket expenses, lost profits and sales, and future expenses;
b) Issue an injunction requiring Named and Fictitious Defendants to remove their chemicals
from Plaintiffs water supply and to prevent
these chemicals from continuing to contaminate Plaintiffs water supply;
c) Award attorney fees and costs and expenses incurred in connection with the litigation of this
matter;
d) Award such other and further relief as this
Court may deem just, proper, and equitable.

148a
JURY DEMAND
PLAINTIFF HEREBY DEMANDS A TRIAL BY
JURY ON ALL ISSUES OF THIS CAUSE.
Dated: September 22, 2016.
Respectfully submitted,
s/ Rhon E. Jones
JERE L. BEASLEY (BEA020)
Jere.Beasley@beasleyallen.com
RHON E. JONES (JON093)
Rhon.Jones@beasleallen.com
RICHARD D. STRATTON
(STR021)
Rick.Stratton@beasleallen.com
GRANT M. COFER (C0F008)
Grant.Coferbeasleallen.com
Beasley, Allen, Crow, Methvin,
Portis & Miles, P.C.
P.O. Box 4160
Montgomery, Alabama 36103
T: 334-269-2343
F: 334-954-7555
ROGER H. BEDFORD
senbedford@aol.com
Roger Bedford & Associates, P.C.
P.O. Box 370
Russellville, Alabama 35653
T: 256-332-6966
F: 256-332-2800
Attorneys for Plaintiff

149a
APPENDIX G
IN THE CIRCUIT COURT OF
CHEROKEE COUNTY, ALABAMA
THE WATER WORKS AND
SEWER BOARD OF THE
TOWN OF CENTRE,
Plaintiff,

)

v.

) CIVIL ACTION
) NO: ____________

3M COMPANY; ALADDIN
MANUFACTURING
CORPORATION APRICOT
INTERNATIONAL, INC.;
ARROWSTAR, LLC;
BEAULIEU GROUP, LLC,
BEAULIEU OF AMERICA,
INC.; DALTONIAN
FLOORING, INC.;
DEPENDABLE RUG
MILLS, INC.; DORSETT
INDUSTRIES, INC.;
DYSTAR, L.P.; ECMR, LLC
d/b/a CLAYTON MILLER
HOSPITALITY CARPETS;
E.I. DU PONT DE
NEMOURS AND
COMPANY; EMERALD
CARPETS, INC.;
ENGINEERED FLOORS,
LLC; FORTUNUE
CONTRACT, INC.;

)
)

) TRIAL BY JURY
) REQUESTED
)
)
)
)
)
)
)
)
)
)
)
)
)

150a
HARCROS CHEMICAL,
INC.; KRAUS USA, INC.
(f/k/a BARRETT CARPET
MILLS, INC.); INDIAN
SUMMER CARPET MILLS,
INC.; INDUSTRIAL
CHEMICALS, INC.; J&J
INDUSTRIES, INC.;
LEXMARK CARPET
MILLS, INC.; LYLE
INDUSTRIES, INC.; MFG
CHEMICAL, INC.;
MILLIKEN & COMPANY;
MOHAWK CARPET, LLC;
MOHAWK GROUP, INC.;
MOHAWK INDUSTRIES,
INC.; NPC SOUTH, INC.;
ORIENTAL WEAVERS USA,
INC.; S & S MILLS, INC.;
SAVANNAH MILLS
GROUP, LLC; SHAW
INDUSTRIES, INC.;
TANDUS CENTIVA, INC.;
TANDUS CENTIVA US,
LLC; THE DIXIE GROUP,
INC.; TEXTILE RUBBER
AND CHEMICAL
COMPANY, INC.; VICTOR
CARPET MILLS, INC.; and
FICTITIOUS
DEFENDANTS A-J, those
persons, corporations, partnerships or entities who
acted either as principal or

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

151a
agent, for or in concert
with the other named Defendants and/or whose acts
caused or contributed to
the damages sustained by
the Plaintiff, whose identities are unknown to the
Plaintiff, but which will be
substituted by amendment
when ascertained,
Defendants.

)
)
)
)
)
)
)

COMPLAINT
Plaintiff, The Water Works and Sewer Board of
the City of Centre (“Centre Water”), brings this Complaint against Defendants 3M Company, Aladdin
Manufacturing Corporation, Apricot International,
Inc., ArrowStar, LLC, Beaulieu Group LLC, Beaulieu
of America, Inc., Daltonian Flooring, Inc., Dependable
Rug Mills, Inc., Dorsett Industries, Inc., Dystar, L.P.,
ECMH, LLC d/b/a Clayton Miller Hospitality Carpets,
E.I. DuPont De Nemours and Company, Emerald Carpets, Inc., Engineered Floors, LLC, Fortune Contract,
Inc., Harcros Chemical, Inc., Indian. Summer Carpet
Mills, Inc., Industrial Chemicals, Inc., J&J Industries,
Inc., Kraus USA, Inc. (f/k/a Barrett Carpet Mills, Inc.),
Lexmark Carpet Mills Inc., Lyle Industries, Inc., MFG
Chemical, Inc., Milliken & Company, Mohawk Carpet
LLC, Mohawk Group, Inc., Mohawk Industries, Inc.,
NPC South, Inc., Oriental Weavers USA, Inc., S & S
Mills, Inc., Savannah Mills Group, LLC, Shaw Industries, Inc., Tandus Centiva Inc., Tandus Centiva US
LLC, The Dixie Group, Inc., Textile Rubber and
Chemical Company, Inc. and Victor Carpet Mills, Inc.
(“Defendants”), and allege as follows:

152a
STATEMENT OF THE CASE
1. Plaintiff, Centre Water, has and continues to
be damaged due to the negligent, willful, and wanton
conduct of the Named and Fictitious Defendants, as
well as nuisance and trespass caused by the Defendants’ past and present release of toxic chemicals, including perfluorinated compounds (“PFCs”), including, but not limited to perfluorooctanoic acid
(“PFOA”), perfluorooctane sulfonate (“PFOS”), precursors to PFOA and PFOS, and related, chemicals from
their manufacturing facilities in and around the City
of Dalton, Georgia.
2. Centre Water provides drinking water directly to its own residential and commercial customers in Cherokee County. Centre Water utilizes the
Coosa River as its raw water source, specifically drawing its source water from Weiss Lake in the Coosa
River Basin.
3. Named and Fictitious Defendants operate, or
supply chemical products to, manufacturing facilities
located upstream of Centre Water’s intake site, in or
near the City of Dalton, Georgia. Named and Fictitious Defendants use chemical compounds that contain or degrade into PFCs, including, but not limited
to PFOA and PFOS at their facilities to impart water,
stain, and grease resistance to their carpet and other
textile products. Industrial wastewater discharged
from Named and Fictitious Defendants’ manufacturing plants contains high levels of PFCs, including, but
not limited to, PFOA and PFOS. These chemicals resist degradation during processing at Dalton Utilities’
wastewater treatment center and contaminate the
Conasauga River. The Conasauga River is one of the
Coosa River’s five major tributaries.

153a
4. Named and Fictitious Defendants’ toxic chemicals have contaminated the water in the Coosa River
at Centre Water’s intake site, and the chemicals cannot be removed by the water treatment processes Centre Water currently utilizes.
5. As a direct and proximate result of Named
and Fictitious Defendants’ contamination of the
Plaintiff’s raw water source, Centre Water has suffered substantial economic and consequential damage, including, but not limited to, expenses associated
with the future installation and operation of a filtration system capable of removing the Named and Fictitious Defendants’ chemicals from the water; expenses incurred to monitor PFC contamination levels;
expenses incurred to purchase water from Cherokee
County Water Authority; and lost profits and sales.
6. Wherefore, Plaintiff Centre Water seeks compensatory and punitive damages to the fullest extent
allowed by award from a jury. Plaintiff also seeks equitable and injunctive relief compelling the Named
and Fictitious Defendants to remediate their contamination and prevent additional releases of PFCs and
other toxic chemicals, including, but not limited to
PFOS and PFOA, into Centre Water’s raw water
source.
JURISDICTION
7. Jurisdiction is proper in this Court pursuant
to ALA. CODE § 12-11-30(1.)(1975), as Plaintiff’s
claims exceed $10,000.
8. Plaintiff asserts no federal cause of action in
this Complaint.

154a
PARTIES
9. Plaintiff Centre Water is a domestic municipal corporation formed pursuant to Ala. Code § 11-50230, with its principal place of business in Cherokee
County, Alabama.
10. Defendant 3M Company (“3M”) is a foreign
corporation qualified to do business in the State of Alabama, and is causing injury in Cherokee County, Alabama.
11. Defendant Aladdin Manufacturing Corporation is a foreign corporation qualified to do business in
Cherokee County, Alabama.
12. Defendant Apricot International, Inc., is a foreign corporation causing injury in Cherokee County,
Alabama.
13. Defendant Arrowstar, LLC, is a foreign corporation causing injury in Cherokee County, Alabama.
14. Defendant Beaulieu Group LLC is a foreign
corporation causing injury in Cherokee County, Alabama.
15. Defendant Beaulieu of America, Inc., is a foreign corporation causing injury in Cherokee County,
Alabama.
16. Defendant Daltonian Flooring, Inc., is a foreign corporation causing injury in Cherokee County,
Alabama.
17. Defendant Dependable Rug Mills, Inc., is a
foreign corporation qualified to do business in the
State of Alabama, and is causing injury in Cherokee
County, Alabama.
18. Defendant E.I. du Pont de Nemours and Company is a foreign corporation qualified to do business

155a
in the State of Alabama, and is causing injury in Cherokee County, Alabama.
19. Defendant Dorsett Industries, Inc., is a foreign corporation causing injury in Cherokee County,
Alabama.
20. Defendant Dystar, L.P., is a foreign corporation causing injury in Cherokee County, Alabama.
21. Defendant ECMH, LLC d/b/a Clayton Miller
Hospitality Carpets is a foreign corporation causing
injury in Cherokee County, Alabama.
22. Defendant Emerald Carpets, Inc., is a foreign
corporation causing injury in Cherokee County, Alabama.
23. Defendant Engineered Floors, LLC is a foreign corporation causing injury in Cherokee County
Alabama.
24. Defendant Fortune Contract, Inc., is a foreign
corporation causing injury in Cherokee County, Alabama.
25. Defendant Harcros Chemical, Inc., is a foreign
corporation causing injury in Cherokee County, Alabama.
26. Defendant Indian Summer Carpet Mills, Inc.,
is a foreign corporation qualified to do business in the
State of Alabama, and is causing injury in Cherokee
County, Alabama.
27. Defendant Industrial Chemicals, Inc., is a domestic corporation with its principal place of business
in Birmingham, Alabama, and is causing injury in
Cherokee County, Alabama.

156a
28. Defendant J&J Industries, Inc., is a foreign
corporation causing injury in Cherokee County, Alabama.
29. Kraus USA, Inc. is a foreign corporation causing injury in Cherokee County, Alabama.
30. Defendant Lexmark Carpet Mills, Inc., is a
foreign corporation causing injury in Cherokee
County, Alabama.
31. Defendant Lyle Industries, Inc., is a foreign
corporation causing injury in Cherokee County, Alabama.
32. Defendant MFG Chemical, Inc., is a foreign
corporation causing injury in Cherokee County, Alabama.
33. Milliken & Company is a foreign corporation
causing injury in Cherokee County, Alabama.
34. Defendant Mohawk Carpet, LLC, is a foreign
corporation causing injury in Cherokee County, Alabama.
35. Defendant Mohawk Group, Inc., is a foreign
corporation causing injury in Cherokee County, Alabama.
36. Defendant Mohawk Industries, Inc., is a foreign corporation causing injury in Cherokee County,
Alabama.
37. Defendant NPC South, Inc., is a foreign corporation causing injury in Cherokee County, Alabama.
38. Defendant Oriental Weavers USA, Inc., is a
foreign corporation causing injury in Cherokee
County, Alabama.

157a
39. Defendant S&S Mills, Inc., is a foreign corporation causing injury in Cherokee County, Alabama.
40. Defendant Savannah Mills Group, LLC, is a
foreign corporation causing injury in Cherokee
County, Alabama.
41. Defendant Shaw Industries, Inc., is a foreign
corporation qualified to do business in the State of Alabama, and is causing injury in Cherokee County, Alabama.
42. Defendant Tandus Centiva, Inc., is a foreign
corporation qualified to do business in the State of Alabama, and is causing injury in Cherokee County, Alabama.
43. Defendant Tandus Centiva US, LLC, is a foreign corporation qualified to do business in the State
of Alabama, and is causing injury in Cherokee
County, Alabama.
44. Defendant The Dixie Group, Inc., is a foreign
corporation qualified to do business in the State of Alabama, and is causing injury in Cherokee County, Alabama.
45. Defendant Textile Rubber & Chemical Co.,
Inc., is a foreign corporation qualified to do business
in the State of Alabama, and is causing injury in Cherokee County, Alabama.
46. Defendant Victor Carpet Mills, Inc., is a foreign corporation causing injury in Cherokee County,
Alabama.
47. Fictitious Defendants A, B, C, D, E, F, G, H, I,
& J are those persons, corporations, partnerships, or
entities who discharged. PFCs and their precursor
compounds, including, but not limited to PFOA, PFOS
and related chemicals into the water supply upstream

158a
of Centre Water’s water intake site, who acted either
as principal or agent, for or in concert with the named
Defendants, and/or who acts caused or contributed to
the damages sustained by the Plaintiff, whose identities are unknown to Plaintiff, but which will be substituted by amendment when ascertained.
FACTUAL ALLEGATIONS
48. The City of Dalton, Georgia, contains over 150
carpet manufacturing plants, and more than 90% of
the world’s carpet is produced within a 65-mile radius
of the city. These manufacturing plants have used
PFOA, PFOS, and other related chemicals in the
stain-resistant carpeting manufacturing process.
49. Defendants are owners and operators of, or
the chemical suppliers to, manufacturing facilities in
and around Dalton, Georgia, which utilize various
PFCs and their precursors in the manufacturing process. Defendants discharge PFCs, including, but not
limited to PFOA, PFOS, their precursors and related
chemicals in their industrial: wastewater, which is
then treated by Dalton Utilities wastewater treatment plants before being pumped to a 9,800-acre Land
Application System (“LAS”) where it is sprayed onto
the property.
50. PFCs including, but not limited to, PFOA and
PFOS, resist degradation during the treatment process utilized by Dalton Utilities and increase in concentration as waste accumulates in the LAS. The LAS
is bordered by the Conasauga River, and runoff contaminated with PFCs pollutes the river as it flows
past the LAS.
51. The United States Environmental Protection
Agency (“EPA”) has identified industrial wastewater
from defendants’ manufacturing facilities as the

159a
source of PFCs including, but not limited to, PFOA
and PFOS being applied to the LAS and entering the
Conasauga River.
52. The human health risks caused by exposure to
low levels of PFCs such as PFOA, PFOS, and related
chemicals include testicular cancer, kidney cancer, ulcerative colitis, thyroid disease, high cholesterol, and
pregnancy-induced hypertension. The stable carbonfluorine bonds that make PFOA and PFOS so pervasive in industrial and consumer products also results
in their environmental persistence, as there is no
known environmental degradation mechanism for
these chemicals. They are readily absorbed into biota
and have a tendency to accumulate with repeated exposure.
53. The association of exposure to these chemicals
and certain cancers has been reported by the C8
Health Project, an independent Science Panel charged
with reviewing the evidence linking PFOA, PFOS,
and related chemicals to the risk of disease. The C8
Panel determined that kidney and testicular cancers
have a “probable link” to PFOA exposure. Epidemiological studies of workers exposed to PFOA support
the association between PFOA exposure and kidney
and testicular cancers. These studies also suggest associations between PFOA exposure and prostate and
ovarian cancers and non-Hodgkin lymphoma. Rodent
studies also support the link with cancer. The majority of a United States Environmental Protection
Agency (“EPA”) Science Advisory Board expert committee recommended in 2006 that PFOA be considered “likely to be carcinogenic to humans.”
54. Defendant 3M Company has long been aware
of the persistence and toxicity of PFOA, PFOS, and
related chemicals, yet it knowingly and intentionally

160a
continued to promote and sell these chemicals to the
carpet and textile manufacturing industry. Blood
tests of 3M workers conducted in 1978 found elevated
organic fluorine levels proportionate to the length of
time the employees had spent in production areas.
Furthermore, a 1979 3M study of the effects of fluorochemical compounds on Rhesus monkeys was terminated after only 20 days after every monkey, at every
dosage level, died from exposure to the chemicals.
55. Defendant 3M Company has also known for at
least 14 years that PFCs including, but not limited to,
PFOA, PFOS, and related chemicals are not effectively treated by conventional wastewater treatment
plant processes after finding high concentrations of
these chemicals in samples taken from the effluent of
a wastewater treatment plant located only a few miles
downstream from one of its production facilities.
56. The EPA took regulatory action on March 11,
2002, and December 9, 2002, by publishing two significant new use rules under the Toxic Substances Control Act to limit the future manufacture and use of
PFOA, PFOS, and related chemicals.
57. The State of New Jersey adopted a drinking
water health advisory in 2006 for PFOA that is 0.04
ppb.
58. The EPA in 2009 published provisional drinking water health advisories for PFOA and PFOS, the
limits being 0.4 ppb for PFOA and 0.2 ppb for PFOS.
59. More recent studies have shown that the 2009
EPA advisory limits were far too high. In 2014, the
EPA released a draft of its proposed “reference dose”
for PFOA, which is an estimate of how much a person
could safely consume daily over their lifetime. That
proposed reference dose translated to a limit of 0.1 ppb

161a
for PFOA, which was one-quarter the 2009 advisory
level.
60. In May 2016, the EPA issued a new drinking
water health advisory for PFOA and PFOS, warning
that exposure to elevated levels of these compounds
can lead to a number of health problems, such as cancer in adults and developmental effects in fetuses and
breastfed infants. This advisory stated that, in order
to provide a margin of protection from lifetime exposure to PFOA and PFOS in drinking water, the combined concentration of these chemicals should be no
greater than 0.07 ppb. The EPA health advisory was
based on peer-reviewed studies of the effects of PFOA
and PFOS on laboratory animals, as well as epidemiological studies of human populations exposed to
these chemicals.
61. Centre Water began regular testing for PFOA
and PFOS in its water supply following the issuance
of the May 2016 EPA health advisory, and has consistently found PFOA and PFOS levels that combine
to meet or exceed the 0.07 ppb limit.
62. Centre Water’s current water filtration system is not capable of removing or reducing levels of
PFCs including, but not limited to PFOA and PFOS.
63. Due to the high levels of PFOA and PFOS
found in its water supply, Centre Water has and will
continue to purchase water from the Cherokee County
Water Authority resulting in additional expenses and
lost profits.
64. As a direct and proximate result of Defendants’ contamination of Plaintiff’s water supply, Centre
Water has been damaged, including, but not limited
to, past and future monitoring and testing expenses,

162a
lost revenues and profits, expenses in purchasing water from other water providers, and expenses in remediating, operating and maintaining its water system.
COUNT ONE
Negligence
65. Plaintiff incorporates all prior paragraphs by
reference as if fully set forth herein.
66. Named and Fictitious Defendants owed a duty
to Plaintiff to exercise due and reasonable care in
their manufacturing and chemical supply operations
to prevent the discharge of toxic chemicals including,
but not limited to PFOA, PFOS, and related chemicals, into the water supply.
67. Named and Fictitious Defendants breached
the duty owed to Plaintiff, and under the circumstances, Defendants’ breaches constitute negligent,
willful, and/or reckless conduct.
68. As a direct, proximate, and foreseeable result
of the Named and Fictitious Defendants’ conduct,
practices, actions, and inactions, Centre Water has incurred expenses and will incur reasonably ascertainable expenditures in the future.
WHEREFORE
PREMISES
CONSIDERED,
Plaintiff demands judgment for compensatory damages against all defendants, both named and fictitious, jointly and severally, in an amount to be determined by a struck jury in an amount in excess of the
jurisdictional minimum of this court, past and future,
plus interest and costs.
COUNT TWO
Public Nuisance
69. Plaintiff re-alleges all prior paragraphs as if
set forth fully herein.

163a
70. Plaintiff Centre Water owns and occupies
property used to serve its water customers, including
a water treatment plant, water distribution system,
and offices.
71. Named and Fictitious Defendants have created a nuisance by their discharge of PFCs including,
but not limited to PFOA, PFOS, and related chemicals
into the Coosa River’s tributaries, which has caused
contamination of the Plaintiff’s water supply, thereby
causing Centre Water hurt, inconvenience, and harm.
72. The specific damages incurred by Plaintiff include, but are not limited to, expenses associated with
the future installation and operation of a filtration
system capable of removing Named and Fictitious Defendants’ chemicals from the water; expenses incurred to monitor PFC contamination levels; expenses
incurred to purchase water from the Cherokee County
Water Authority; and lost profits and sales. These
special damages are unique to Centre Water.
73. In addition to the special damages sustained
by Plaintiff, the levels of toxic chemical contamination
found in the Plaintiff’s water supply, directly caused
by the Named and Fictitious Defendants’ pollution,
have created a condition that threatens the health
and well-being of Centre Water’s customers.
74. It was reasonably foreseeable, and in fact
known to the Named and Fictitious Defendants, that
their actions would place, and have placed, the Plaintiff at risk of harm. The nuisance has caused substantial damages, and will continue to cause damages until it is satisfactorily abated.
WHEREFORE
PREMISES
CONSIDERED,
Plaintiff demands judgment for compensatory dam-

164a
ages against all Defendants, both named and fictitious, jointly and severally, in an amount to be determined by a struck jury in an amount in excess of the
jurisdictional minimum of this court, past and future,
plus interest and costs.
COUNT THREE
Private Nuisance
75. Plaintiff re-alleges all prior paragraphs as if
set forth fully herein.
76. Named and Fictitious Defendants have created a nuisance by their discharge of PFCs including,
but not limited to PFOA, PFOS, and related chemicals
into the Coosa River’s tributaries, which has caused
contamination of the Plaintiff’s water supply, thereby
causing Centre Water hurt, inconvenience, and harm.
77. The contamination of the water at Centre Water’s intake site constitutes a private nuisance depriving Centre Water of its ability to deliver clean and uncontaminated water to its customers.
78. It was reasonably foreseeable, .and in fact
known to the Named and Fictitious Defendants, that
their actions would contaminate, and have contaminated, the water at Plaintiff’s intake site. The nuisance has caused substantial damages, and will continue to cause damages until it is satisfactorily
abated.
79. WHEREFORE PREMISES CONSIDERED,
Plaintiff demands judgment for compensatory damages against all Defendants, both named and fictitious, jointly and severally, in an amount to be determined by a struck jury in an amount in excess of the
jurisdictional minimum of this court, past and future,
plus interest and costs.

165a
COUNT FOUR
Trespass
80. Plaintiff re-alleges all prior paragraphs as if
set forth fully herein.
81. Plaintiff Centre Water owns and occupies
property used to serve its water customers and other
water utilities, including a water treatment plant, and
offices.
82. Named and Fictitious Defendants’ intentional
acts in discharging PFOA, PFOS, and related chemicals, knowing that they would contaminate the water
supply and flow downstream, caused an invasion of
Plaintiff’s property by Defendants’ chemicals, which
has affected and is affecting Plaintiffs interest in the
exclusive possession of its property.
83. Plaintiff did not consent to the invasion of its
property by Named and Fictitious Defendants’ chemicals.
84. Named and Fictitious Defendants knew or
should have known that their discharges of PFOA,
PFOS, and related chemicals could contaminate the
water supply and result in an invasion of Plaintiffs
possessory interest in their property.
85. Named and Fictitious Defendants’ trespass is
continuing.
86. Named and Fictitious Defendants’ continuing
trespass has impaired Plaintiff’s use of its property
and has caused it damages by diminishing its value.
WHEREFORE
PREMISES
CONSIDERED,
Plaintiff demands judgment for compensatory damages against all Defendants, both named and fictitious, jointly and severally, in an amount to be determined by a struck jury in an amount in excess of the

166a
jurisdictional minimum of this court, past and future,
plus interest and costs.
COUNT FIVE
Wantonness and Punitive Damages
87. Plaintiff re-alleges all prior paragraphs as if
restated herein.
88. Named and Fictitious Defendants owed a duty
to Plaintiff to exercise due and reasonable care in
their manufacturing and chemical supply operations
to prevent the discharge of PFCs and their precursors,
including, but not limited to PFOA, PFOS, and related
chemicals, into the water supply.
89. In breaching the duties described above,
Named and Fictitious Defendants acted in a wanton,
willful, and reckless manner.
90. Named and Fictitious Defendants knew or
should have known the danger to Plaintiff created by
Defendants’ conduct, practices, actions, and inactions.
91. Named and Fictitious Defendants knew or
should have known of the likely impact, harm, damage, and injury their conduct would have on the Plaintiff.
92. Named and Fictitious Defendants’ conduct,
practices, and inactions evidence Defendants’ reckless
disregard for Plaintiff’s property.
WHEREFORE
PREMISES
CONSIDERED,
Plaintiff demands judgment for punitive damages
against all Defendants; both named and fictitious,
jointly and severally, in an amount to be determined
by a struck jury in an amount in excess of the jurisdictional minimum of this court, past and future, plus interest and costs.

167a
COUNT SIX
Injunctive Relief
93. Plaintiff re-alleges all prior paragraphs as if
set forth fully herein.
94. Plaintiff requests that this Court enter an Order enjoining Named and Fictitious Defendants from
continuing the conduct described above and requiring
Named and Fictitious Defendants to take all steps
necessary to remove their chemicals from Plaintiff’s
water supplies and property.
95. There is continuing irreparable injury to
Plaintiff if an, injunction does not issue, as Named
and Fictitious Defendants’ chemicals in its water supplies pose a continuing threat to Plaintiff’s property
interests, and there is no adequate remedy at law.
WHEREFORE
PREMISES
CONSIDERED,
Plaintiff demands injunctive relief against all Defendants, both named and fictitious, jointly and severally,
requiring Defendants to remove their chemicals from
Plaintiff’s water system and to prevent these chemicals from continuing to contaminate Plaintiff’s water
supply.

168a
RELIEF DEMANDED
Wherefore, Centre Water respectfully requests
this Court grant the following relief:
a) Award Plaintiff damages in an amount to be
determined by a jury sufficient to compensate
it for real property damage, out of pocket expenses, lost profits and sales, and future expenses;
b) Issue an injunction requiring Named and Fictitious Defendants to remove their chemicals
from Plaintiff’s water supply and to prevent
these chemicals from continuing to contaminate Plaintiff’s water supply;
c) Award attorney fees and costs and expenses incurred in connection with the litigation of this
matter;
d) Award such other and further relief as this
Court may deem just, proper, and equitable.
JURY DEMAND
PLAINTIFF HEREBY DEMANDS A TRIAL BY
JURY ON ALL ISSUES OF THIS CAUSE.
Dated: May 25, 2017
Respectfully submitted,
s/ Rhon E. Jones
JERE L. BEASLEY (BEA020)
Jere.Beasley@beasleyallen.com
RHON E. JONES (JON093)
Rhon.Jones@beasleyallen.com.
RICHARD D. STRATTON
(STR021)
Rick.Stratton@beaslevallen.com.

169a
GRANT M. COFER (COF008)
Grant.Cofer@beasleyallen.com.
J. RYAN KRAL (KRA016)
Ryan.Kral@beaslevallen.com.
Beasley, Allen, Crow,
Methvin, Portis & Miles, P.C.
P.O. Box 4160
Montgomery, Alabama 36103
T: 334-269-2343
F: 334-954-7555
ROGER H. BEDFORD
senbedfordeaol.com.
Roger Bedford & Associates, P.C.
P.O. Box 370
Russellville, Alabama 35653
T: 256-332-6966
F: 256-332-2800
Attorneys for Plaintiff

170a
APPENDIX H
IN THE SUPREME COURT OF ALABAMA
________________________________
EX PARTE MOHAWK INDUSTRIES, INC.;
MOHAWK CARPET, LLC; SHAW INDUSTRIES,
INC.; J&J INDUSTRIES, INC.; LEXMARK
CARPET MILLS, INC.; MFG CHEMICAL, INC.;
THE DIXIE GROUP, INC.; DORSETT
INDUSTRIES, INC.; KALEEN RUGS, INC.;
ORIENTAL WEAVERS USA, INC.; AND INDIAN
SUMMER CARPET MILLS, INC.
(In re: The Water Works and Sewer Board of
the City of Gadsden v. 3M Company, et al.)
________________________________
ON PETITIONS FOR WRIT OF MANDAMUS
FROM THE CIRCUIT COURT OF ETOWAH
COUNTY, ALABAMA (CV-16-900676)
________________________________
THE WATER WORKS AND SEWER BOARD OF
THE CITY OF GADSDEN’S CONSOLIDATED
ANSWER TO THE PETITIONS FOR WRIT OF
MANDAMUS FILED BY PETITIONERS
MOHAWK INDUSTRIES, INC., ET AL.
________________________________

171a
Jere L. Beasley
Rhon E. Jones
Richard D. Stratton
Grant M. Cofer
J. Ryan Kral
Beasley, Allen, Crow,
Methvin, Portis & Miles,
P.C.
Post Office Box 4160
Montgomery, Alabama
36103
T: 334-269-2343
F: 334-954-7555
Jere.Beasley@beasleyallen.com
Rhon.Jones@beasleyallen.com
Rick.Stratton@beasleyallen.com
Grant.Cofer@beasleyallen.com
Ryan.Kral@beasleyallen.com
Thomas O. Sinclair
SIN018)
Lee P. Fernon, Jr.
(FER036)
Sinclair Law Firm, LLC
2000 South Bridge Parkway, Suite 601
Birmingham, AL 35209
T: 205.868.0818
F: 205.868.0894

ROGER H. BEDFORD
Roger Bedford & Associates, P.C.
Post Office Box 370
Russellville, Alabama
35653
T: 256-332-6966
F: 256-332-2800
senbedford@aol.com

172a
tsinclair@sinclairlawfirm.com
lfernon@sinclairlawfirm.com
Counsel for Respondent The Water Works and
Sewer Board of the City of Gadsden

*

*

*

173a
* * *
Petitioners filed motions to dismiss and motions
for summary judgment generally alleging that the
2
court lacked personal jurisdiction. On August 13,
2018, the trial court issued an order denying Petitioners’ dispositive motions. (App. E, Order on Defendants’ Dispositive Motions and Motions for Protective
Order). The trial court found that “[Petitioners] have
conducted activity directed at Alabama and that that
activity is not ‘random,’ ‘fortuitous,’ or ‘attenuated,’ or
the ‘unilateral activity of another party or a third person.’” Id. More specifically, the trial court held that
“the act of causing the chemicals to enter the Conasauga River is an act directed at Alabama.” Id.
III.

ARGUMENT

A. This Court Has Specific 3Personal Jurisdiction over the Petitioners.
1.

Petitioners Have Sufficient Contacts
With Alabama to Establish Specific
Personal Jurisdiction.

*

*

*

2

Petitioners have included copies of the relevant motions to
dismiss as exhibits to their Petitions.
3

Respondent does not challenge Petitioner Shaw Industries,
Inc.’s argument that it is not subject to general personal jurisdiction[.]

